<html>
<title> - NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION ORGANIC ACTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                    NATIONAL OCEANIC AND ATMOSPHERIC
                      ADMINISTRATION ORGANIC ACTS

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2004

                               __________

                           Serial No. 108-67

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
94-833                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            ZOE LOFGREN, California
VACANCY                              BART GORDON, Tennessee
SHERWOOD L. BOEHLERT, New York
                ERIC WEBSTER Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
       AMY CARROLL Professional Staff Member/Chairman's Designee
                ADAM SHAMPAINE Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant


                            C O N T E N T S

                             July 15, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    16
    Written Statement............................................    23

Statement by Representative Mark Udall, Ranking Minority Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    23
    Written Statement............................................    25

                                Panel I:

The Hon. Theodore W. Kassinger, Deputy Secretary, U.S. Department 
  of Commerce
    Oral Statement...............................................    27
    Written Statement............................................    28
    Biography....................................................    31

Dr. D. James Baker, President and Chief Executive Officer, The 
  Academy of Natural Sciences
    Oral Statement...............................................    31
    Written Statement............................................    33
    Biography....................................................    36

Rear Admiral Richard D. West, President, Consortium for 
  Oceanographic Research and Education
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    47

Dr. Elbert W. (Joe) Friday, Jr., Former Assistant Administrator, 
  National Weather Service
    Oral Statement...............................................    47
    Written Statement............................................    49
    Biography....................................................    53
    Financial Disclosure.........................................    55

Discussion
  NOAA's Budget and the Congress.................................    62
  NOAA's Mission.................................................    68
  Role of NOAA in Multi-jurisdictional Issues....................    69
  Specific NOAA Functions........................................    70

                               Panel II:

Mr. Richard J. Hirn, General Counsel, National Weather Service 
  Employees Organization
    Oral Statement...............................................    74
    Written Statement............................................    75
    Biography....................................................    78

Discussion.......................................................    80

              Appendix: Answers to Post-Hearing Questions

The Hon. Theodore W. Kassinger, Deputy Secretary, U.S. Department 
  of Commerce....................................................    84

Dr. D. James Baker, President and Chief Executive Officer, The 
  Academy of Natural Sciences....................................    86

Rear Admiral Richard D. West, President, Consortium for 
  Oceanographic Research and Education...........................    87

Dr. Elbert W. (Joe) Friday, Jr., Former Assistant Administrator, 
  National Weather Service.......................................    88

Mr. Richard J. Hirn, General Counsel, National Weather Service 
  Employees Organization.........................................    89

 
      NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION ORGANIC ACTS

                              ----------                              


                        THURSDAY, JULY 15, 2004

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:07 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    National Oceanic and Atmospheric

                      Administration Organic Acts

                        thursday, july 15, 2004
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose:

    On July 15, 2004 at 2:00 p.m., the Subcommittee on Environment, 
Technology, and Standards will hold a hearing on H.R. 4546, the 
National Oceanic and Atmospheric Administration Act, and H.R. 4607, the 
National Oceanic and Atmospheric Administration Organic Act of 2004.
    NOAA was established in the Department of Commerce by Executive 
Order in 1970 under President Nixon. The 1970 Executive Order primarily 
consolidated the ocean and atmospheric activities of various federal 
agencies under NOAA. The order did not lay out an overarching mission 
for the agency and since that time Congress has not passed a 
comprehensive act outlining the mission and specific functions of the 
agency. In addition, in its Preliminary Report released in April 2004, 
the U.S. Commission on Ocean Policy strongly recommended that Congress 
pass an organic act for NOAA. H.R. 4546 responds to this Ocean 
Commission recommendation by providing an organic act for NOAA. The 
bill also includes a general authorization for NOAA's current line 
offices, such as the National Weather Service. In addition, H.R. 4546 
incorporates several NOAA-related pieces of legislation pending before 
Congress. The Administration also has submitted its own version of a 
NOAA organic act to Congress, which was introduced as H.R. 4607.

Overarching Questions:

    The hearing will address the following overarching questions:

        1.  What are the oceanic and atmospheric communities' general 
        comments on H.R. 4546 and H.R. 4607?

        2.  How is NOAA currently organized and structured and should 
        that change?

        3.  What missions and functions should NOAA be responsible for? 
        How should NOAA be organized? What should be included in an 
        organic act for NOAA?

Witnesses:

The Honorable Theodore Kassinger, Deputy Secretary, U.S. Department of 
Commerce.

Dr. James Baker, President and Chief Executive Officer, the Academy of 
Natural Sciences. Dr. Baker was Administrator of NOAA from 1993-2001.

Rear Admiral Richard West (Ret.), President, Consortium for 
Oceanographic Research and Education. Admiral West was a member of the 
subcommittee of NOAA's Science Advisory Board that recently reviewed 
NOAA's research enterprise.

Dr. Elbert (Joe) W. Friday, Jr., WeatherNews Chair of Applied 
Meteorology and Director, the Sasaki Applied Meteorology Research 
Institute, University of Oklahoma. Dr. Friday is a former Assistant 
Administrator of the National Weather Service and the Office of Oceanic 
and Atmospheric Research at NOAA. Additionally, he is a past-president 
of the American Meteorological Society.

Mr. Richard Hirn, General Counsel, National Weather Service Employees 
Organization (NWSEO). The NWSEO represents employees from many of 
NOAA's line offices.

Background:

History of NOAA
    In 1966, the Marine Resources and Engineering Act established an 
independent commission to produce a comprehensive study and 
recommendations for the Nation's ocean policy. The Commission, chaired 
by Julius Stratton, released its report in 1969. One of its 
recommendations was that the President should establish an independent 
agency to coordinate all federal, nonmilitary ocean management 
programs. In 1970, President Nixon established the National Oceanic and 
Atmospheric Administration (NOAA) by Executive Order within the 
Department of Commerce.
    The executive order establishing NOAA, Reorganization Plan No. 4 of 
1970, transferred the functions of various agencies, such as the Sea 
Grant College Program, into the new NOAA and established a leadership 
structure for the new agency. The plan did not provide an overall 
mission for the agency.
    Since that time NOAA has evolved into the central civilian federal 
agency for both oceans and atmospheric issues. However, Congress has 
never passed a comprehensive act defining the mission and specific 
functions of the agency. Instead, Congress has enacted laws on specific 
issues. In most cases these laws are not coordinated and NOAA lacks an 
overarching statutory mission to tie them together.
    Currently, NOAA has approximately 12,500 employees and an annual 
budget of about $3.4 billion, which represents 55 percent of the budget 
for the Department of Commerce. NOAA is structured around six line 
offices (see Appendix A for an organizational chart):

        <bullet>  The National Ocean Service (NOS) is responsible for 
        the observation, measurement, assessment and management of the 
        Nation's coastal and ocean areas. This includes providing 
        navigational charts and performing applied research on coastal 
        and ocean issues, such as harmful algal blooms.

        <bullet>  The National Marine Fisheries Service (NMFS) protects 
        and preserves living marine resources through fisheries 
        management, enforcement, and habitat conservation, and falls 
        under the jurisdiction of the House Resources Committee.

        <bullet>  The National Weather Service (NWS) is the Nation's 
        primary civilian source of weather data, forecasts and 
        warnings.

        <bullet>  The Office of Oceanic and Atmospheric Research (OAR) 
        is responsible for providing much of the research into 
        improving understanding of environmental phenomena such as 
        tornadoes, hurricanes, climate variability, ocean currents, and 
        coastal ecosystem health.

        <bullet>  The National Environmental Satellite Data and 
        Information Service (NESDIS) operates the Nation's weather and 
        climate satellites and manages the processing and distribution 
        of the data and images from those satellites.

        <bullet>  The Office of Program Planning and Integration (PPI) 
        promotes the development of effective programs by integrating 
        resources across NOAA.

        <bullet>  Also within NOAA is an Office of Marine Aviation and 
        Operations (OMAO), which manages the NOAA uniformed officer 
        corps. The NOAA corps is one of the Nation's uniformed military 
        services and supports the functions of all the line offices in 
        the agency, including operating planes used in hurricane 
        reconnaissance and ships used in fisheries surveys and research 
        expeditions.
Impetus for a NOAA Organic Act
    The Oceans Act of 2000 established the U.S. Commission on Ocean 
Policy (referred to here as the Commission) to perform an updated 
comprehensive review of ocean-related issues and laws facing the 
Federal Government. The Commission, recognizing that NOAA has become 
the de facto lead federal agency for oceans issues, strongly 
recommended that Congress strengthen NOAA in a three-phase process. 
Phase I, which the Commission recommends implementing immediately, is 
enactment of an organic act for the agency. Phase II, which would occur 
during the next few years, is the consolidation of certain ocean- and 
coastal-related functions from other federal agencies into NOAA. Phase 
III, a long-term action, would reorganize federal environmental 
agencies, including NOAA, into a Department of Natural Resources.
    The Commission recommended structuring NOAA around three mission 
areas in an organic act. The operations and services mission would 
include the current line offices and programs of NESDIS, NWS, and the 
mapping and charting functions of NOS. The research and education 
mission would include the current line offices and programs of OAR, the 
Office of Education, and research programs from the other line offices. 
Finally, the resource management mission would include the current NMFS 
and the ecosystem management programs from NOS. The Commission did not 
specify whether the current offices should be disestablished or whether 
they should be managed around cross-cutting missions.
NOAA Organic Acts in the House
    In response to the Commission's recommendation and discussions with 
experts in oceanic and atmospheric issues, Chairman Ehlers introduce 
H.R. 4546, the National Oceanic and Atmospheric Administration Act, on 
June 14, 2004. A section-by-section summary of the bill is contained in 
Appendix B.
    Title I of Chairman Ehlers' bill is an organic act for NOAA, 
providing an overarching mission for the agency (based on NOAA's 
Strategic Plan) and describing the functions of NOAA's research, 
weather, and climate responsibilities. H.R. 4546 structures NOAA around 
the mission areas recommended by the Commission with one exception: The 
bill retains the National Weather Service as a separate entity in NOAA 
rather than consolidating it with other operational and service 
functions, because of its longstanding independent identity.
    H.R. 4546 retains NOAA within the Department of Commerce and 
establishes a new leadership position with the agency, a Deputy 
Assistant Secretary for Science and Technology. A recent review of 
NOAA's research enterprise, performed by a subcommittee of the NOAA 
Science Advisory Board, strongly recommended establishing such a 
position at the agency.
    Title II of H.R. 4546 is a general authorization for the current 
line offices at NOAA. Titles III-VII incorporate several NOAA-related 
pieces of legislation pending before Congress, which would establish a 
coastal ocean science program, a marine research program, an ocean and 
coastal observing systems program, an abrupt climate change research 
program, and a weather research program at NOAA.
    The Administration developed its own organic act for NOAA, which 
was introduced by Mr. Ehlers (R-MI) and Mr. Gilchrest (R-MD), by 
request, as H.R. 4607. A section-by-section of H.R. 4607 is included in 
Appendix C. The Administration's bill provides four broad mission areas 
for NOAA and expands and clarifies some of the Agency's legal 
authorities. For example, it expands the authority of the Administrator 
of NOAA to accept and utilize gifts, an authority currently only within 
the office the Secretary of Commerce. H.R. 4607 does not include any 
re-organization of NOAA's functions.
    Representative Saxton (R-NJ) has introduced a bill, H.R. 4368, 
which would move NOAA from the Department of Commerce to the Department 
of the Interior. It would not change the internal line office structure 
of NOAA.
Issues to be Considered

Should an organic act for NOAA continue the current line office 
structure or move the agency organization towards the themes in H.R. 
4546 and the Commission report (research and education, operations and 
services, and resource management)?

    Some experts believe NOAA's current structure is ``stove-piped,'' 
making the agency ineffective at fully utilizing its oceanic and 
atmospheric expertise. For example, for nearly a decade OAR performed 
research on wind profilers, a novel technology for observing winds that 
held promise for improving the lead time on tornado forecasts. When 
NOAA faced budget cuts, they asked forecasters in the National Weather 
Service if they could use this new technology and if NOAA should keep 
investing funds in its development. Many of the forecasters were not 
even aware of its capabilities.
    Congress would also have to decide how to structure NOAA around the 
new missions. Either the current offices could be disestablished, or 
they could be managed around cross-cutting missions.

How should science and research be coordinated at NOAA?

    Some research at NOAA is performed in each of the operational line 
offices, while other research is performed out of OAR. Some people 
believe OAR should be dissolved and its research functions assigned to 
the appropriate line office. Then, research will be closely tied to the 
operational services. Others believe that all research should be 
located under one office because that would be more effectively 
coordinated. A third idea is to keep near-term applied research and 
development in the line offices and have the medium- to long-term 
research in OAR, and establish a leadership position at the agency to 
coordinate all the science and research activities at NOAA. This last 
idea is supported by the NOAA Research Review Team, a subcommittee of 
the NOAA Science Advisory Board that recently completely an extensive 
review of NOAA's research programs. H.R. 4546 creates a Deputy 
Assistant Secretary for science and technology to coordinate the 
science and research issues at NOAA. The Administration bill is silent 
on this topic.

Should NOAA's mission and functions be expanded to include all federal 
ocean and coastal related activities?

    This question addresses the Phase II and Phase III recommendations 
of the Commission for strengthening NOAA. As an example, the Commission 
recommended transferring operation (but not the development) of NASA 
research satellites to NOAA to ensure a smoother research to operations 
transition. This would involve the transfer not only of personnel, but 
also of the significant expense of operating satellite programs. 
Another example is the question of whether NOAA's mission should 
include wetland and estuaries research and regulation currently 
performed by the Environmental Protection Agency. H.R. 4546 does not 
move forward on these recommendations.

Witness Questions:

    The witnesses were asked to address the following questions in 
their testimony.
The Honorable Theodore Kassinger

        1.  Currently, what is the biggest problem at NOAA and can that 
        problem be addressed in statute?

        2.  What missions and functions should NOAA be responsible for? 
        How should NOAA be organized? What is the most important thing 
        to accomplish in an organic act for NOAA?

        3.  Chairman Ehlers' bill, H.R. 4546, organizes NOAA functions 
        around these mission areas recommended by the U.S. Commission 
        on Ocean Policy:

                <bullet>  operations and services, which would include 
                the current line offices and programs of the National 
                Environmental Satellite Data and Information Service, 
                the National Weather Service and the mapping and 
                charting functions of the National Ocean Service (NOS);

                <bullet>  research and education, which would include 
                the current line offices and programs of the Office of 
                Oceanic and Atmospheric Research, the Office of 
                Education and research programs from other line 
                offices;

                <bullet>  and resource management, which would include 
                the current line offices and programs of the National 
                Marine Fisheries Service and the ecosystem management 
                programs from NOS.

            What are the pros and cons of this proposed restructuring? 
        Would it improve communication across programs at NOAA to 
        support ecosystem-based management, a concept that most experts 
        agree is the way NOAA should manage natural resources?

        4.  Chairman Ehlers' bill, H.R. 4546, includes specific 
        functions for NOAA while the Administration's bill, H.R. 4607, 
        includes only four broad missions for NOAA. Why did you decide 
        to construct H.R. 4607 in this way? Given that the strategic 
        plan you developed for NOAA in 2002 suggests re-organizing the 
        agency around ``matrix management'' topics, please explain why 
        H.R. 4607 does not include recommendations for any 
        organizational changes.

Dr. James Baker

        1.  Currently, what is the biggest problem at NOAA and can that 
        problem be addressed in statute?

        2.  What missions and functions should NOAA be responsible for? 
        How should NOAA be organized? What is the most important thing 
        to accomplish in an organic act for NOAA?

        3.  Chairman Ehlers' bill, H.R. 4546, organizes NOAA functions 
        around these mission areas recommended by the U.S. Commission 
        on Ocean Policy:

                <bullet>  operations and services, which would include 
                the current line offices and programs of the National 
                Environmental Satellite Data and Information Service, 
                the National Weather Service and the mapping and 
                charting functions of the National Ocean Service (NOS);

                <bullet>  research and education, which would include 
                the current line offices and programs of the Office of 
                Oceanic and Atmospheric Research, the Office of 
                Education and research programs from other line 
                offices;

                <bullet>  and resource management, which would include 
                the current line offices and programs of the National 
                Marine Fisheries Service and the ecosystem management 
                programs from NOS.

            What are the pros and cons of this proposed restructuring? 
        Would it improve communication across programs at NOAA to 
        support ecosystem-based management, a concept that most experts 
        agree is the way NOAA should manage natural resources?

        4.  What are your general views on Title I of H.R. 4546 (the 
        NOAA organic act sections)? How can that part of the bill be 
        improved?

        5.  What are your views on the Deputy Assistant Secretary for 
        Science and Technology described in H.R. 4546? Is this a good 
        way to improve coordination of science and research at NOAA?

Admiral Richard West

        1.  Currently, what is the biggest problem at NOAA and can that 
        problem be addressed in statute?

        2.  What missions and functions should NOAA be responsible for? 
        How should NOAA be organized? What is the most important thing 
        to accomplish in an organic act for NOAA?

        3.  Chairman Ehlers' bill, H.R. 4546, would organize NOAA 
        functions around these mission areas recommended by the U.S. 
        Commission on Ocean Policy:

                <bullet>  operations and services, which would include 
                the current line offices and programs of the National 
                Environmental Satellite Data and Information Service, 
                the National Weather Service and the mapping and 
                charting functions of the National Ocean Service (NOS);

                <bullet>  research and education, which would include 
                the current line offices and programs of the Office of 
                Oceanic and Atmospheric Research, the Office of 
                Education and research programs from other line 
                offices;

                <bullet>  and resource management, which would include 
                the current line offices and programs of the National 
                Marine Fisheries Service and the ecosystem management 
                programs from NOS.

            What are the pros and cons of this proposed restructuring? 
        Would it improve communication across programs at NOAA to 
        support ecosystem-based management, a concept that most experts 
        agree is the way NOAA should manage natural resources?

        4.  What are your views on the Deputy Assistant Secretary for 
        Science and Technology described in H.R. 4546? Is this a good 
        way to improve coordination of science and research at NOAA, as 
        recommended by the NOAA Research Review Team?

Dr. Elbert Friday

        1.  Currently, what is the biggest problem at NOAA and can that 
        problem be addressed in statute?

        2.  What missions and functions should NOAA be responsible for? 
        How should NOAA be organized? What is the most important thing 
        to accomplish in an organic act for NOAA?

        3.  Chairman Ehlers' bill, H.R. 4546, would organize NOAA 
        functions around these mission areas recommended by the U.S. 
        Commission on Ocean Policy:

                <bullet>  operations and services, which would include 
                the current line offices and programs of the National 
                Environmental Satellite Data and Information Service, 
                the National Weather Service and the mapping and 
                charting functions of the National Ocean Service (NOS);

                <bullet>  research and education, which would include 
                the current line offices and programs of the Office of 
                Oceanic and Atmospheric Research, the Office of 
                Education and research programs from other line 
                offices;

                <bullet>  and resource management, which would include 
                the current line offices and programs of the National 
                Marine Fisheries Service and the ecosystem management 
                programs from NOS.

            What are the pros and cons of this proposed restructuring? 
        Would it improve communication across programs at NOAA to 
        support ecosystem-based management, a concept that most experts 
        agree is the way NOAA should manage natural resources?

        4.  What are your views on the Deputy Assistant Secretary for 
        Science and Technology described in H.R. 4546? Is this a good 
        way to improve coordination of science and research at NOAA?

Mr. Richard Hirn

        1.  Currently, what is the biggest problem at NOAA and can that 
        problem be addressed in statute?

        2.  What missions and functions should NOAA be responsible for? 
        How should NOAA be organized? What is the most important thing 
        to accomplish in an organic act for NOAA?

        3.  Chairman Ehlers' bill, H.R. 4546, would organize NOAA 
        functions around these mission areas recommended by the U.S. 
        Commission on Ocean Policy:

                <bullet>  operations and services, which would include 
                the current line offices and programs of the National 
                Environmental Satellite Data and Information Service, 
                the National Weather Service and the mapping and 
                charting functions of the National Ocean Service (NOS);

                <bullet>  research and education, which would include 
                the current line offices and programs of the Office of 
                Oceanic and Atmospheric Research, the Office of 
                Education and research programs from other line 
                offices;

                <bullet>  and resource management, which would include 
                the current line offices and programs of the National 
                Marine Fisheries Service and the ecosystem management 
                programs from NOS.

            What are the pros and cons of this proposed restructuring? 
        Would it improve communication across programs at NOAA to 
        support ecosystem-based management, a concept that most experts 
        agree is the way NOAA should manage natural resources?

        4.  What are your views on the Deputy Assistant Secretary for 
        Science and Technology described in H.R. 4546? Is this a good 
        way to improve coordination of science and research at NOAA?
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Appendix B

                     Section-by-Section Explanation

   H.R. 4546, the National Oceanic and Atmospheric Administration Act

BACKGROUND

    The National Oceanic and Atmospheric Administration (NOAA) was 
established by Executive Order in 1970. Since then, various parts of 
NOAA have been authorized by Congress, but there is no underlying 
``organic act'' defining the mission and function of the agency.
    The Oceans Act of 2000 established the U.S. Commission on Ocean 
Policy to examine the Nation's ocean policy and make recommendations 
for improvements. On April 20, 2004 the Commission released its 
preliminary report, which included 200 recommendations for an improved 
national ocean policy. One of the recommendations is that Congress 
should pass an organic act for NOAA. The Commission also suggested 
organizing NOAA's functions around specific themes rather than the 
current line office structure.
    H.R. 4546 incorporates these recommendations in Title I as a 
general organic act and by outlining NOAA's missions and functions 
under three categories: weather, operations and services, and research 
and education. The bill as introduced does not include NOAA's 
activities concerning fisheries management or the Coastal Zone 
Management Act.
    Currently NOAA has a structure of six line offices: the National 
Ocean Service (NOS), the National Marine Fisheries Service (NMFS), the 
National Weather Service (NWS), the National Environmental Satellite 
Data and Information Service (NESDIS), the Office of Oceanic and 
Atmospheric Research (OAR), and the Office of Program Planning and 
Integration (PPI). H.R. 4546 provides NOAA the flexibility to perform 
the functions described in the bill under the current organizational 
structure or by moving towards a structure that reflects the categories 
set forth in H.R. 4546.

EXPLANATION OF H.R. 4546

Section 1. Table of Contents.

    This section provides a table of contents for the bill.

Title I. National Oceanic and Atmospheric Administration.

Section 101. Short Title.

    The short title of this title is the ``National Oceanic and 
Atmospheric Administration Act.''

Section 102. Definitions.

    This section defines terms used in Title I.

Section 103. National Oceanic and Atmospheric Administration.

    This section establishes the National Oceanic and Atmospheric 
Administration (NOAA) within the Department of Commerce. The mission of 
NOAA is to understand and predict changes in the Earth's oceans and 
atmosphere and the effects of such changes on the land environment, to 
conserve and manage coastal, ocean, and Great Lakes ecosystems, and to 
educate the public about these topics. This section also describes the 
overall functions of NOAA to accomplish the mission, such as through 
research and development for improved weather forecasting, and 
collecting scientific data about coastal, ocean, and Great Lakes 
ecosystems.

Section 104. Administration Leadership.

    This section describes the leadership structure of NOAA and 
maintains the current makeup of an Under Secretary of Commerce for 
Oceans and Atmosphere as the Administrator of NOAA, and the 
Administrator's first assistant is the Assistant Secretary of Commerce 
for Oceans and Atmosphere. The section also creates a new position, a 
Deputy Assistant Secretary for Science and Technology, who shall be 
responsible for coordinating and managing all research activities 
across the agency and must be a career position.

Section 105. National Weather Service.

    This section directs the Secretary of Commerce to maintain a 
National Weather Service (NWS) within NOAA. The mission of NWS is to 
provide weather, water, climate and space weather forecasts and 
warnings for the United States, its territories, adjacent waters and 
ocean areas. The functions of NWS include: maintaining a network of 
regional and local weather forecast offices; maintaining a network of 
observations system to collect weather and climate data; and conducting 
research to support these functions.

Section 106. Operations and Services.

    This section directs the Secretary to maintain programs within NOAA 
to support operational and service functions. These functions would 
include all the activities of NOAA's National Environmental Satellite 
Data and Information Service (NESDIS) and the mapping and charting 
activities of the National Ocean Service. NESDIS functions described in 
this section include: developing, acquiring, managing, and operating 
the Nation's operational weather and climate satellite observing 
systems and managing and distributing atmospheric, geophysical and 
marine data and data products through national environmental data 
centers. The National Ocean Service activities include providing maps 
and charts for safe navigation.

Section 107. Research and Education.

    This section directs the Secretary to maintain programs within NOAA 
to conduct and support research and education functions. These 
activities would include all of the functions currently performed by 
NOAA's Office of Oceanic and Atmospheric Research (OAR), such as 
conducting and supporting research and the development of technologies 
relating to weather, climate, and the coasts, oceans, and Great Lakes. 
This section also describes the education and public outreach functions 
NOAA should carry out, which include many of the activities performed 
by NOAA's Office of Education.

Section 108. Science Advisory Board.

    This section establishes a Science Advisory Board for NOAA, which 
would provide scientific advice to the Administrator and to Congress on 
issues affecting NOAA.

Section 109: Reports.

    This section requires two reports from the Secretary. Each report 
is to be delivered to Congress within one year of the date of enactment 
of the Act. One report should assess the adequacy of the environmental 
data and information systems of NOAA and provide a strategic plan to 
address any deficiencies in those systems.
    The other report must provide a strategic plan for research at 
NOAA. This plan was recommended in a recent review of the research 
activities at NOAA by its Science Advisory Board.

Section 110. Effect of Reorganization Plan.

    This section repeals the Executive Order that established NOAA in 
1970.

Title II. Authorization of Appropriations for the National Oceanic and 
                    Atmospheric Administration.

Section 201. Short Title.

    The short title of this title is the ``National Oceanic and 
Atmospheric Administration Authorization Act of 2004.''

Section 202. Authorization of Appropriations.

    This section authorizes appropriations for NOAA's current line 
offices (except the National Marine Fisheries Service).

Title III. Coastal Ocean Science Program.

Section 301. Short Title.

    The short title of this title is the ``Coastal Ocean Science 
Program Act of 2004.''

Section 302. Coastal Ocean Science Program.

    This section reauthorizes the Coastal Ocean Science Program at NOAA 
and requires all research performed under the Program to be competitive 
and peer-reviewed. This section authorizes such sums as necessary in 
appropriations for the program.

Title IV. Marine Research.

Section 401. Short Title.

    The short title of this title is the ``Marine Research Act.''

Section 402. Purposes.

    This section describes the purposes of this title, which require 
the President to provide for the support and coordination of an 
interagency marine research program to understand and respond to the 
interactions of humans and the marine environment.

Section 403. Interagency Marine Research Program.

    This section creates the interagency marine research program 
through the Office of Science and Technology Policy and requires that a 
plan be developed to identify the goals and priorities for the program 
and the activities needed to fulfill the goals. Relevant federal 
programs and activities should be identified and estimated federal 
funding should be included in the plan.

Section 404. National Oceanic and Atmospheric Administration Marine 
Research Initiative.

    This section authorizes the Department of Commerce to establish a 
Marine Research Initiative to coordinate and implement activities of 
NOAA. The Initiative should provide support for one or more NOAA 
national centers of excellence, research grants, and scholars and 
traineeships.
    The centers of excellence, the competitive peer-reviewed extramural 
research grants, financial assistance to distinguished scholars, and 
traineeships for pre- and post-doctoral students are to help NOAA 
fulfill its mission and role in exploring the interaction of humans and 
the marine environment.

Section 405. Authorization of Appropriations.

    This section authorizes $8 million in appropriations for the NOAA 
Marine Research Initiative for fiscal years 2005 through 2008.

Title V. Ocean and Coastal Observation Systems.

Section 501. Short Title.

    The short title of this title is the ``Ocean and Coastal 
Observation Systems Act.''

Section 502. Purposes.

    This section describes the purposes of this title, which include 
providing for the development and maintenance of an integrated system 
for ocean and coastal observations and the implementation of a related 
system for the management of observation data and information.

Section 503. Integrated Ocean and Coastal Observing System.

    This section establishes, through NOAA, an integrated system of 
ocean and coastal monitoring and data analysis, communications, and 
management. The goals of the system include: improving weather 
forecasts and disaster warnings; enhancing understanding of global 
change and coastal and global ocean systems; and increasing public 
awareness of these issues. This section establishes an interagency 
Joint Operations Center, led by NOAA, to manage the technologies and 
data communications, implement the standards, and promote the 
integration necessary to deploy and support the ocean and coastal 
observing system. The section also allows for regional associations and 
pilot projects that can contribute to observing system.

Section 504. Interagency Financing.

    This section authorizes the agencies included in the Joint 
Operations Center to participate in interagency financing for carrying 
out the activities described in this title.

Section 505. Authorization of Appropriations.

    This section authorizes such sums as necessary in appropriations to 
NOAA, the National Science Foundation, the National Aeronautics and 
Space Administration, and other federal agencies as appropriate for the 
ocean and coastal observing system.

Title VI. Abrupt Climate Change.

Section 601. Short Title.

    The short title of this title is the ``Abrupt Climate Change 
Research Act.''

Section 602. Abrupt Climate Change Research Program.

    This section establishes within NOAA an abrupt climate change 
research program for improving the understanding of abrupt climate 
change mechanisms and paleoclimate indicators. The section defines 
abrupt climate change as a change in climate that occurs so rapidly or 
unexpected that human or natural systems have difficulty adapting to 
the climate as changed.

Section 603. Authorization of Appropriations.

    This section authorizes such sums as necessary in appropriations 
for the research program outlined in this title.

Title VII. United States Weather Research Program.

Section 701. Short Title.

    The short title of this title is the ``United States Weather 
Research Program Act of 2004.''

Section 702. Program Focus.

    This section outlines the focus of the Weather Research Program 
established under section 108 of the National Oceanic and Atmospheric 
Administration Authorization Act of 1992. The program should focus on 
research in extreme weather conditions, such as hurricanes and floods, 
and should work toward accelerating improvements in weather 
forecasting. This section also authorizes the program to make grants to 
universities and other research organizations.

Section 703. Program Research Priorities.

    This section defines the specific research priorities of the 
Weather Research Program within the following categories; hurricanes, 
heavy precipitation, floods, two-to-fourteen day weather forecasting, 
societal and economic impacts and improved communication related to 
adverse weather, and testing research concepts in real-life 
environments.

Section 704. Interagency Planning and Process.

    This section establishes NOAA as the lead for the Weather Research 
Program and requires the agency to work with other federal agencies to 
develop a five-year plan which outlined program goals and describes 
weather information needs, methods for disseminating weather 
information, and practices for transferring results into forecasting 
operations.

Section 705. Reporting Requirements.

    This section requires NOAA to provide a report on the Weather 
Research Program to Congress one year after enactment of this Act and 
every five years thereafter. The report should include the most recent 
five-year plan developed pursuant to section 704 of this title, 
descriptions of changes to the plan, and a detailed assessment of the 
progress made toward the program goals.

Section 706. Authorization of Appropriations.

    This section authorizes such sums as necessary in appropriations to 
the Office of Atmospheric Research within NOAA for the research program 
outlined in this title. At least 50 percent of these funds shall be for 
competitive, peer-reviewed grants to or contracts with institutions of 
higher education.

Appendix C

                     Section-by-Section Explanation

H.R. 4607, the National Oceanic and Atmospheric Administration Organic 
                              Act of 2004

PURPOSES:

    The purposes of this bill are to enhance the ability of the 
National Oceanic and Atmospheric Administration (NOAA) to assess and 
predict changes in ocean, coastal, Great Lakes and atmospheric 
ecosystems and in the environment; manage, protect and restore the 
Nation's ocean, coastal and Great Lakes areas, including ecosystem 
approaches; conduct, support, and coordinate efforts to enhance public 
awareness; provide reliable scientific information that can be used as 
a basis for sound management and public safety decisions; protect lives 
and property and expand economic opportunities; and pursue its purposes 
in partnership with public and private entities. These purposes are 
effectuated through the following provisions, which establish the 
National Oceanic and Atmospheric Administration, amend the organization 
and functions of the NOAA Advisory Committee on Oceans and Atmosphere, 
and provide other amendments relative to the organization, purposes and 
authorities of NOAA.

EXPLANATION OF H.R. 4607:

TITLE I--NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION ORGANIC ACT OF 
                    2004

SECTION 101. SHORT TITLE

    Section 101 would set forth the short title of the Act as the 
``National Oceanic and Atmospheric Administration Organic Act of 
2004''.

SEC. 102. ESTABLISHMENT

    Section 102 would establish within the Department of Commerce, the 
National Oceanic and Atmospheric Administration.

SEC. 103. DEFINITIONS

    Section 103 would provide definitions for terms used in the Act.

SEC. 104. OFFICERS

    Section 104 would establish within NOAA the following positions: 
Under Secretary of Commerce for Oceans and Atmosphere; Assistant 
Secretary of Commerce for Oceans and Atmosphere; and, Deputy Under 
Secretary for Oceans and Atmosphere. Section 104 would also authorizes 
the Under Secretary, consistent with applicable law including Title II 
of the National Oceanic and Atmospheric Administration Commissioned 
Officers Corps Act of 2002, to create additional positions as deemed 
necessary to carry out the purposes and authorities of NOAA.

SEC. 105. PURPOSES AND AUTHORITIES

    Section 105 would set forth the purposes of NOAA. It would also 
authorize NOAA to undertake activities necessary to implement NOAA's 
purposes. It preserves all authorities currently vested in NOAA, 
including those transferred to the Secretary by Reorganization Plan No. 
4 of 1970 (Reorganization Plan). This Act is not intended to alter the 
current authorities or responsibilities of any other federal agency. 
Subsection 105 (a)(4) contemplates that NOAA's purpose to protect life 
and property includes a continuation of its efforts to contribute to 
the Nation's national security and homeland security efforts.

SEC. 106. CONFORMING AMENDMENTS, REPEALS AND TRANSITION

    Subsection 106(a) would repeal the Reorganization Plan. To ensure 
continued force of all provisions of law and past actions predicated 
upon or referencing the Reorganization Plan, subsection 106(b) would 
provide that any reference to NOAA, the Under Secretary of Commerce for 
Oceans and Atmosphere (either by that title or by the title of the 
Administrator of NOAA), or any other official of NOAA, in any law, 
rule, regulation, certificate, directive, instruction, or other 
official paper in force on the effective date of this Act shall be 
deemed to refer and apply to the NOAA established in section 102 of 
this Act, or the position of Under Secretary of Commerce for Oceans and 
Atmosphere established in section 104 of this Act. Subsection 106(d) 
adds the Executive Level position of Under Secretary and Assistant 
Secretary to the relevant provisions of Title 5 of the United States 
Code that provide for Executive Level pay. Subsection 106(e) provides 
that the first individual appointed to the position of Under Secretary, 
and the first person appointed to the position of Assistant Secretary, 
shall be appointed by the President alone.

SEC. 107. SAVINGS PROVISION

    Section 107 would provide that any actions taken by the Secretary, 
the Department of Commerce, the Under Secretary, or any other official 
of NOAA, that are in effect immediately before the date of enactment of 
this Act, shall continue in full force and effect after the date of 
enactment of this Act until modified or rescinded.

SEC. 108. NO EFFECT ON OTHER AUTHORITIES

    Section 108 would provide that this Act shall not amend or alter 
the provisions of other applicable acts unless otherwise noted. It is 
intended that nothing in this Act derogates from the duties and 
functions of other agencies or alters the current authorities relating 
to those agencies.

TITLE II--NOAA ADVISORY COMMITTEE ON OCEANS AND ATMOSPHERE

SECTION 201. AMENDMENTS

    Subsection 201(a) would amend section 2 of P.L. 95-63, known as the 
National Advisory Committee on Oceans and Atmosphere Act of 1977 (33 
U.S.C. 857-13), by deleting the requirement to have 18 Committee 
members, allowing the size of the Committee to be appropriately 
tailored to its purposes and needs.
    Subsection 201(b) would amend section 3(a) of P.L. 95-63 (33 U.S.C. 
857-14(a) ), by providing that: a) appointment of Committee members 
shall be by the Under Secretary, in lieu of the President; and b) 
original members of the Committee shall be current members of the NOAA 
Science Advisory Board who wish to serve in such capacity, together 
with any additional qualified individuals necessary to fulfill the 
purposes of the Committee.
    Subsection 201(c) would amend section 3(b) of P.L. 95-63 (33 U.S.C. 
857-14(b) ), by staggering terms of membership on the Committee to 
ensure continuity of the Committee, and limiting appointment on the 
Committee to no more than two consecutive three-year terms.
    Subsection 201(d) would amend section 3(c) of P.L. 95-63 (33 U.S.C. 
857-14(c) ) by authorizing the Under Secretary to designate a Chairman 
and Vice Chairman of the Committee.
    Subsection 201(e) would amend section 3(d) of P.L. 95-63 (33 U.S.C. 
857-14(d) ), by providing that the function of the Committee is to 
advise the Under Secretary with respect to the programs administered by 
NOAA.
    Subsection 201(f) would delete sections 4 and 6 of P.L. 95-63 (33 
U.S.C. 857-15 and 857-17), relating to reports and interagency 
cooperation and assistance, respectively. A newly designated section 4 
would provide that members of the Committee shall be entitled to 
receive compensation not to exceed the daily rate provided for Level IV 
of the Executive Schedule Pay Rates for each day during which they are 
engaged in the actual performance of the duties of the Committee.
    Subsection 201(g) would rename the ``National Advisory Committee on 
Oceans and Atmosphere'' as the ``NOAA Advisory Committee on Oceans and 
Atmosphere''.
    Chairman Ehlers. I just wanted to mention that courtesy 
requires that we wait for a Member of the minority to appear 
before we begin, so we will begin as soon as that happens.
    The Committee will come to order.
    I wanted to welcome all of you to today's hearing on 
legislation creating an organic act for the National--excuse 
me, National Oceanic and Atmospheric Administration, better 
known to everyone as NOAA.
    Your first question may be what is an organic act, and why 
does NOAA, an agency that has been around for 30 years, need 
one? Excuse me.
    An organic act defines the overall mission and functions of 
an agency, such as the organic act that created the National 
Science Foundation. As an example, my bill, H.R. 4546, states 
that the mission of NOAA is first, to understand and predict 
changes in the Earth's oceans and atmosphere, second to 
conserve and manage coastal, ocean, and Great Lakes ecosystems, 
and third, to educate the public about these topics. The bill 
also describes the specific functions NOAA should carry out to 
fulfill its mission, such as issuing weather forecasts and 
warnings.
    NOAA was created in 1970 by then President Nixon through an 
Executive Order. This Executive Order transferred various 
oceanic and atmospheric functions from other agencies into the 
new NOAA, and placed it in the Department of Commerce. However, 
the order did not provide an overall mission for the Agency. 
After roughly 35 years, our nation has again undertaken a broad 
review of our ocean policy. The U.S. Commission on Ocean 
Policy, which released a preliminary report this past April, 
made more than 200 recommendations to Congress. During a 
Science Committee hearing on the report, the Commission's 
Chair, Admiral Watkins, and all the other witnesses said one of 
the most important steps for Congress to take is the creation 
and passage of a NOAA Organic Act.
    I certainly agreed with their sentiment. In fact, we had 
already been working on a NOAA organic act for a year or more, 
and after consultation with many experts, I introduced H.R. 
4546 to serve as the organic act for NOAA. This bill strikes a 
balance between providing Congressional direction on NOAA's 
mission, and allowing the Administration the flexibility to 
adapt to future needs.
    H.R. 4546, as introduced, does not include any reference to 
fisheries or resource management at NOAA, because those topics 
are under the jurisdiction of the Resources Committee. I look 
forward to working with my colleagues on that committee to pass 
a truly comprehensive organic act for NOAA, and in fact, I have 
already had some discussions with the Subcommittee Chairman, 
who has that issue under his jurisdiction, and hope to soon 
talk to the Committee Chair on that matter.
    Our discussion today will focus on how NOAA should be 
organized. For example, should the current line office 
structure be maintained, or should the Agency be reorganized 
around ecosystems-based management, as suggested by the Ocean 
Commission? Another important question is how best to 
coordinate research and science at NOAA. We will also hear 
testimony about the Administration's proposed NOAA Organic Act, 
which I introduced with my colleague from Maryland, Mr. 
Gilchrest, at the request of the Administration. I should note 
that Mr. Gilchrest, who is a valuable Member of the Science 
Committee, is also a Chair of the Resources Subcommittee on 
Fisheries, which is the other major Committee with NOAA 
jurisdiction, and the individual who will have much to say 
about rewriting that part of the NOAA Act.
    We are here today to learn from our witnesses how they 
believe we can best define and organize NOAA to better fulfill 
its mission. I look forward to hearing from them on how to 
accomplish this goal, and I especially want to receive their 
comments on our efforts as contained in H.R. 4546.
    I would like to request unanimous consent that two letters 
of support for H.R. 4546 be made part of the record. One is 
from the ocean community, and the other is from the weather 
community. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    It is now my pleasure to recognize the gentleman from 
Colorado, Mark Udall, the Ranking Minority Member, for his 
opening statement.
    [The prepared statement of Mr. Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    I want to welcome all of you to today's hearing on legislation 
creating an organic act for the National Oceanic and Atmospheric 
Administration (better know as NOAA). Your first question may be what 
is an organic act? And why does NOAA, an agency that has been around 
for 30 years, need one?
    An organic act defines the overall mission and functions of an 
agency. As an example, my bill, H.R. 4546 states that the mission of 
NOAA is: (1) to understand and predict changes in the Earth's oceans 
and atmosphere; (2) to conserve and manage coastal, ocean, and Great 
Lake ecosystems; and (3) to educate the public about these topics. The 
bill also describes the specific functions NOAA should carry out to 
fulfill its mission, such as issuing weather forecasts and warnings.
    NOAA was created in 1970 by then-President Nixon through an 
executive order. This executive order transferred various oceanic and 
atmospheric functions from other agencies into the new NOAA, and placed 
it in the Department of Commerce. However, the order did not provide an 
overall mission for the agency.
    After roughly 35 years our nation has again undertaken a broad 
review of our ocean policy. The U.S. Commission on Ocean Policy, which 
released its preliminary report this past April, made more than 200 
recommendations to Congress. During a Science Committee hearing on the 
report, the Commission's chair, Admiral Watkins, and all the other 
witnesses said one of the most important steps for Congress to take is 
the creation and passage of a NOAA organic act.
    I agreed with their sentiment. In fact, we had already been working 
on a NOAA organic act for a year. And after consultation with many 
experts, I introduced H.R. 4546. This bill strikes a balance between 
providing Congressional direction on NOAA's mission and allowing the 
Administration the flexibility to adapt to future needs. H.R. 4546 as 
introduced does not include any reference to fisheries or resource 
management at NOAA because those topics are under the jurisdiction of 
the Resources Committee. I look forward to working with my colleagues 
on that Committee to pass a truly comprehensive organic act for NOAA.
    Our discussion today will focus on how NOAA should be organized. 
For example, should the current line office structure be maintained or 
should the agency be reorganized around ecosystem-based management, as 
suggested by the Ocean Commission? Another important question is how 
best to coordinate research and science at NOAA.
    We will also hear testimony about the Administration's proposed 
NOAA organic act, which I introduced with my colleague from Maryland, 
Mr. Gilchrest, at the request of the Administration. I should note that 
Mr. Gilchrest, who is a valuable Member of the Science Committee, is 
also Chair of the Resources Subcommittee on Fisheries, which is the 
other major Committee with NOAA jurisdiction.
    We are here today to learn from our witnesses how they believe we 
can best define and organize NOAA to better fulfill its mission. I look 
forward to hearing from them on how to accomplish this goal, and I 
especially want to receive their comments on our efforts as contained 
in H.R. 4546.
    I would like to request unanimous consent that two letters of 
support for H.R. 4546 are made part of the record. One is from the 
ocean community and the other is from the weather community.

    Mr. Udall. Good afternoon, and let me begin by thanking my 
friend and the Chairman of this important Subcommittee for 
holding this hearing.
    The introduced bills, the Pew Commission Report, and the 
Ocean Commission Report provide us with a wealth of information 
and proposals to consider. It is high time that Congress took a 
comprehensive look at NOAA's mission and functions, and that we 
examine the state of the natural resources that NOAA manages. 
NOAA's health is of great concern to me as Ranking Member of 
this subcommittee, and as representative of the district in 
Colorado that houses six of NOAA's laboratories.
    So, with that in mind, I am sorry to say, at least in my 
opinion, that the news about NOAA is not as good as it could 
be. NOAA as an organization is in trouble. It is underfunded 
and understaffed relative to the numerous and diverse tasks the 
Agency performs under its many statutory mandates. Some of its 
facilities are in need of refurbishment and repair. And I have 
to tell you, I fear the current reorganization effort is 
placing a greater emphasis on achieving cost savings than on 
developing a culture that fosters teamwork and collaboration 
among NOAA's line offices. NOAA's relationship with other 
federal agencies, states, and the many non-governmental 
organizations it interacts with, also need to be better defined 
and supported.
    If we look at the natural resources that NOAA is charged 
with conserving and managing fisheries, coastal areas, oceans, 
and the Great Lakes they are also in trouble. Our once abundant 
fisheries in this country continue to suffer from a combination 
of impacts including overfishing, habitat destruction, and 
pollution. Harmful algal blooms and hypoxia, once rare events, 
are increasing in their frequency and intensity. Our policies 
and NOAA's execution of them are failing to ensure the long-
term viability of these vital resources.
    Human activities have altered the chemistry of the Earth's 
atmosphere and continue to do so, even as the evidence mounts 
that these changes will alter the climate and impact the 
ecological systems that we depend upon. While NOAA is not 
charged with managing or conserving the atmosphere, the Agency 
does have expertise that could be used in collaboration with 
other federal agencies and outside organizations to do 
vulnerability assessments of the potential impacts of climate 
change.
    NOAA's failures are not the result of the policies of any 
particular Administration, or the actions of any particular 
Congress. I find it difficult to believe they are the result of 
an imperfect organizational structure at NOAA. We have gotten 
to this point over a long period of time and for many reasons. 
If we are to reverse these trends, there are a number of policy 
issues that we need to address as we develop a NOAA Organic 
Act. One of the issues that we must confront is the inevitable 
conflict that arises when we attempt to reconcile short-term, 
narrow, economic interests with long-term preservation, and 
management of coastal and oceanic ecosystems.
    We need to ensure sufficient support for NOAA's scientific 
enterprise, in addition to providing adequate resources to 
deliver the operational products of the National Weather 
Service, which are so essential to public safety and to our 
economy. We must continue to monitor our atmosphere and our 
oceans, and to disseminate, archive, and preserve the 
information for present and future study of the planet. 
However, we cannot monitor everything, and we should not allow 
monitoring and study to delay the implementation and 
enforcement of management and conservation policies.
    In his testimony, Secretary Kassinger refers to the 
unresolved disagreements that have stymied previous efforts to 
enact a NOAA Organic Act. These disagreements are likely to 
derail this effort if we fail to confront them and address them 
in a constructive fashion. A visionary mission statement and a 
clear definition of Agency functions are meaningless if we do 
not also provide the human and financial resources for NOAA to 
perform its statutory functions and to carry out its mission.
    So I sincerely hope that this hearing is not the last we 
will hold to examine the challenges that NOAA faces, and to 
hear from the many constituencies that depend upon the services 
and products that NOAA provides. Despite its problems--and let 
me conclude with this, NOAA and its dedicated workforce 
continue to deliver vital services to this nation, but we must 
do more to help this Agency realize its potential and 
accomplish the missions we have required of it.
    And I hope our panel today will address some of the issues 
I have raised, and I welcome and will welcome their thoughts on 
how we can develop a NOAA Organic Act that will set the stage 
for NOAA's future success and the wise stewardship of our 
nation and our planet.
    Mr. Chairman, with that, I would yield back any time, and 
thank you for holding the hearing today.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good afternoon. Let me begin by thanking Chairman Ehlers for 
holding this hearing. The introduced bills, the Pew Commission report, 
and the Ocean Commission report provide us with a wealth of information 
and proposals to consider. It is high time that Congress took a 
comprehensive look at NOAA's mission and functions and that we examine 
the state of the natural resources NOAA manages.
    NOAA's health is of great concern to me as Ranking Member of this 
subcommittee and as Representative of the district in Colorado that 
houses six of NOAA's laboratories.
    So I am sorry to say the news about NOAA is not good. NOAA as an 
organization is in trouble. It is under-funded and under-staffed 
relative to the numerous and diverse tasks the agency performs under 
its many statutory mandates. Some of its facilities are in need of 
refurbishment and repair.
    And, I fear the current reorganization effort is placing a greater 
emphasis on achieving cost-savings than on developing a culture that 
fosters teamwork and collaboration among NOAA's line offices. NOAA's 
relationship with other federal agencies, States, and the many non-
governmental organizations it interacts with also needs to be better 
defined and supported.
    If we look at the natural resources that NOAA is charged with 
conserving and managing--fisheries, coastal areas, oceans and the Great 
Lakes--they are also in trouble. Our once abundant fisheries in this 
country continue to suffer from a combination of impacts, including 
over-fishing, habitat destruction, and pollution. Harmful algal blooms 
and hypoxia--once rare events--are increasing in their frequency and 
intensity. Our policies and NOAA's execution of them are failing to 
ensure the long-term viability of these vital resources.
    Human activities have altered the chemistry of the Earth's 
atmosphere and continue to do so even as the evidence mounts that these 
changes will alter the climate and impact the ecological systems that 
we depend upon. While NOAA is not charged with managing or conserving 
the atmosphere, the agency does have expertise that could be utilized 
in collaboration with other federal agencies and outside organizations 
to do vulnerability assessments of the potential impacts of climate 
change.
    NOAA's failures are not the result of the policies of any 
particular administration or the actions of any particular Congress. I 
find it difficult to believe they are the result of an imperfect 
organizational structure at NOAA. We have gotten to this point over a 
long period of time and for many reasons. If we are to reverse these 
trends, there are a number of policy issues that we need to address as 
we develop a NOAA organic act.
    One of the issues we must confront is the inevitable conflict that 
arises when we attempt to reconcile short-term, narrow economic 
interests with long-term preservation and management of coastal and 
oceanic ecosystems. We need to ensure sufficient support for NOAA's 
scientific enterprise in addition to providing adequate resources to 
deliver the operational products of the National Weather Service, which 
are so essential to public safety and to our economy.
    We must continue to monitor our atmosphere and our oceans and to 
disseminate, archive and preserve the information for present and 
future study of the planet. However, we cannot monitor everything, and 
we should not allow monitoring and study to delay the implementation 
and enforcement of management and conservation policies.
    The oceans and the atmosphere do not reside within single state 
borders or within the exclusive economic zone of the United States. 
Within the United States, these resources must be managed in a true 
partnership between the states and the Federal Government. But that is 
not sufficient. These are global resources, so we must also be engaged 
in a constructive partnership with other nations to conserve and manage 
these resources for the benefit of all nations. We must maintain our 
role as an international leader generating and sharing scientific 
information and establishing innovative policies that will ensure the 
viability of our planet.
    In his testimony, Deputy Secretary Kassinger refers to the 
``unresolved disagreements'' that have stymied previous efforts to 
enact a NOAA organic act. These disagreements are likely to de-rail 
this effort if we fail to confront them and address them in a 
constructive fashion. A visionary mission statement and a clear 
definition of agency functions are meaningless if we do not also 
provide the human and financial resources for NOAA to perform its 
statutory functions and to carry out its mission.
    I sincerely hope that this hearing is not the last we will hold to 
examine the challenges NOAA faces and to hear from the many 
constituencies that depend upon the services and products that NOAA 
provides. We must improve NOAA's ability to do its work.
    Despite its problems, NOAA and its dedicated workforce continue to 
deliver vital services to this nation. But we must do more to help this 
agency realize its potential and accomplish the missions we have 
required of it. I hope our panel today will address some of the issues 
I have raised. I welcome their thoughts on how we can develop a NOAA 
organic act that will set the stage for NOAA's future success and the 
wise stewardship of nation and our planet.

    Chairman Ehlers. Thank you, Mr. Udall. Normally, I don't 
comment on the opening statements others make, but I want to 
reassure you and others that I regard the ocean as our--as a 
great frontier that we should learn much more about, and should 
be studying much more extensively, and in every way. And 
obviously, that does, as you say, require extra human resources 
and financial resources.
    The--my goal is that as we prepare an organic act, we will 
set the stage for good management, cost savings, and you know 
as well as I that when you can show good management and cost 
savings, the appropriations actually tend to increase, and it 
is my fond hope that may eventually happen.
    If there is no objection, all additional opening statements 
submitted by the Subcommittee Members will be added to the 
record. Without objection, so ordered.
    At this time, I would like to introduce our witnesses. We 
have an all star cast today. We will have two panels.
    And on the first panel, we have Mr. Ted Kassinger. He is 
the Deputy Secretary of the U.S. Department of Commerce, and we 
really appreciate your presence here, and also want to 
congratulate you on your recent appointment to this important 
post. We hope that--we wish you well, and we hope that you will 
never regret having accepted this.
    Mr. Kassinger. I am sure it won't be because of the hearing 
today, Mr. Chairman.
    Chairman Ehlers. The next witness is a familiar face from 
the past. Dr. Jim Baker is the President and Chief Executive 
Officer of the Academy of Natural Sciences. He was the 
Administrator of NOAA from 1993 to 2001.
    Next, we have Admiral West, who is the President of the 
Consortium for Oceanographic Research and Education, and is the 
former Oceanographer of the Navy.
    And the fourth member of this panel is Dr. Joe Friday, 
another familiar face, the Weather News Chair of Applied 
Meteorology and Director of the Sasaki Applied Meteorology 
Research Institute at the University of Oklahoma. Dr. Friday is 
a former Assistant Administrator of the National Weather 
Service and the Office of Oceanic and Atmospheric Research at 
NOAA.
    We will have a second panel that I will introduce at a 
later time. As our witnesses presumably have been told, we 
limit spoken testimony to five minutes. Your written testimony 
will automatically be entered into the record, and we ask you 
to summarize your comments in oral testimony for five minutes, 
and the little lights, both here and in front of you, will 
indicate your progress. The first four minutes are green, the 
second--the final minute is orange, and when the red light goes 
on, you have real problems, and so do I. So, we would 
appreciate you trying to limit it to five minutes. We will 
start with Mr. Kassinger.

                                Panel I

STATEMENT OF HON. THEODORE W. KASSINGER, DEPUTY SECRETARY, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Kassinger. Thank you, Mr. Chairman, for those kind 
words, and for the invitation to appear today. Mr. Udall, 
Members of the Subcommittee, we really appreciate your 
convening this hearing on H.R. 4546, a NOAA Organic Act. I want 
to thank you for your continuing support of NOAA and its 
programs. I also want to thank Chairman Ehlers and Congressman 
Gilchrest for graciously acceding to the Administration's 
request to introduce H.R. 4607, our version of a NOAA Organic 
Act.
    NOAA has an enormous impact on our nation's economic and 
environmental welfare. Secretary Evans recently noted NOAA's 
products and services touch some 30 percent of the Nation's 
gross domestic product. However, since its establishment in 
1970, NOAA has relied on nearly 200 separate legislative 
authorities to carry out its business. Some, such as the 
Merchant Marine Act of 1936 and the Agricultural Marketing Act 
of 1946, precede the creation of NOAA by several decades. A 
unified law, an organic act, will provide a solid foundation 
for NOAA to meet the needs of the 21st Century. This was also 
the conclusion of the U.S. Commission on Ocean Policy's 
preliminary report released this past April.
    Both H.R. 4546 and H.R. 4607 share common objectives, but 
differ somewhat in three general areas: first, in the explicit 
grant of Agency-wide administrative authorities; second, in the 
flexibility to reorganize the Agency's structure and programs; 
and third, in the nature and scope of an outside Board to 
advise the Administrator about NOAA's activities. I will speak 
to each of these briefly in turn.
    First, H.R. 4607 would greatly simplify NOAA's resource 
management and stewardship abilities by codifying in one place 
its core administrative authorities. For example, that bill 
would grant to NOAA authority to accept gifts and bequests, 
consistent with similar authorities provided to other federal 
agencies. The ability to accept such gifts and bequests could 
be used to obtain weather radio towers, for example.
    H.R. 4607 would also grant the authority to acquire 
property interests, which could, for example, have positive 
results when we undertake to manage natural resource damage and 
restoration programs. It also would grant authority to operate 
through partnerships and enter into agreements with non-federal 
entities.
    Currently, these types of authorities are scattered about 
those 200 statutes I mentioned, and thus, do not apply to all 
of NOAA's activities, and so we have a patchwork effort, often, 
when Congress and the Administration identify programmatic 
needs, and we seek legal authority to carry them out. The 
introduction and enactment of an organic act would allow us to 
have Agency-wide authority to clearly carry out the kinds of 
programs that you and we want to administer.
    Second, both H.R. 4546 and H.R. 4607 establish the 
positions of Under Secretary or Administrator, Assistant 
Secretary, Deputy Administrator, and Deputy Under Secretary. 
However, H.R. 4546 establishes other senior positions in law. 
The Administration bill, in contrast, would allow NOAA the 
flexibility to establish additional senior positions as needed.
    H.R. 4546 also includes specific operations and services 
for NOAA, and identifies a few specific programs for 
authorization. In contrast, H.R. 4607 would contain four broad 
missions: encompassing ecosystem approaches to management, 
climate, weather and water, and commerce and transportation. 
This approach would allow for organizational and programmatic 
changes that may be needed to meet future developments and 
challenges.
    Third, both bills address a need for an advisory panel of 
experts. H.R. 4546 would establish a 15-member Science Advisory 
Board. H.R. 4607 would establish a broader-based NOAA Advisory 
Committee on Oceans and Atmosphere that incorporates the 
functions of the current NOAA Science Advisory Board. The 
Administration bill also provides flexibility for determining 
the number of Committee members in terms of service. These are 
very similar concepts in both bills. Our thought is to provide 
this advisory committee with somewhat broader responsibilities 
to advise the Administrator across a broader range of issues.
    Mr. Chairman, thank you for the opportunity to discuss both 
the Committee's bill and the Administration's bill. We 
appreciate the Committee's continuing support of NOAA, and look 
forward to working with you as the bills move through the 
legislative process.
    I would be pleased to answer any questions you have.
    [The prepared statement of Mr. Kassinger follows:]

              Prepared Statement of Theodore W. Kassinger

    Chairman Ehlers, Mr. Udall, and Members of the Subcommittee, I 
appreciate your convening this hearing today on the creation of a NOAA 
Organic Act to bring together in one statute the fundamental structure, 
purposes, and authorities of the National Oceanic and Atmospheric 
Administration (NOAA).
    I thank you, Mr. Chairman, for your continuing support of NOAA's 
programs, as evidenced by your introduction of H.R. 4546, the NOAA 
Organic Act authored by you and under consideration by the House 
Science Committee. I also want to thank both you and Congressman 
Gilchrest for graciously acceding to the Administration's request to 
introduce H.R. 4607, our version of a NOAA Organic Act.
    Because of its strategic impact on the economic and environmental 
welfare of the Nation, NOAA commands a central place within the 
Department of Commerce. As Secretary Evans recently noted, NOAA's 
products and services touch 30 percent of the Nation's GDP every year. 
Waterborne cargo alone contributes over $740 billion to our GDP and 
supports jobs for more than 13 million citizens. The commercial fishing 
industry adds approximately $28.5 billion to the national economy on a 
yearly basis.
    In transmitting the Administration's proposed NOAA Organic Act to 
the Congress, Secretary Evans stated that the increasing economic and 
environmental importance of ocean and atmospheric assessment, research 
and stewardship created an acute need to enhance NOAA's ability to 
predict and protect the environment and contribute to our nation's 
safety, health and prosperity. In line with that stated need, NOAA has 
adopted for itself the following four priorities: ecosystem approaches 
to managing the environment; climate change; weather and water; and 
commerce and transportation. Because the Nation's economy depends on 
NOAA products, we have placed an emphasis on science that has a clear 
application to NOAA's programs.
    Originally created by Reorganization Plan No. 4 in 1970, NOAA has 
accumulated a large number of diverse responsibilities over the 
decades. It currently relies on close to two hundred separate 
legislative authorities, as well as on statutes of general 
applicability, to perform its job. Some of these, such as the Merchant 
Marine Act of 1936, the Agricultural Marketing Act of 1946, and the 
Coast and Geodetic Survey Act of 1947, predate the creation of NOAA. 
Nonetheless, from the late 1970's through the present, various 
Executive and Legislative Branch initiatives to organize NOAA's 
missions and authorities into a single law have foundered due to 
unresolved disagreements. After thirty-four years, it is time to 
advance from a Reorganization Plan to a unified, coherent legislative 
enactment.
    In its Preliminary Report, released for review of the governors of 
the United States on April 20, 2004, the U.S. Commission on Ocean 
Policy reached the same conclusion. In its report, the Commission 
recommends immediate Congressional action on an organic act to enhance 
NOAA's ability to conduct operations consistent with the principles of 
ecosystem-based management and with its primary functions.. . . Admiral 
James Watkins, Commission Chairman, emphasized the importance of a NOAA 
Organic Act before the House Science Committee on May 5, 2004. The 
Administration concurs fully and, with the transmittal to Congress of 
an Administration proposal, has acted upon this preliminary 
recommendation from the Commission.
    The introduction of H.R. 4546 and H.R. 4607 thus offers a timely 
and welcome opportunity to consider anew the appropriate way to define 
NOAA's mission and responsibilities. While we can be assured of a wide 
variety of views on this subject, it is encouraging that all parties 
seem to agree on one important tenet: NOAA, for the first time, must 
have a unified law to provide a solid foundation for its future service 
to the United States.
    While both bills share common objectives, they differ in approach 
in three general areas: first, the explicit grant of agency-wide 
authorities; second, flexibility to reorganize the agency's structure; 
and third, the nature and scope of an advisory board to oversee NOAA's 
activities. We are confident that these differences in approach can be 
resolved satisfactorily, and we look forward to working with your 
committee to that end.

Explicit Grant of Agency-Wide Authority

    H.R. 4607 would greatly simplify NOAA's ability to undertake 
research activities, to disseminate information, to manage ocean and 
coastal areas, and to provide stewardship of living marine resources by 
codifying in one place its core administrative authorities. By way of 
example, H.R. 4607 grants to NOAA----

        <bullet>  authority to accept gifts and bequests, consistent 
        with similar authorities provided to other federal agencies. 
        The ability to accept such gifts or bequests could be used, for 
        example, to obtain weather radio towers.

        <bullet>  authority to acquire property interests, which could, 
        for example, have positive results for managing natural 
        resource damage and restoration programs, by confirming that 
        NOAA has authority to acquire directly property to be used for 
        habitat restoration projects.

        <bullet>  authority to operate through partnerships and enter 
        into agreements with non-federal entities.

    While NOAA has many of these authorities under statutes for 
specific programs, or under the Department's general authorities, this 
bill provides clear authorities on a NOAA-wide basis, and places the 
NOAA authorities together in one public law. We recommend that a NOAA 
organic act include provisions providing these types of NOAA-wide 
authorities.

Flexibility to Reorganize the Agency's Structure

    While both bills establish the positions of Under Secretary 
(Administrator), Assistant Secretary (Deputy Administrator), and Deputy 
Under Secretary, H.R. 4546 would also establish the NOAA SES positions 
of Deputy Assistant Secretary for Oceans and Atmosphere, Deputy 
Assistant Secretary for International Affairs, Deputy Assistant 
Secretary for Science and Technology, and General Counsel. H.R. 4607, 
by contrast, would allow these and other senior positions to be 
established by the NOAA Under Secretary.
    While the positions specified in H.R. 4546 (with the addition of 
the position of DAS for Science and Technology) accurately reflect the 
current organizational structure of NOAA, the Administration prefers 
the approach adopted by H.R. 4607, which would allow for additional 
organizational flexibility.
    Although Congress may pass a NOAA organic act this session, history 
teaches us that it may take years, if not decades, before further 
legislative changes are possible. During that period, the Nation's 
priorities and the state of science and the environment will inevitably 
change and evolve. Our bill would allow NOAA the flexibility to make 
those organizational and programmatic changes that may be needed to 
meet future developments and challenges. The Administration recognizes 
that Congress has a strong interest in how NOAA is organized, and we 
are confident that there are ways to assure Congressional participation 
in that matter without resorting to the creation of a rigid structure 
for NOAA in statute.
    In a similar vein, H.R. 4546 highlights several NOAA purposes and 
missions by reference to specific NOAA programs and activities. For 
example, the bill directs the Secretary to maintain within NOAA a 
National Weather Service (NWS), and delineates the NWS mission, goals 
and functions (section 105). The bill also directs the Secretary to 
maintain within NOAA operational and service programs to support 
routine data collection and direct services and products relating to 
satellite, observations, and coastal, ocean and Great Lakes information 
(section 106). In addition, the bill directs the Secretary to maintain 
within NOAA programs to conduct and support research and education and 
the development of technologies relating to weather, climate and the 
coasts, oceans and Great Lakes (section 107).
    H.R. 4607 does not contain any of these provisions explicitly, but 
does provide for general authority to continue these important 
activities. The Administration prefers not to highlight the importance 
of some NOAA programs through their inclusion in an organic act, while 
inadvertently or inappropriately neglecting others.

Creation of Advisory Board

    Both bills address a need for the establishment of an advisory 
panel of distinguished experts to provide advice and insights regarding 
NOAA science and research activities. Currently, NOAA has a 15-member 
science advisory board that was established by decision of the 
Secretary of Commerce and chartered in September 1997 under the Federal 
Advisory Committee Act. The members are appointed by the NOAA 
Administrator to advise him on long- and short-range strategies for 
research, education, and the application of science to resource 
management and environmental assessment and prediction.
    H.R. 4546 establishes in law a 15-member Science Advisory Board, 
while H.R. 4607 establishes a NOAA Advisory Committee on Oceans and 
Atmosphere that is broader in scope than the Board contemplated by H.R. 
4546. The NOAA Advisory Committee established by H.R. 4607 would 
replace the now-defunct National Advisory Committee on Oceans and 
Atmosphere and the current NOAA Science Advisory Board. This new 
committee would continue to address science issues, as would the 
National Science Board in H.R. 4546. In this respect, the NOAA Advisory 
Committee would be similar to the current NOAA Science Advisory Board. 
The Administration, however, would like to expand the scope of the 
present science board to include NOAA-wide policy issues.
    We believe that this broader scope would be a logical extension of 
issues considered by a science board, better reflecting the depth and 
breadth of the policy issues embedded in NOAA's missions and purposes. 
Thus a panel could provide the senior leaders of NOAA with the critical 
perspective of highly qualified, independent experts who could bring 
useful outside perspectives to the challenges NOAA faces. Moreover, as 
is commonly done with advisory committees, the NOAA Advisory Committee 
structure could include subcommittees or working groups to address in 
greater detail specific scientific questions. The Administration bill 
provides flexibility for determining the number of committee members 
and terms of services through the development of a charter.

Conclusion

    Thank you for the opportunity to discuss both the Committee's bill, 
H.R. 4546, and the Administration's bill, H.R. 4607. As I previously 
noted, both bills have very similar objectives. For that reason, we are 
convinced that the bills' differences in approach can be harmonized, 
and we look forward to working with you as the bills move through the 
legislative process. We are hopeful that our combined efforts, as well 
as your committee's past and continued support for NOAA, will provide 
the momentum needed to enact a NOAA organic act this session.
    I would be pleased to answer any questions you may have.

                  Biography for Theodore W. Kassinger
    Theodore W. (``Ted'') Kassinger serves as Deputy Secretary of the 
U.S. Department of Commerce, a position to which he was nominated by 
President George W. Bush in February 2004 and appointed in July 2004. 
Previously, Mr. Kassinger was nominated and confirmed by the U.S. 
Senate as the General Counsel of the Department. He served in that 
capacity from May 2001 until assuming his current position.
    As Deputy Secretary, Mr. Kassinger serves as the Department's chief 
operating officer, with responsibility for the day-to-day management of 
its approximately $5.8 billion budget, 13 operating units, and 40,000 
employees. Among the Department of Commerce's varied missions are 
promoting U.S. exports, administering unfair trade laws, and 
negotiating and enforcing international trade agreements; regulating 
the export of sensitive goods and technologies and promoting 
international cooperation on export control and strategic trade 
matters; serving as effective stewards of the Nation's ocean, coastal, 
and living marine resources while assisting their economic development; 
forecasting the weather and conducting other climate research; 
formulating technology and telecommunications policy and administering 
the federal radio frequency spectrum; conducting the national censuses 
and producing some of the Nation's most important economic data; 
administering the patent and trademark system; developing and applying 
technology, measurements, and standards; and promoting economic growth 
in distressed communities and minority business development. As Deputy 
Secretary, Mr. Kassinger supports Secretary of Commerce Donald L. Evans 
in carrying out these Department responsibilities and other 
Departmental policy and operational objectives.
    Prior to joining the Bush Administration Mr. Kassinger practiced 
law with the multinational law firm, Vinson & Elkins, L.L.P., from 1985 
to 2001. His law practice focused mainly on the fields of international 
trade and business law, and transnational disputes resolution. Earlier 
in his career, Mr. Kassinger served as an attorney for the U.S. Senate 
Committee on Finance, the U.S. Department of State, and the U.S. 
International Trade Commission.
    A native of Atlanta, Georgia, Mr. Kassinger received his B.L.A. 
from the University of Georgia School of Environmental Design (1975) 
and his J.D. from the University of Georgia School of Law (1978). He is 
married to the author, Ruth G. Kassinger. The Kassingers are the 
parents of three daughters.

    Chairman Ehlers. Thank you. Dr. Baker.

STATEMENT OF DR. D. JAMES BAKER, PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, THE ACADEMY OF NATURAL SCIENCES

    Dr. Baker. Thank you, Mr. Chairman.
    As you know, I served as the Administrator of NOAA, but I 
also worked for NOAA as a scientist, and my experience as a 
scientist and administrator tells me that it is very important 
for NOAA to have an organic act. During my tenure as 
Administrator, I was pleased to see Congress support NOAA's 
critical missions and grow the budget by more than 50 percent. 
Yet, at critical times in national policy debates, there were 
questions about NOAA's mission, especially where NOAA's 
programs appear to overlap those of other agencies. An organic 
act would help to avoid these unnecessary debates.
    When NOAA and the EPA were formed in 1970, environmental 
issues were foremost in the public's mind. Much has been 
accomplished since then in providing clean air, clean water, 
and better weather forecasts. But in 1970, we were not aware to 
the extent at which we were exploiting fisheries. We were not 
able to forecast an El Nino or understand the role of humans in 
global climate change. Today, we have the best weather service 
in the world. We have a much better understanding of long-term 
change. But we are facing vulnerability to natural disasters, 
non-point source pollution, and continuing declines in 
commercial fisheries.
    In the future, we will be doing more offshore drilling, and 
the biodiversity of the sea will be explored with new molecular 
techniques. We will continue to operate under the burden of not 
being a signatory to the Law of the Sea Convention. In short, 
the problems are different, harder to solve, and the Agency 
needs to change with the times. It needs more recognition and 
support, more money, and more independence. In fact, I believe 
that NOAA should be an independent agency, like EPA. NOAA was 
originally proposed as an independent agency, and today, it has 
the maturity to become one. I hope the House will carefully 
consider supporting the Senate along those lines.
    In terms of the biggest problem, I mentioned that we had 
the best weather observation and forecast system in the world, 
but are we as ready as we should be for a major natural 
disaster? Our lack of preparedness for terrorism events 
suggests that our systems for preparing for major natural 
disasters needed careful examination. Weather experts know that 
storms, floods, and high winds can be devastating, especially 
as population growth puts more people and property in harm's 
way. NOAA must be part of homeland security planning for 
natural disasters.
    We have not yet solved the problem of keeping alive a 
viable commercial fishing industry with sustainable stocks of 
fish. The answer lies in reduced quotas, and in full ecosystem 
management. We have been working a long time on this problem. 
President Grant established the first U.S. Commission in 1872 
because of the decline in fisheries, but we still haven't 
solved the problem.
    What missions and functions should NOAA be responsible for? 
It is important to emphasize the key role of the oceans in 
NOAA. Long-term forecasts of weather and climate require better 
measurements of the ocean. We must have an ocean observing 
system as good as the system we have for the atmosphere, but we 
are a long way from that coverage today.
    The current emphasis on observations of all kinds in NOAA 
is gratifying to see, but the funding must be found to make it 
work. Organizationally, it is very important to maintain the 
scientific independence of NOAA. There have been attempts in 
the past by administrations of both parties to limit the flow 
of information from NOAA, particularly on politically sensitive 
issues like global climate change and fisheries management. The 
organic act should ensure that NOAA can maintain its 
independence when such issues arise.
    What are the pros and cons of proposed restructuring? I 
like the groupings that have been proposed in your bill, and I 
think that such a focus would help the Agency function better. 
I also think it is critical to follow the advice of the Ocean 
Commissions about ecosystem management. I can remember many 
discussions at NOAA, while I was Administrator, where we 
debated the cause of decline, for example, of stellar sea 
lions, without having the benefit of understanding the complex 
web of interactions that led to such decline.
    Title I of H.R. 4546 gives a good summary of the Agency and 
what it does. I think it could be improved by adding a 
provision for formalizing the mechanism for research to be 
carried out and competitively funded at universities and 
research institutions outside NOAA. The Office of Naval 
Research would be a good example for an Office of NOAA 
Research. I like the idea of a Deputy Assistant Secretary for 
Science and Technology, for coordination of science and 
research, and would propose such a Deputy Assistant Secretary 
might be the focal point for the Office alluded to above.
    I am also pleased to see the continuance of the Science 
Advisory Board. This Board was established on my watch at NOAA, 
and it provided very good guidance for a variety of programs.
    Let me conclude with a word about education. NOAA needs 
more support for educational outreach programs. I was pleased 
to see that NOAA will sponsor a major new exhibit on oceans at 
the Smithsonian, and I hope that more such exhibits and 
outreach can be supported. The more the public can be educated 
about our issues, the better the support we will have in 
dealing with difficult issues.
    After I left my job as Administrator of NOAA, I wanted to 
join an institution that had both research and public outreach, 
and I was lucky enough to become President of the Academy of 
Natural Sciences in Philadelphia. At the Academy, we are 
developing new programs to show the public the tradeoffs 
involved in making environmental decisions. We have a new town 
square program where such things are discussed. NOAA might 
consider helping establish other such programs around the 
country.
    Thanks for the opportunity to be here. I appreciate the 
opportunity to testify, and look forward to a stronger and more 
independent NOAA. Thank you.
    [The prepared statement of Dr. Baker follows:]

                  Prepared Statement of D. James Baker

Introduction

    Mr. Chairman, thank you for the opportunity to testify at this 
important hearing. I am D. James Baker, President and Chief Executive 
Officer of the Academy of Natural Sciences in Philadelphia, and I 
served as the Administrator of the National Oceanic and Atmospheric 
Administration (NOAA) from May of 1993 to January of 2001, longer than 
any other Administrator. I also worked for NOAA as a scientist at the 
Pacific Marine Environmental Laboratory in Seattle in the 1970s. My 
experience as a scientist and administrator tells me that it is very 
important for NOAA to have an Organic Act, and I am pleased to testify 
in favor of the organic acts which are currently pending in Congress. 
The Congress has always strongly supported NOAA, and I hope that a 
resolution can be reached, because it will provide strength to the 
vital programs NOAA carries out.
    From weather and climate to fisheries and coastal zone management, 
NOAA has had an important impact on the conduct of national affairs 
since it was formed in 1970. During my tenure, I was pleased to see 
Congress support these critical missions and grow the budget by more 
than 50 percent. NOAA took the lead in civil satellite operations, in 
ocean exploration, and in coastal conservation. Yet at critical times 
in these and other national policy debates there were questions about 
NOAA's mission especially where NOAA's programs appeared to overlap 
that of other agencies. An organic act would help avoid these 
unnecessary debates. I will organize my testimony according to the 
questions that were asked in the invitation letter.
    Before I go into the specific questions that I have been asked to 
address, I would like to put my answers into a historical context. When 
NOAA and EPA were formed by President Nixon in 1970, environmental 
issues were foremost in the public's mind. Much has been accomplished 
since then in providing clean air, clean water, better weather 
forecasts, and accurate and complete mapping of our coasts and Great 
Lakes. But in 1970, we were not aware of the extent to which we were 
exploiting fisheries; we were not able to forecast an El Nino or 
understand the role of humans in global climate change, and we were 
seeing just the beginning of the decline in protected marine mammals. 
Today, almost 25 years later, we have the best weather service in the 
world, our data bases for the environment are massive, and we have a 
much better understanding of forecasting El Nino and longer-term 
climate change. But we are facing vulnerability to natural disasters, 
non-point source pollution, air shed deposition of nitrogen into 
coastal waters which leads to dead zones, and continuing and rapid 
declines in commercial fisheries. We will be doing more offshore 
drilling, and the biodiversity of the sea will be explored with new 
molecular techniques. We will continue to operate under the burden of 
not being a signatory to the Law of the Sea Convention. The U.S. Ocean 
Commission and the Pew Ocean Commission have each provided excellent 
documentation of these and other critical issues.
    In short, the problems are different--harder to solve--and the 
agency needs to change with the times. It needs more recognition and 
support, more money, and more independence. In fact, I believe, and I 
want to make this point up front, that the environmental problems that 
the Nation faces today are such that NOAA should be an independent 
agency like EPA. The proposed organic acts can help in making that 
transition. It may not happen in this session or administration, or 
even in the next, but I believe it is an essential step for our country 
to deal with these critical issues. NOAA was originally proposed as an 
independent agency, and today it has the maturity to become one. I know 
that a bill was introduced yesterday in the Senate to make NOAA an 
independent agency, and I hope that the House will carefully consider 
supporting that bill.

1.  What is the biggest problem at NOAA and can that problem be 
addressed in statute?

    I would divide the NOAA issues into two parts: weather and climate 
forecasts on the one hand and resource management on the other. I 
mentioned that we have the best weather observation and forecast system 
in the world, thanks to the dedicated work of the employees of the 
National Weather Service and the National Environmental Satellite and 
Data and Information Service. But are we as ready as we should be for a 
major natural disaster? Our lack of preparedness for terrorism events 
suggests that our systems for preparing for major natural disasters 
need a careful examination. NOAA plays an important role in getting 
information out to the appropriate users; NOAA Weather Radio is a good 
example. Perhaps we won't see the sequence of events recently portrayed 
in the film The Day After Tomorrow, but weather experts know that 
storms, floods, and high winds can be devastating, especially as 
population growth puts more people and property in harm's way. NOAA 
must be part of homeland security planning for natural disasters.
    On the resource management side, we are seeing today, as documented 
by both of the Ocean Commissions, a rapid decline of commercial 
fisheries. We have not yet solved the problem of keeping alive a viable 
commercial fishing industry with sustainable stocks of fish. The answer 
lies in reduced numbers for quotas, and in full ecosystem management. 
We must set an example, and work internationally to find ways to reduce 
the stress on fisheries stocks. We are already seeing stocks reduce in 
size substantially; that is, individual fish are getting smaller and 
smaller. We should not be the generation to preside over the loss of 
commercial fisheries. We have been working a long time on this problem: 
President Grant established the first U.S. Fish Commission in 1872 
because of the decline in fisheries. We have to find a new way. We are 
continually told that this new century is the century of biology--can 
these new ideas, ranging from species identification by DNA sequencing 
to cloning endangered species, help us in fisheries management?

2.  What missions and functions should NOAA be responsible for and how 
should NOAA be organized? What is the most important thing to 
accomplish in an organic act for NOAA?

    In particular it is important to emphasize the key role of the 
oceans in NOAA. NOAA is responsible for long-term forecasts of weather 
and climate, which in turn require better measurements of the ocean. We 
must have an ocean observing system that provides coverage and 
information as good as the information we get from the atmosphere, but 
we are a long way from that coverage today. The current emphasis on 
observations of all kinds in NOAA is gratifying to see, but the funding 
must be found to make it work. As the Chair of the international 
science steering committee for the Global Ocean Observing System 
sponsored by the Intergovernmental Oceanographic Commission, the World 
Meteorological Organization, and the International Council of 
Scientific Unions, I can say that NOAA's leadership in global 
observations is critical to success for understanding, predicting, and 
using ocean data for a variety of purposes. Let me say also that as we 
look to the future, it will be essential to have other ocean 
observations, namely the satellites that measure the shape of the 
ocean, altimeter satellites such as the multinational JASON-2 program, 
tropical moored buoys such as the TOGA-TAO array and coastal moorings, 
sea level gauges, surface drifting buoys, and measurements from ships 
of opportunity.
    Organizationally, it is important to maintain the scientific 
independence of NOAA. There have been attempts in the past by 
administrations of both parties to limit the flow of information from 
NOAA, particularly on politically sensitive issues like global climate 
change and fisheries management. The organic act should be carefully 
read to make sure that NOAA can maintain its independence when such 
issues arise.

3.  What are the pros and cons of the proposed restructuring in 
Chairman Ehlers' bill, H.R. 4546 and would it improve NOAA's support of 
ecosystem-based management?

    I like the groupings that have been proposed in Chairman Ehlers' 
bill, and I think that such a focus would help the agency function 
better. When I was Administrator of NOAA, we developed a strategic plan 
that was very similar to this grouping, and we ran regular quarterly 
meetings to assess progress in this organizational framework. I also 
believe that it is critical to follow the advice of the Ocean 
Commissions about ecosystem-based management. In particular, NOAA's 
role as protector of endangered marine mammals depends on a much better 
understanding of the full ecosystems of which these mammals are part. I 
can remember many discussions at NOAA while I was administrator where 
we debated the cause of decline of, for example, the Steller sea lions, 
without having the benefit of understanding the complex web of 
interactions that lead to such decline.

4.  How can Title 1 of H.R. 4546 be improved?

    Title 1 of H.R. 4546 gives a good summary of the agency and what it 
does. I think it could be improved by adding a provision for 
formalizing the mechanism for research to be carried out and funded at 
universities and research institutions outside NOAA. Although NOAA has 
funded external research to some extent over the years through Sea 
Grant, the Office of Global Programs, and others, much more could be 
done. I'm impressed with how the Navy and other parts of DOD have 
benefited greatly with organizations like the Office of Naval Research. 
Such formal arrangements for, say, an Office of NOAA Research, could be 
a good thing.

5.  Could a Deputy Assistant Secretary for Science and Technology 
improve coordination of science and research at NOAA?

    I like the idea of a DAS for Science and Technology for 
coordination of science and research at NOAA, and would propose that 
such a DAS might be the focal point for the office alluded to above, an 
Office of NOAA Research for external funding.
    I'm also pleased to see the continuance of the Science Advisory 
Board. This Board was established on my watch at NOAA, and with the 
able and excellent leadership of Dr. Alfred Beeton it was able to 
provide very good guidance for a variety of programs. I am glad to see 
that it will continue.

Conclusion

    Finally, let me say a word about education. NOAA has not been able 
to do as much as it could in educating the public, and I have always 
been impressed with what NASA has done. NOAA needs more support for 
educational and outreach programs. I was pleased to see that NOAA will 
sponsor a major new exhibit on the oceans at the Smithsonian, and I 
hope that more such exhibits and outreach can be supported. It was my 
experience at NOAA that the more the public was educated about our 
issues, the better the support we would have in dealing with difficult 
issues.
    After I left my job as Administrator of NOAA, I wanted to join an 
institution that had both research and public outreach, and I was lucky 
enough to become President of the Academy of Natural Sciences in 
Philadelphia, the oldest continuously operating natural history 
institution in the western hemisphere. At the Academy we are developing 
new programs to show the public the tradeoffs involved in making 
environmental decisions. We have started a new Town Square program 
where citizens, policy makers, representatives of business, and 
scientists can discuss issues like watershed restoration and dam 
removal to understand all the aspects. NOAA might consider helping 
establish other such programs around the country, with experts from 
NOAA talking along with others. In any case, more support and emphasis 
on education would be very helpful for decision-making.
    Thank you for the opportunity to be here today. I appreciate the 
opportunity to testify, and look forward to a stronger and more 
independent National Oceanic and Atmospheric Administration.

                      Biography for D. James Baker

    Dr. D. James Baker was trained as a physicist, practiced as an 
oceanographer, and has held administrative positions in academia, the 
non-profit sector, and government. He was elected the twenty-seventh 
President and CEO of the Academy of Natural Sciences in Philadelphia in 
April 2002. Before joining the Academy, Dr. Baker was a Presidential 
appointee as Under Secretary for Oceans and Atmosphere and 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA) at the U.S. Department of Commerce (1993-2001). Earlier, he was 
President of Joint Oceanographic Institutions Incorporated (JOI) in 
Washington, D.C. He came to JOI from the University of Washington where 
he served as Professor of Oceanography and first Dean of the College of 
Ocean and Fishery Sciences, which he helped found. He is the author of 
more than one hundred scientific papers, review articles, and 
editorials on geophysical fluid dynamics, oceanography, climate, and 
the scientific aspects of sustainable development and published a book 
on space policy and technology issues. He and his co-workers were 
awarded a patent on their design for a deep-sea pressure gauge. He co-
founded and served as the first President of The Oceanography Society. 
He is a Member of the American Philosophical Society and a Fellow of 
the American Meteorology Society and the American Association for the 
Advancement of Science.
    Dr. Baker is married to Emily Lind Baker, who most recently was an 
editor in the National Digital Library program of the Library of 
Congress in Washington, D.C. He was born in Long Beach, California and 
went to elementary, junior high, and high school there. He has a 
Bachelor of Science degree in Physics from Stanford University, a Ph.D. 
in Physics from Cornell University, and was awarded an honorary Doctor 
of Humane Letters (L.H.D.) degree from Nova University in 1993.

    Chairman Ehlers. And thank you. Admiral West.

     STATEMENT OF REAR ADMIRAL RICHARD D. WEST, PRESIDENT, 
      CONSORTIUM FOR OCEANOGRAPHIC RESEARCH AND EDUCATION

    Admiral West. Thank you, Mr. Chairman, and the Committee 
for my invitation today, and for your continued leadership on 
ocean science issues. CORE, with its 78 members, represents the 
Nation's premiere ocean science institutions. The ocean science 
community appreciates your prompt response to the Ocean 
Commission's call for a NOAA Organic Act. Both H.R. 4546 and 
H.R. 4607 would clarify NOAA's structure and function, and 
provide the Agency with the direction to create an integrated 
organization.
    The ocean science community is very supportive, and sees 
H.R. 4546 in particular as a clear step forward for NOAA and 
this nation. CORE, the Sea Grant Association, and the National 
Association of State Universities and Land Grant Colleges 
jointly endorse H.R. 4546.
    The Committee's letter of invitation posed four questions 
to me. First, perhaps the largest problem facing NOAA today is 
its amalgamation of research, operational, and regulatory 
entities that does not operate as a well integrated corporate 
culture, as well as being placed within the Department of 
Commerce.
    Second, with respect to NOAA's missions, functions, and 
organization, the Ocean Commission Report offers a good 
starting point. Through the goals articulated in the organic 
act and reading the Commission's vision, NOAA would greatly 
benefit from the research plan called for in H.R. 4546.
    This plan must recognize the role of research in NOAA, 
establish goals and a process for Agency-wide research and 
investments, and delineate the role of its external partners. 
It must emphasize the importance of peer review and competitive 
awards, which improve the process of managing grants and 
contracts, and integrate research, education, and outreach.
    Third, with respect to restructuring NOAA, the three 
mission areas--operations and services, research and education, 
and resource management--make sense. The current line office 
structure is widely viewed as inhibiting NOAA's ability to 
function effectively as an integrated organization, and many 
question whether NOAA can make progress toward a more unified 
operation without some structural change.
    Fourth, CORE strongly supports the creation of a Deputy 
Assistant Secretary for Science and Technology, and its 
responsibility for coordinating and managing the NOAA research 
enterprise. Establishing this position provides clear 
recognition of NOAA as a science-based mission agency, and is 
consistent with the recommendation of the NOAA Research Review 
Team.
    Other points for consideration is the Science Advisory 
Board should be authorized as an expert partner in NOAA 
research. We support strategic planning and recommend that such 
planning cover three areas, scientific research, education and 
outreach, and data management. The Coastal Ocean Science 
Program will provide important science for ecosystem-based 
management. We are, however, very concerned that the NOAA 
funding bill approved by the House of Representatives, would 
slash funding available for this research in Fiscal Year 2005.
    CORE's support for the bill's Marine Research Title and 
similar bills that call for multidisciplinary investments to 
better understand the role of the oceans in human health. A top 
national priority should be the development of an Integrated 
Ocean Observing System that extends from our watersheds to the 
outer edge of the exclusive economic zone.
    The Committee asked me that I also provide a brief overview 
of the report of the NOAA Research Review Team, from which I'm 
also a member. I am not sure that resets my clock, but I will 
continue. The Team was appointed in a response to the Senate 
and House legislative reports accompanying this year's NOAA 
funding law. In undertaking our charge, the Review Team felt 
that it was essential to consider the full breadth of the NOAA 
research enterprise to better understand and evaluate NOAA 
research and the role of the OAR line office.
    In developing our report, we examined substantial amounts 
of data and various reports. We conducted extensive internal 
NOAA interviews, met with past and present senior managers of 
NOAA, other government agencies and large private sector 
research-based companies, and held wide-ranging discussions 
with external community representatives, and the Science 
Advisory Board. Our final report was presented to, and accepted 
by, the Science Advisory Board on Tuesday.
    The Team's findings and recommendations fall into nine 
general categories, but I would like to mention just five 
briefly, as they are applicable to today's hearing. First, in 
cooperation with external partners, NOAA should develop a 20-
year research vision that supports the Agency's strategic plan, 
and a five-year Agency-wide research plan that clearly 
articulates research goals and projects in a phased approach.
    NOAA should also appoint a distinguished career scientist 
as Associate Administrator for Research, reporting directly to 
the NOAA Administrator, and with mission and budget 
responsibility for all NOAA research. This individual should 
chair a top-level NOAA research board, with responsibility for 
implementing the research vision. Support would be provided by 
a research council of senior research managers chaired by the 
OAR Assistant Administrator.
    NOAA must strengthen the transition of research to 
operational lines, clarifying that both research and 
operational programs share physical and programmatic 
responsibility for transition. NOAA should develop a clear set 
of criteria for determining the location of research programs 
within the Agency that would be applied to new programs 
immediately, and to existing programs over a two-year period.
    NOAA should establish an external taskforce to evaluate the 
structure and future of ecosystem research within the line 
offices. The role of extramural research should be clearly 
defined in the research plan, and an integral part of NOAA, 
presentations to the Department of Commerce, the Office of 
Management and Budget, and to the Congress. NOAA must improve 
its business practices related to extramural research, engaging 
the external community and establishing more consistent 
administrative processes.
    In conclusion, this nation must recognize that the time has 
come for constructive action to protect our oceans. NOAA, our 
nation's ocean agency, has a critical role in carrying out the 
recommendations of the Ocean Commission. We applaud this 
committee's efforts to provide NOAA with this clear mission. 
With adequate funding, a reinvigorated NOAA can lead this 
nation in taking the necessary steps to understand, protect, 
and make wise decisions on our global ocean resources.
    On behalf of all the members of CORE and my Research Review 
Team colleagues, I thank you for your presence today. Thank 
you.
    [The prepared statement of Rear Admiral West follows:]

           Prepared Statement of Rear Admiral Richard D. West

    Good afternoon, Mr. Chairman and Members of the Committee. Thank 
you for the opportunity to discuss pending legislation and reports 
relating to the organization and research programs of the National 
Oceanic and Atmospheric Administration (NOAA). I am Rear Admiral Dick 
West, President of the Consortium for Oceanographic Research and 
Education (CORE). I am speaking today on behalf of the 78-member 
institutions of CORE who work together to develop and promote a common 
vision and goals for the ocean science community. In addition and as a 
member of the NOAA Research Review Team, your invitation asked me to 
provide a brief summary of the team's report and recommendations.

I.  CORE VIEWS ON H.R. 4546, THE NATIONAL OCEANIC AND ATMOSPHERIC 
                    ADMINISTRATION ACT, AND H.R. 4607, THE NATIONAL 
                    OCEANIC AND ATMOSPHERIC ADMINISTRATION ACT OF 2004

    CORE was established a decade ago to promote and advance ocean 
science research and education. As an organization, CORE fosters 
membership of U.S. institutions actively involved in ocean research and 
education; seeks support for the development of partnerships in 
oceanographic research and education; builds critical links among 
government agencies, academia and marine industries; and actively works 
with policy and decision-makers on ocean research and education issues. 
Our membership includes the leadership of this nation's premier ocean 
science institutions.
    With the U.S. Commission on Ocean Policy nearing completion of its 
work, this has truly been an extraordinary year for the entire ocean 
science community. On one hand, we are looking forward to the first 
comprehensive report on national ocean policy in more than 35 years--
one that will identify both serious problems and exciting new 
opportunities. On the other hand, this compelling document is being 
released in the waning days of the 108th Congress as our nation faces 
war, presidential and congressional elections, and difficult fiscal 
decisions to meet tight budget constraints. In response to the 
challenges posed by the Commission report, the oceanographic community 
has adopted two strategies: The first is to make sure that Americans 
understand the critical role of the oceans in our environmental, 
economic and national security. The second is to strengthen policies 
and investment of resources commensurate with the importance of the 
oceans in our lives.
    As we pursue these strategies and work to implement the Commission 
recommendations, CORE would like to thank the Members and staff of the 
Science Committee for their leadership and continued attention to ocean 
science issues. In particular, we appreciate Congressman Ehlers' 
willingness to sponsor legislation and move forward quickly to put the 
Commission's findings in place. This is a very timely and important 
hearing given the nature and scope of the proposals being discussed.
    The ocean science community supports efforts to enact NOAA organic 
legislation and is optimistic that it will provide NOAA with tools 
needed to define a common, agency-wide vision. The legislation offers a 
unique opportunity to codify NOAA's structure and function and set the 
direction for creating a unified and integrated organization. CORE, the 
Sea Grant Association, and the National Association of State 
Universities and Land Grant Colleges jointly have endorsed H.R. 4546. 
Attached to my written statement is a copy of our support letter.

Ocean Commission Recommendations and NOAA

    In 1969, the report of the Commission on Marine Science, 
Engineering, and Resources (Stratton Commission) recommended ``the 
creation of a major new civilian agency, which might be called the 
National Oceanic and Atmospheric Agency, to be the principal 
instrumentality within the Federal Government for administration of the 
Nation's civil marine and atmospheric programs.'' The report also 
suggests that the primary mission of the new agency be ``to ensure the 
full and wise use of the marine environment in the best interests of 
the United States.'' It proposes 18 functions ranging from advancing 
the marine and atmospheric sciences to assuring the availability of 
educated and trained manpower. Less than a year later, the President's 
Reorganization Plan No. 4 of 1970 created NOAA, consolidating many of 
the civilian oceanic and atmospheric programs that were scattered 
throughout the federal bureaucracy.
    Unfortunately, NOAA still exists today as an amalgamation of 
research, operational, and regulatory entities that do not operate 
under a common and well-integrated corporate culture. The current 
fragmented structure stems in large part from the way in which NOAA was 
assembled from existing federal marine, weather and atmospheric 
entities, then awkwardly placed within the Department of Commerce. 
Through the 1970 reorganization plan, NOAA became the uneasy sum of 
several competent, yet independent-minded organizations that still have 
not melded into a single cohesive agency.
    Thirty-five years have passed since the Stratton Commission 
finished its work and now the Watkins Commission is preparing to issue 
its final report. One of the preliminary recommendations of today's 
Commission is very similar to that of its predecessor. It states, 
``Congress should pass an organic act that codifies the establishment 
and missions of the National Oceanic and Atmospheric Administration. 
The act should ensure that NOAA's structure is consistent with the 
principles of ecosystem-based management and with its primary functions 
of assessment, prediction, and operations; management; and research and 
education.'' The situation is also similar in that the Administration 
and Congress have responded quickly by taking action, in this case 
through the introduction of H.R. 4546 and H.R. 4607 to implement 
Commission recommendations.
    Of course, the Commission recommendations related to NOAA are not 
limited to the call for organic legislation. Of the Commission's almost 
200 recommendations, nearly a quarter are directed toward NOAA. Among 
those of significance for today's NOAA discussion are the following:

        <bullet>  Doubling the federal ocean and coastal research 
        budget over the next five years, from the 2004 level of 
        approximately $650 million to $1.3 billion per year, including 
        enlargement of the National Sea Grant College Program, and 
        support for other research identified as high priorities. (25-
        1)

        <bullet>  Expanding the national ocean exploration program 
        under NOAA and the National Science Foundation and with 
        involvement of other federal ocean agencies. (25-4)

        <bullet>  Serving as the lead federal agency for funding, 
        implementing and operating the Integrated Ocean Observing 
        System (IOOS) with distribution of funds through a streamlined 
        process to federal and nonfederal partners. (26-2,9)

        <bullet>  Strengthening support for both formal and informal 
        ocean-related education at NOAA and other agencies, including 
        support for an education office, teacher development 
        opportunities, undergraduate marine science courses, a national 
        ocean workforce database, participation of traditionally under-
        represented groups and a traineeship program patterned after 
        the National Institutes of Health. (8-3,7,9,11,12,15)

        <bullet>  Creating a NOAA organization to support transition of 
        research technologies into operations and increasing investment 
        in research programs to assess and develop effective 
        technologies for dealing with issues like vessel pollution, 
        protected species interactions, aquaculture, and ocean 
        observations. (16-4, 20-7, 22-3, 26-7, 27-2)

        <bullet>  Expanding research and development efforts, including 
        competitively awarded grants and support of federally 
        designated centers, by NOAA and other agencies for 
        multidisciplinary studies of marine species and potential 
        marine bio-products; expanded research in marine microbiology 
        and virology; and improved methods for monitoring and 
        identifying pathogens and chemical toxins in ocean waters and 
        organisms. (23-1,2,3)

Organic Act Legislation

    Following introduction, CORE circulated H.R. 4546, the National 
Oceanic and Atmospheric Administration Act, and H.R. 4607, the National 
Oceanic and Atmospheric Administration Act of 2004, to its members for 
review. Both bills include NOAA organic legislation and it seems clear 
that H.R. 4546 fundamentally is not in conflict with H.R. 4607 but 
expands upon it significantly in important ways. H.R. 4546 is a clear 
step forward for NOAA and CORE members are generally very supportive. 
There are a few issues, however, that raise questions and we would like 
to work with you to resolve them as the Committee moves the bill 
through the legislative process.
    One preliminary question is that H.R. 4546 authorizes some specific 
research programs addressed by the Commission report but not others. We 
recognize that the bill was not intended to be exhaustive. However, it 
may be useful to consider including or expanding authorizations for 
other education and research efforts, such as the National Sea Grant 
College Program, the National Undersea Research Program and ocean 
exploration. Stepping back from discussion of specific programs, CORE's 
principal interest is that NOAA develop balanced research and education 
programs that are peer-reviewed and competitively awarded, rely on 
effective partnerships and outreach, support the full breadth of the 
agency's mission and demonstrate its commitment to scientific 
excellence.
    Returning to H.R. 4546, one key provision is the creation of a new 
career position, a Deputy Assistant Secretary for Science and 
Technology. CORE strongly supports the new position and its 
responsibility for coordinating and managing research activities across 
the agency. Establishing this position provides clear recognition of 
NOAA as a science-based agency that has a corporate view of their 
research program. This recommendation also appears to be consistent 
with the goals of the Research Review Team. It would, however, be 
useful to clarify the ability of the science deputy to actively 
influence science activities and budgets within the line offices, as 
well as his or her relationship to the NOAA Science Advisory Board. 
Given the Commission's recommendation that research and education be 
one program element of a revised NOAA structure, we also would suggest 
that you make education a specific part of the portfolio of the science 
deputy.
    From our perspective, the Deputy Assistant Secretary for 
International Affairs also is an important position, especially as we 
work to develop a global observing system. Consequently, the Committee 
may wish to consider adding integration of global observing systems 
specifically to the list of responsibilities for the international 
position.
    CORE strongly supports the authorization for the Science Advisory 
Committee and the requirement to develop strategic plans for scientific 
research and for data management, archival and distribution. With 
respect to data and information systems, the provision related to the 
global Earth-observing system is particularly important. However, the 
plan also should address development of services, including 
reprocessing and algorithms.
    With respect to research, NOAA would greatly benefit from a plan 
that emphasizes the importance of peer-reviewed and competitive awards, 
improves the process of managing grants and contracts, integrates 
research and outreach, cuts across agency divisions, clearly defines 
priorities based on operational requirements and reflects the needs and 
recommendations of constituent groups at the national, regional, State 
and local levels. It would be difficult to overstate the importance of 
longer-term, basic research to NOAA's mission and viability. We also 
should recognize that it is not always possible to reduce uncertainty 
in projecting climate and other environmental variability. More 
accurately, our goal should be to increase understanding of the 
system's complexity in order to develop more robust projections in 
light of that variability.
    Community support through interaction and regular contact with 
external constituencies is essential to the effectiveness of the 
agency. Numerous studies have recognized the NOAA-university 
partnership as a principal means to forge that connection. For this 
reason, it is essential that the bill include a mechanism for academic, 
public and other community input into the development and 
implementation of the NOAA-wide strategic plans for scientific research 
and data. NOAA should regularly apply the planning models used by the 
National Science Foundation and other research agencies, including 
workshops and other forums to generate NOAA priorities for research, 
education and outreach. Such community involvement should not be 
limited to planning stages, but rather be extended to all agency 
activities.
    Effective education and outreach are critical to NOAA missions and 
CORE applauds H.R. 4546 for explicitly identifying them as NOAA 
functions. However, it also may be necessary to define specific NOAA 
education and outreach functions in the section on research and 
education. In addition, a strategic plan for education should be 
developed independently or as part of the research plan.
    As the bill moves through the legislative process, it will be 
important to address marine management responsibilities and delineate 
the relationship of marine management to the programs already defined 
in sections of the organic act title--weather service, operations and 
services, and research and education. The bill's programmatic sections 
are similar to the primary functions identified by the Ocean 
Commission. However, the bill stops short of recommending changes in 
the line office structure. The current line office structure is widely 
viewed as inhibiting NOAA's capability to function effectively as an 
integrated organization and it is unclear whether NOAA can make major 
progress towards a more unified operation without such changes. This is 
a particular concern in dealing with the Commission recommendation to 
implement ecosystem-based management.
    The relationship between research and operational programs and 
services, including information management, must be considered 
carefully and work hand-in-hand. NOAA observing activities must be 
tasked with providing quality data sets that can support fundamental 
research, which in turn will be used to support new forecasting and 
prediction services as well as evolution of the observing and 
information system. We tend to think of science in the service of 
operations, but in many areas such as climate forecasts and ecosystem-
based management, it is a two-way street. It is not a simple matter of 
a one-way flow of knowledge from science to operations, but rather 
operations and management programs must be in full partnership with 
research and technology development. Within NOAA, the operational side 
must see its success as depending, in part, on its ability to support 
basic, curiosity-driven research, which will elucidate new concepts and 
new questions to improve operations and support new management 
policies. One way to prevent operations and service from being ``stove-
piped'' from research and education is to link them through modeling 
and analysis conducted jointly.

Authorization of Appropriations

    The authorization levels proposed in H.R. 4546 appear to be 
consistent with maintaining current service levels. One concern that 
has been raised is that authorized funding for Program Planning and 
Integration remains constant, despite the increasing need for planning 
efforts across the agency.

Coastal Ocean Science Program

    NOAA's coastal ocean science program has been one of its most 
successful research efforts, despite funding constraints in recent 
years. It is a relevant and useful program, whose research objectives 
should be augmented by access to a fully functioning coastal ocean 
observing system. An immediate concern is that the NOAA funding bill 
that recently was approved by the House of Representatives would slash 
the funding available for such research activities in fiscal year 2005. 
We urgently request that the appropriation levels be restored before 
the funding bill is finalized.
    The ocean science community supports renewed interest in research 
that measures, analyzes and predicts the effects of coastal and Great 
Lakes pollution. The Watkins Commission clearly recognizes the rising 
threat posed by cumulative effects of continuing coastal pollution. 
While the Commission recommendations focus primarily on the enforcement 
responsibilities of the Environmental Protection Agency, NOAA's coastal 
ocean science program fills a much-needed coastal measurement and 
evaluation role. As data are collected over time, trends become 
obvious, providing environmental managers with tools to assess the 
effectiveness of pollution-limiting measures.
    The coastal ocean science program is likely to benefit 
substantially from development of new sensors and instruments that can 
measure physical, chemical and biological parameters of the ecosystems 
being studied. Consistent with a central recommendation of the 
Commission, the ocean community recognizes the importance of 
emphasizing ecosystem-based approaches. CORE supports the requirement 
that research be peer-reviewed and competitively awarded and recommends 
that authorized funding for coastal ocean science follow the general 
Commission recommendation for doubling the research budget.

Marine Research

    Similar to other CORE-supported and Senate-approved legislation, 
the Marine Research Act would provide the legislative framework for a 
unified national investment to improve the understanding of the 
interaction of humans and the marine environment. The bill clarifies 
the responsibility of the National Science and Technology Council for 
coordinating interagency research efforts and requires development of 
an implementation plan that builds on ongoing federal research agency 
efforts, including those of NOAA, the National Science Foundation, and 
the National Institute for Environmental Health Sciences. Of primary 
importance, the plan would provide focus for a new interdisciplinary 
research program that relies on the capabilities of our nation's 
academic research institutions and is consistent with the 
recommendations of the National Academy of Sciences and the Commission. 
CORE endorses the call for building new and non-traditional 
partnerships among federal research agencies and with the academic 
community. This approach could yield major new breakthroughs that will 
help us better understand the relationship of the oceans to public 
health, mitigate adverse impacts like harmful algal blooms and water-
borne diseases, and develop new products from the sea.
    CORE also has supported the creation, within NOAA, of an initiative 
on the oceans and human health, named the Marine Research Initiative in 
H.R. 4546. Among the important elements of the NOAA initiative are the 
establishment of national centers of excellence, competitive research 
grants, distinguished scholars and traineeships. The program offers 
real promise for building stronger partnerships among NOAA scientists 
and academic researchers and opportunities for progress in such fields 
as marine genomics and ecological chemistry. A major part of improving 
interagency and extramural cooperation is simply crossing the 
organizational lines that separate them. Traineeships and scholarships 
for pre-doctoral and post-doctoral students, as well as distinguished 
scholar appointments accomplish that goal, preparing better trained 
scientists and breaking down barriers between institutions, employees 
and scientific disciplines.

Ocean and Coastal Observing Systems

    The oceans play a critical role in regulating climate and weather, 
stimulating our economy, buttressing national security and providing 
choice locations for work and play. Annually over $700 billion in goods 
move through our ports; $28 billion is netted by the commercial fishing 
industry; $20 billion by marine anglers; and another $30 billion by 
recreational boaters. While we extract substantial value from the 
oceans, our knowledge of how this economically important and life-
giving system works is limited. In addition, human-caused environmental 
change adds another layer of complexity and unpredictability. What is 
needed is a system that can measure the oceans' vital signs, an 
Integrated Ocean Observing System (IOOS). Science and technology have 
made such a system possible; now national and global environmental, 
economic and national security issues make it imperative.
    IOOS will provide measurable benefits to:

        <bullet>  Monitor coastal pollution

        <bullet>  Understand connections between oceans and human 
        health

        <bullet>  Support homeland defense and protect against 
        terrorist attacks

        <bullet>  Measure and explain both human-caused and natural 
        environmental change

        <bullet>  Warn and protect against marine hazards

        <bullet>  Provide better information to support sustainable 
        resource management

        <bullet>  Understand ecosystem-level interactions and changes, 
        thus making ecosystem-based management possible

        <bullet>  Measure and explain climate change

        <bullet>  Provide data that can be turned into value-added 
        products benefiting marine transportation, aquaculture, 
        fisheries, offshore energy extraction and recreational users of 
        oceans and coastal areas.

    Today, we stand at a developmental confluence that should promote 
implementation of IOOS. Evolving technologies in computers, information 
management systems, communications, sensors, and platforms--combined 
with recognition of interrelationships among the oceans' physical, 
biological and chemical systems and topped off by mounting evidence 
that human activities could have significant and unpredictable impacts 
on the global environment--are creating both opportunity and imperative 
for IOOS.
    The ocean science community strongly supports the creation of an 
integrated system that extends from watersheds to coasts to the outer 
edge of our exclusive economic zone, as well as providing critical 
global coverage. Enactment of ocean observing legislation has been a 
priority for CORE since it was established in 1994. Following the 
release of the Commission's preliminary report, CORE member 
institutions have worked to make proposed legislative provisions 
consistent with the relevant Commission recommendations. While we 
support the ocean observing provisions in H.R. 4546, we would like to 
work with you to ensure that they reflect both the Commission's views 
and recent domestic and international progress in planning for IOOS.
    While many of the functions of IOOS will ultimately serve 
operational purposes, the path to that goal will involve significant 
investments in research and development. Here again, it is important to 
note the importance of fully integrating science, operational systems 
and information systems from design through operation and evaluation. 
Scientists must be involved throughout the process, not just in the 
initial gathering of requirements. The member institutions of CORE are 
the source for much of the research expertise and capabilities that 
will be required for development of a fully operational system and have 
endorsed merit-based competition for allocation of available funds. The 
ocean community represented by CORE supports H.R. 4546 in calling for 
51 percent of the funds appropriated for regional observing systems to 
be made available as grants for the development and implementation of 
regional coastal observing systems.
    A critical subset of the ocean observing system that already exists 
is the evolving network of coastal observing systems. Many of the 
existing and planned regionally-based coastal ocean observing systems 
are the result of the planning and work of consortia of academic 
institutions, federal and state agencies, non-governmental institutions 
and private industry. These regional associations design, operate and 
improve regional coastal observing systems. The next step is to 
establish an information management mechanism that connects all 
regional associations to a common national backbone in a way that makes 
all data accessible and usable to all intended users. The task of 
ensuring inter-operability and accessibility must be planned, 
coordinated and carried out at the federal level.
    Finally, if our goal is to establish a ``national weather service'' 
for the oceans, we must recognize the federal role in integrating and 
maintaining an operational observing system. Without a definite plan to 
ensure that we maintain the ``I'' in IOOS, we run the risk of ending up 
with a regionally effective, but nationally dysfunctional patchwork of 
systems that will not meet our national needs. Other agencies, 
including the National Science Foundation, the National Aeronautics and 
Space Administration and the Navy, also will have critical IOOS 
responsibilities and all must work together.

Responses to Committee Questions

1.  Currently, what is the biggest problem at NOAA and can that problem 
be addressed in statute?

    NOAA's largest problem is that it has never fully developed its 
potential as the Nation's integrated ocean and atmosphere agency. Its 
organizational fragmentation prevents effective implementation of an 
agency strategic plan and reduces NOAA to a team of high-performing 
players who have limited effectiveness as a unit. While many aspects of 
the problem can be addressed in legislation, some of the challenges 
facing NOAA are closely linked to its history, bureaucratic culture and 
administration.

2.  What missions and functions should NOAA be responsible for? How 
should NOAA be organized? What is the most important thing to 
accomplish in an organic act for NOAA?

    The Ocean Commission report offers a good starting point for 
discussion of NOAA's missions, functions and organization. Clear 
articulation of those attributes would be a major accomplishment for an 
organic act.

3.  Chairman Ehlers' bill, H.R. 4546, would organize NOAA functions 
around these mission areas recommended by the U.S. Commission on Ocean 
Policy:

                <bullet>  operations and services, which would include 
                the current line offices and programs of the National 
                Environmental Satellite Data and Information Service, 
                the National Weather Service and the mapping and 
                charting functions of the National Ocean Service (NOS);

                <bullet>  research and education, which would include 
                the current line offices and programs of the Office of 
                Oceanic and Atmospheric Research, the Office of 
                Education and research programs from other line 
                offices;

                <bullet>  and resource management, which would include 
                the current line offices and programs of the National 
                Marine Fisheries Service and the ecosystem management 
                programs from NOS.

            What are the pros and cons of this proposed restructuring? 
        Would it improve communication across programs at NOAA to 
        support ecosystem-based management, a concept that most experts 
        agree is the way NOAA should manage natural resources?

    With respect to organizing NOAA around its mission areas, H.R. 4607 
(the Administration bill) does not specifically address the three 
primary functional lines recommended by the Commission. H.R. 4546, 
while not explicitly changing the existing line office structure, does 
make possible restructuring from subject-defined line offices to 
function-defined entities. Again, the rationale for such a 
restructuring would be to align the agency's mission with the 
Commission's guiding principle of ecosystem-based management. The ocean 
research community agrees with the emphasis placed by the Commission on 
ecosystem-based management and recognizes that successful 
implementation of ecosystem-based management will depend on NOAA's 
ability to make such a paradigm shift.
    CORE appreciates the important role that NOAA plays as the Nation's 
ocean agency and supports actions that help NOAA forge a cohesive 
corporate identity and more closely align its functions with its 
mission. The primary drawback to the proposed restructuring is likely 
to be the difficulties inherent in any large organization making major 
changes while maintaining critical service levels and activities.

4.  What are your views on the Deputy Assistant Secretary for Science 
and Technology described in H.R. 4546? Is this a good way to improve 
coordination of science and research at NOAA, as recommended by the 
NOAA Research Review Team?

    As stated earlier in this testimony and in the attached letter of 
support, CORE strongly supports creation of the Deputy Assistant 
Secretary for Science and Technology.

Conclusion

    Following the unambiguous wake-up call issued by the Watkins 
Commission, this nation must recognize that the time has come for 
constructive action to explore and protect our oceans. We applaud the 
Committee's efforts to provide NOAA, our nation's ocean agency, with a 
clear, forward-looking and attainable mission and organization. With 
adequate funding to support NOAA's important work and community buy-in 
for its mission, the bill lays the foundation for a reinvigorated NOAA 
that can protect, understand, and make wise use of the Nation's ocean 
resources. Mr. Chairman, Members of the Committee, on behalf of all the 
CORE member institutions, I thank you for the opportunity to come 
before this committee to present our views.

II.  SUMMARY OF THE NOAA RESEARCH REVIEW TEAM REPORT

    Both the Senate and House legislative reports accompanying the 
fiscal year (FY) 2004 NOAA appropriations bills raised concerns about 
the structure and conduct of research within its Office of Oceanic and 
Atmospheric Research. NOAA was directed to report to the Appropriations 
Committees on how OAR could be reorganized, including the options of 
consolidating facilities or breaking the line office into its 
constituent parts. NOAA responded to these Congressional directives by 
asking its Science Advisory Board to establish a Research Review Team 
headed by Dr. Berrien Moore. The six-member team was asked to address 
five issues: (1) the effectiveness of OAR research in supporting NOAA; 
(2) OAR links with NOAA's operational line offices and the Program 
Planning and Integration Office; (3) a comparison of OAR management 
structure and process with those of other research agencies; (4) the 
effect of OAR lab consolidation on the scientific program; and (5) 
potential savings and efficiencies as a result of lab consolidation.
    In undertaking the charge from the Science Advisory Board, the 
Review Team felt that it was essential to consider the full breadth of 
the NOAA research enterprise to better understand and evaluate NOAA 
research and the OAR line office. They also took into consideration 
three items that directly affect NOAA research: the Climate Change 
Science Program, the Global Earth Observing System of Systems, and the 
Ocean Commission's preliminary report.
    The Review Team released a preliminary review on January 29, 2004 
and a draft report for public comment on May 26, 2004. The comment 
period for the draft report concluded on June 25 and the Review Team 
revisions are being made based on the comments received. The final 
report is planned for presentation to the Science Advisory Board on 
July 13.
    The Review Team proposes a set of principles to guide 
recommendations for ensuring research excellence, to invigorate the 
transfer of research into operations and information services, to 
ensure use of the best research as the scientific basis for regulatory 
advice, and to enhance information services. The team's findings and 
recommendations fall into 9 general categories summarized below:

        <bullet>  Research Plan and NOAA's Mission. NOAA should develop 
        a Research Vision that supports the agency's strategic plan and 
        extends 20 years providing broad guidance and direction. In 
        close consultation with the external community, NOAA should 
        develop a five-year, agency wide Research Plan that clearly 
        articulates research goals and projects in a phased approach.

        <bullet>  NOAA Research Organization. A distinguished and 
        experienced person should serve as Associate Administrator for 
        Research, reporting directly to the NOAA Administrator and with 
        budget authority for all NOAA research. The individual should 
        chair the Research Board, a standing committee of the NOAA 
        Executive Council with responsibility for implementing the 
        Research Vision. To support the Research Board, each line 
        office should establish a senior manager for research who would 
        serve on the Research Council chaired by the OAR Assistant 
        Administrator.

        <bullet>  Transitioning NOAA Research to Operations and 
        Information Services. NOAA must strengthen the transition of 
        research to the operational lines through such mechanism as 
        science and technology infusion plans within the lines. The 
        Research Plan should address directly the transition of 
        research to operational products and services, clarifying that 
        both research and operational programs share fiscal and 
        programmatic responsibility for transition. The Research Board 
        and Council should ensure that the plan is well executed.

        <bullet>  Research Location within NOAA. NOAA should develop a 
        clear set of criteria for determining the location of research 
        programs within the agency. The criteria should be applied to 
        new programs immediately and to existing programs over a two-
        year period, based on a review by the Research Board. NOAA 
        should establish an external task force to evaluate the 
        structure and function of ecosystem research within the line 
        offices.

        <bullet>  Extramural Research in NOAA. The importance of 
        extramural research requires documentation and articulation to 
        the Department of Commerce, the Office of Management and Budget 
        and the Congress. The role of extramural research should be 
        clearly defined in the Research Vision and Plan and should be 
        an integral part of NOAA's presentation to all those involved 
        in the budget process. NOAA must improve its business practices 
        related to extramural research, engaging the external community 
        early in the planning process through conferences and symposia, 
        as well as establishing more consistent administrative 
        processes. The Science Advisory Board should provide 
        leadership.

        <bullet>  Cooperative Research in NOAA. NOAA should establish a 
        process for establishing and maintaining joint institutes and 
        other cooperative arrangement with extramural partners. The 
        process should include approach-specific criteria such as 
        demonstrated commitment, unique capabilities, termination 
        criteria and a well-developed business plan.

        <bullet>  Reimbursable Research in NOAA. NOAA should review its 
        policies and procedures for the management of reimbursable 
        funding and develop and implement clear guidelines to better 
        manage it.

        <bullet>  Research Organization within OAR. Within OAR, each 
        laboratory should have a clearly defined mission statement 
        establishing priorities that are linked to NOAA's strategic 
        plan, research vision and research plan. The OAR head should 
        establish a single administrator with budgetary and 
        programmatic authority for its laboratories and joint 
        institutes.

        <bullet>  Research Organization within OAR Boulder 
        Laboratories. There should be a consolidation of the OAR 
        laboratories in Boulder, CO, into a single center.

    The Research Review Team envisions real change in the NOAA research 
enterprise. Following these recommendations with regard to structure, 
operations and organizational culture, the team believes that NOAA can 
and must move from the current fragmented set of science and research 
programs to a more integrated approach. This corporate enterprise will 
be led from the Administrator's office through the new `Associate 
Administrator for Research' and guided by a strong, regularly updated 
and detailed research plan. A Research Board comprised of the senior 
managers from each line office should manage the agency-wide research 
program. The Research Council should serve as a working group of the 
Board to help develop the details for implementing the research plan 
across the agency.
    The NOAA research enterprise must move forward with a much stronger 
corporate purpose and direction and a significant change in culture; 
the various research programs must be more closely coordinated so that 
they support and leverage one another regardless of line office 
affiliation. Research must be responsive to the overall vision and 
mission of the agency including the operational and regulatory 
missions. It must be connected to the scientific enterprise as a whole 
including the scientific advisory functions and the users of science. 
The Research Council and Board must continually monitor and guide the 
interaction between research and operations, mindful of the balance 
between research ``push'' and operations ``pull.'' There must be an 
explicit effort to address this balance to ensure that the best 
research products of the agency are fully utilized in each of the many 
areas of responsibility of NOAA.
    In a changed culture for research in NOAA, research must be valued 
and supported for its long-term impact, even in the presence of 
critical near-term needs. At the same time, research must not be ``set 
apart'' or isolated from the overall mandates of the agency. There must 
be extensive, continuous interaction between the research enterprise 
and operation efforts to ensure that NOAA programs are science-based 
now and in the future. This means that the culture of the agency must 
recognize that today's decisions and programs must be based on the best 
available science supported by the very best researchers. In addition, 
NOAA must ensure that mid- and long-term research is supported to 
develop the science that will support future decisions and programs.
    The NOAA research enterprise must become fully engaged with the 
extramural community from academia, the private sector and other 
agencies. This means more than just an advisory board, but a true 
change in how NOAA manages extramural funding, develops and maintains 
cooperative institutes and programs, and contributes to broader 
research efforts nationally and internationally. Extramural researchers 
have enormous contributions to make to NOAA's mission and NOAA can 
similarly have a major impact on external research programs. NOAA must 
become a ``best partner'' for the external science and research 
community.
    Overall, the Team believes that the NOAA research enterprise must 
be both cohesive and expansive. Internally, the program elements must 
work together with common goals and objectives. Externally, NOAA must 
welcome, support and fully engage in research efforts with partner 
agencies, academia and the private sector. We believe there is great 
opportunity for a good NOAA research program to become much better and 
be our national leader in ocean and atmospheric research.

               Biography for Rear Admiral Richard D. West

    Rear Admiral Richard D. West, U.S. Navy (Retired), became President 
and CEO of CORE in August 2002. Admiral West came to CORE from the 
Department of the Navy where he completed his most recent tour of duty 
as Oceanographer and Navigator of the Navy. During his three years as 
Oceanographer and Navigator, he managed a $400 million annual program 
providing oceanographic, meteorological, geospatial information and 
navigation support to the Navy. He was designated the `first' Navigator 
of the Navy and lead the Navy transition from paper to electronic 
navigation. He was responsible for the review of all Navy training and 
procurement in support of navigation and geospatial information systems 
(GIS). He has been called upon to speak as an expert on navigation, GIS 
and safety of life at sea.
    His military career encompassed a broad spectrum of operational 
experience, high-level staff assignments, and command and leadership 
positions. Prior to serving as Oceanographer, he was the Deputy 
Director for the Ballistic Missile Defense Organization. Other shore 
assignments include Director, Surface Combat Systems Division on the 
CNO's Staff, Deputy Chief of Staff for Operations CINCSOUTH, and 
Commander, Operational Test and Evaluation Force. From 1992-1993, as 
Commanding Officer of the Surface Warfare Officers School, he directed 
a large, advanced studies academic institution, which provides a 
continuum of professional education and training to prepare naval 
officers to serve at sea.
    Admiral West served in Vietnam with the riverine forces and 
commanded ships during hostilities in the Arabian Gulf. He has 
commanded three ships, USS OPPORTUNE (ARS 41), USS MCINERNEY (FFG 8), 
and USS LEAHY (CG 16).
    As President, Rear Admiral West leads and manages the Washington, 
DC-based association of 78 of the country's leading oceanographic 
research institutions, universities, laboratories, and aquaria. CORE's 
mission is to promote, develop, and support efforts to advance 
knowledge and learning in the science of oceanography and to 
disseminate such knowledge to the scientific community and to the 
public. CORE also serves as the Program Office for the National 
Oceanographic Partnership Program (NOPP), a collaboration among 
fourteen federal agencies to provide leadership and coordination of 
national oceanographic research and education programs. In addition 
CORE manages a high school level educational program, the National 
Ocean Sciences Bowl, and a coordinated program of research supported by 
the Sloan Foundation, the Census of Marine Life.

    Chairman Ehlers. Thank you. Dr. Friday.

STATEMENT OF DR. ELBERT W. (JOE) FRIDAY, JR., FORMER ASSISTANT 
            ADMINISTRATOR, NATIONAL WEATHER SERVICE

    Dr. Friday. Thank you, Mr. Chairman and Members of the 
Subcommittee, for allowing me to testify on this important 
issue. I am Joe Friday. I served in the National Weather 
Service in NOAA for 16 years, seven as Deputy and nine as 
Director. I then served one year as Director of NOAA Research. 
Since retiring from NOAA, I served as the Director of the Board 
on Atmospheric Sciences and Climate at the National Academy of 
Science, and I am currently a Professor of Applied Meteorology 
at the University of Oklahoma. I would stress, however, that 
this testimony represents my personal views based on 25 years 
of direct and indirect associations with NOAA.
    In response to your question as to major problems facing 
NOAA, I list four in my written testimony, but for the sake of 
time, I will only discuss one, that is, the credibility of NOAA 
science. The recent attacks in Congressional appropriation 
language on the credibility of NOAA science have resulted, in 
my opinion, from the lack of understanding of those outside of 
NOAA on the nature of its science, and senior NOAA management's 
failure to articulate both the quality of the science, as well 
as the critical necessity of retaining a strong internal 
scientific capability.
    For example, NOAA's laboratory structure was absolutely 
critical to the successful modernization of the National 
Weather Service. The National Severe Storms Lab provided the 
research for the NOAA Doppler radar, the NEXRAD Doppler radar. 
The Geophysical Fluid Dynamics Lab provided the most 
significant improvement in hurricane forecasting that we had 
seen in two decades. The Pacific Marine Environmental 
Laboratory, developed the ocean buoy technology which resulted 
and enabled the forecast of the '97/'98 El Nino, and this list 
could go on and on.
    Presently, the National Severe Storms Lab is examining 
weather radar technologies that might replace the aging NEXRAD 
system, which is already over a decade and a half old. The Air 
Resources Lab, the Aeronomy Lab, and others are working to 
enable NOAA to meet its new responsibilities in air quality 
forecasting. And the list also could go on and on.
    With these demonstrated vital connections between NOAA 
research and its operations, it is incomprehensible to me that 
anyone could refer to NOAA's research as inconsequential and 
irrelevant to its mission. A NOAA organic act should clearly 
identify research in support of its mission as a prime NOAA 
responsibility.
    With respect to mission and functions, NOAA should be 
commended for submitting H.R. 4607 to Congress as a rapid 
response to the Ocean Commission Report. However, the NOAA bill 
provides little guidance on the organization structure and 
covers only the highest level of functions. Although H.R. 4546 
may go too far in specifying details that I would view as 
implementation activities, it does a much better job of 
defining NOAA's mission and functions. I expect the final NOAA 
Organic Act will lie somewhere between these two bills.
    The creation of the position of the Deputy Assistant 
Secretary for Science and Technology would be a positive step 
to strengthen the role of science within NOAA and to provide it 
with a credible science voice. I strongly support the career 
reserve senior executive status. Consultation with the National 
Academy of Sciences to ensure scientific stature is a good 
practice, one that is followed now by some science-based 
agencies, and was used in the past in the selection of the 
Chief of the U.S. Weather Bureau.
    I have several specific comments on the details of 4546 in 
my written statement, but for the sake of time, I will mention 
only a few here. The inclusion of space weather in the NOAA 
mission is appropriate as our society's systems become more 
vulnerable to those solar emissions and geomagnetic storms. 
Section 105 is a good organic act for the National Weather 
Service, outlining the general mission and responsibilities of 
the organization. The partnership section needs to be expanded 
to include the academic sector of the weather and climate 
enterprise, in addition to the public and private sectors. All 
three sectors are absolutely vital to this nation.
    I fully endorse the recent report of the National Research 
Council, ``Fair Weather: the Effective Partnerships in the 
Provision of Weather and Climate Services.'' I support the 
establishment of a strong, independent Science Advisory Board. 
Because its science is critical to the wellbeing of every 
citizen of this country, NOAA needs and deserves the best 
objective science advice it can obtain.
    In section 109, the two reports that are required cover 
areas vital to the health of NOAA's science, and therefore, to 
NOAA's services. In my 17 years in NOAA, however, I saw 
frequent reports presented to Congress with unusually strong 
spin. NOAA is to be commended for using the National Academy of 
Sciences to review the recent climate change science plan, an 
action that responds clearly to the scientific credibility 
issue I mentioned earlier. I would recommend that these two 
reports in section 109 also be reviewed by the National Academy 
of Sciences to minimize any potential for questions of 
credibility and/or spin.
    In conclusion, Mr. Chairman, I believe that NOAA is 
critical to the success of our nation, and I thank you for your 
interest in making sure the NOAA mission can be accomplished 
effectively. I also thank you for the opportunity to play a 
small part in the deliberations on this important legislative 
initiative.
    [The prepared statement of Dr. Friday follows:]

           Prepared Statement of Elbert W. (Joe) Friday, Jr.

    Mr. Chairman, Members of the Subcommittee, my name is Elbert (Joe) 
Friday. I served in the National Weather Service (NWS) in the National 
Oceanic and Atmospheric Administration (NOAA) for 16 years, seven as 
Deputy and nine as its Director. I also served as the Director of the 
research arm of NOAA, the Office of Atmospheric and Oceanographic 
Research (OAR), for one year. Since retiring from NOAA, I have served 
as the Staff Director of the Board on Atmospheric Sciences and Climate 
of the National Academy of Sciences and as Professor of Applied 
Meteorology at the University of Oklahoma where I currently have an 
appointment as the Director of the Sasaki Applied Meteorology Research 
Institute. I wish to stress that this testimony represents my own 
views, based on my previous experience in NOAA and close associations 
with NOAA since my retirement from the Federal Government.
    During these senior NOAA assignments, I have witnessed NOAA's 
strengths, which are many, and its weaknesses, which could seriously 
and negatively impact its vital missions and which need to be 
corrected. I offer the following responses to the questions posed to me 
in the letter of invitation.

Major Problems Facing NOAA

Role Recognition
    This may seem unusual to list as a problem, but NOAA's strength 
derives form the many national responsibilities that have been assigned 
to it. These national responsibilities include, but are not limited to:

         The National Weather Service,

         The National Ocean Service

         The Nautical Charting mission

         National Hurricane Center

         The National Sea Grant College Program

         The National Marine Fisheries Program

         The Federal Coordinator for Meteorological Services and 
        Supporting Research

         And at least a dozen other national functions. . .

    There has been a tendency in the past decade or so to try to change 
the philosophy of the NOAA organization to remove the term `National' 
and substitute the term `NOAA' in these organizational elements, a 
suggestion that inward looking is more important than outward. While I 
can certainly recognize the need for an overall NOAA identity, this 
move fails to acknowledge the real constituent for the NOAA service. It 
is the Nation that needs these services, not NOAA. The focus of NOAA 
should be outward to the Nation and its needs. An organic act could 
clearly define the national nature of the NOAA services.
Data Stewardship
    Over the years, NOAA has failed to meet one of its major 
responsibilities: the stewardship of the Nation's environmental data 
and information. NOAA's mission requires good science and information, 
whether in the areas of weather and climate forecasting, or in the 
areas of resource management. The activities conducted by NOAA affect 
the safety of all citizens and the economic condition of many of them 
as well as many businesses. These missions require quality data and 
information, and these data, once collected at taxpayers' expense, must 
be saved for future generations.
    This is not to say that NOAA has not been making progress. Good 
people, dedicated to the mission, have tried to step up to the ever 
more daunting task, but they have fallen short. The have, fortunately, 
gone beyond the old situation used to describe NOAA's archival 
activities as a `data hospice' where data go to die. But the full 
enormity of this mission has still not been formally recognized by 
NOAA, the Department of Commerce, (DOC) or the Office of Management and 
Budget (OMB). The volume of environmental data is growing at an ever 
faster rate with the addition of new and better systems of Earth 
observations. The NEXRAD radars, the NPOESS and GOES satellite systems 
produce more data in one day than was formerly acquired in a year 
before the advent of these remotes sensing systems that have 
contributed so much to our understanding of the Earth. Additionally, 
these data, once collected, still need to be analyzed and improved. As 
new methods of data assimilation are developed, the archive needs to be 
reanalyzed to ensure the best information for studies of atmospheric 
and oceanic processes, of climate change and variability, and for input 
into research activities designed to improve weather and climate 
forecasting. As new algorithms are developed to process remote sensed 
data, the archived data need to be reprocessed using a consistent 
algorithm over the entire period of record. This will ensure the data 
continuity so necessary to the studies of climate change and 
variability. The present plans for the NOAA archival system do not 
include these vital components of a good data stewardship capability.
    An organic act could clearly identify the Nation's data stewardship 
as a NOAA responsibility, and the report documentation leading to that 
act could identify many of the characteristics of that stewardship that 
are needed.
NOAA Observing System Architecture
    NOAA is moving in the direction of an overall architecture for 
observing systems. But here again, I do not believe the full enormity 
of the challenge is fully recognized in the funded plans. With respect 
to the satellite systems, the NPOESS program seems to be well under way 
to provide the polar orbiting capabilities needed for the next two 
decades, but the GOES-R program needs attention to keep this nation 
from having the same type of gap in this vital satellite coverage that 
I experienced in the early 1990's when, due to development difficulties 
within the NASA procurement, the U.S. was required to borrow a 
geostationary satellite from the European Union to guarantee Atlantic 
coverage during the hurricane season. In my opinion, this situation 
could recur, especially with the present uncertainties at NASA 
resulting in part by the elimination of the Earth Sciences Enterprise 
and the re-orientation of NASA away from Earth and toward exploration. 
I believe NOAA should seriously examine the possibility of conducting 
the GOES-R procurement itself rather than using NASA as has been done 
in the past.
    An organic act could clearly identify the Nation's Earth 
observations as a NOAA responsibility, and the report documentation 
leading to that act could identify many of the characteristics of the 
supporting mechanisms that are needed.
NOAA Scientific Credibility
    The recent attacks on the credibility of NOAA science have 
resulted, in my opinion, from a lack of understanding of the breadth 
and depth of NOAA science, and senior NOAA management's failure to 
articulate both the quality of the science as well as the critical 
necessity of retaining the scientific capability within NOAA.
    During my 17 years in NOAA, its laboratory structure was absolutely 
critical to the very successful modernization of the NWS. The National 
Severe Storms Laboratory provided the research for the NEXRAD Doppler 
radar and its application. The Forecast Systems Laboratory provided the 
insight to interactive forecast techniques which became the cornerstone 
of the AWIPS system. The Geophysical Fluid Dynamics Laboratory provided 
the most significant improvement in hurricane forecasting that we had 
seen in two decades. The Pacific Marine Environmental Laboratory 
developed the ocean buoy technology which permitted the forecast of the 
1997-1998 El Nino. The Environmental Technology Laboratory developed 
much of the technology that went into the Automated Surface Observing 
Systems. And the list could go on and on.
    Presently, the National Severe Storms Laboratory is beginning to 
examine the next generation of weather radar that will be needed to 
replace the NEXRAD system, which is already over a decade and a half 
old. The Forecast Systems Laboratory is examining the next generation 
of weather forecasting models, and the Geophysical Fluid Dynamics is 
examining better science for improving the seasonal to inter-annual 
climate predictions. As NOAA adds air quality forecasting to its 
mission, the Air Resources Laboratory, the Aeronomy Laboratory, the 
Environmental Technology Laboratory and the Forecast Systems Laboratory 
are all working to bring the new operational capabilities to fruition.
    With these demonstrated, vital connections between the NOAA 
research structure and the operations of one of the major NOAA line 
offices, NWS, it is incomprehensible to me that anyone could refer to 
NOAA's research as inconsequential and irrelevant to the NOAA mission.
    Research success depends primarily on good people. It also depends 
on a suitable infrastructure to support the research. Planning needs to 
be in place in order to tie the future needs of NOAA to the emerging 
science. Lastly, and least important, is the precise organizational 
structure.
    An Organic act could clearly identify the research in support of 
its mission as a NOAA responsibility, and the report documentation 
leading to that act could identify many of the characteristics of that 
research capability that are needed.

NOAA Missions and Functions

    The missions and functions are well defined in Section 103 of H.R. 
4546.
    An organic act should establish broad parameters for an 
organization without unnecessarily restricting it as the situation in 
the science and constituent needs evolve over time. This bill, in my 
opinion, does an excellent job of establishing the generic mission and 
functions for NOAA, but goes beyond what I generally envision as an 
organic act in including what I view as implementation details. These 
details could more appropriately be included in separate authorization 
bills or in the report language that makes up the legislative history 
of the Bill.

The Proposed Reorganization under H.R. 4546

    As mentioned in the comments under `Research Credibility' above, 
people make an organization. The structure of an organization can 
interfere with the ability of the people to accomplish the mission of 
the organization. That being said, the three major components for NOAA 
as described in H.R. 4546, might be an effective structure, indeed the 
strategic planning efforts during the previous administration were 
along similar lines, but no reorganization of NOAA to match the 
planning structure was undertaken. One concern that I would with the 
organization as proposed relates to the wide disparity in size of the 
three major divisions, with the operations and services component 
dwarfing the other two. Special care would be required to ensure the 
appropriate linkage between the operational component and the research 
component. On the other hand, the organization might support better 
integration across the existing line office structure.

Deputy Assistant Secretary for Science and Technology

    The creation of the position of Deputy Assistant Secretary (DAS) 
for Science and Technology (S&T) could be, in my opinion, a positive 
step to strengthen the role of science within NOAA. The creation of the 
Chief Scientist of NOAA in the mid-1980s never resulted in the sort of 
science leadership that NOAA needs and deserves. Previous Chief 
Scientists were political appointees, many having a single issue focus 
and were not interested in the broader NOAA science issues. This bill 
creates the DAS for S&T as a `career reserve' Senior Executive Service 
position and requires that it be filled by someone of considerable 
scientific stature, a most appropriate requirement for an agency whose 
service depends on scientific excellence. The requirement for 
consultation with the National Academies of Sciences to ensure 
scientific stature is a good one. Indeed, that practice is followed now 
by some science based agencies and historically was used during the 
first half of the last century in the selection of the Chief of the 
U.S. Weather Bureau, the predecessor organization to the NWS.
    The DAS for S&T also should be responsible for the oversight of 
major science programs in NOAA, including the National Sea Grant 
College Program, the U.S. Weather Research Program, the Coastal Ocean 
Program, etc.

Additional Specific Comments on H.R. 4546 as Written

    H.R. 4546 provides a potential structure which, if enacted, could 
set a framework that could help correct many of NOAA's problems. I 
would make the following comments on the bill as written. Many of these 
sections might more appropriately be structured outside of the NOAA 
Organic Act itself, either in authorization language, or in report 
language, but these comments are provided to the content of the bill as 
written.

        --  The inclusion of the solar and geophysical events on the 
        sun and in the space environment in the NOAA mission is 
        appropriate. It reflects the growing importance of this science 
        as the society becomes more dependent on satellite systems and 
        sensitive electronics that are especially vulnerable to the 
        solar emissions and geomagnetic storms that we refer to as 
        `space weather.'

        --  The codification of the NOAA responsibility for 
        coordinating the national and international programs in 
        meteorological services and supporting research is important. 
        The Office of the Federal Coordinator for Meteorological 
        Services and Supporting Research (OFCM), currently located in 
        NOAA, has had this responsibility since the mid 1950s, but only 
        operated under an Office of Management and Budget Circular (A-
        62) which was formally rescinded in the mid 1980s. Although the 
        OFCM has continued to operate relatively effectively, this bill 
        can provide the emphasis to strengthen the coordination 
        process.

        --  Sect 103(c) (11) should also include weather and climate 
        activities as well. The World Meteorological Organization 
        (WMO), a specialized agency of the United Nations, is charged 
        with the international coordination of these activities and 
        NOAA, usually through the Director of the NWS, provides the 
        Permanent Representative to the WMO for the Department of 
        State.

        --  Section 105 The NWS. This is a good organic act for the 
        NWS, outlining the general mission and responsibilities of the 
        organization and acknowledging the importance of the private 
        sector to the overall weather and climate enterprise.

        --  The term `space weather' needs to be added explicitly to 
        the NWS mission. It is already included in the sections on 
        goals and functions.

        --  The `Partnerships' section needs to be expanded to include 
        the academic sector of the weather and climate enterprise in 
        addition to the public and private sectors. This enterprise is 
        increasingly dependent upon a strong private sector, a strong 
        public sector and a strong academic community. I fully endorse 
        the recent report of the National Research Council: ``Fair 
        Weather--Effective Partnerships in the Provision of Weather and 
        Climate Services.''

        --  Section 106, Operations and Services. Under function 5, add 
        `reprocessing' and `re-analysis' so as to read:. . . ``data 
        processing, storage, re-analysis, reprocessing and archive 
        activities''. . . As the science of data assimilation improves, 
        it is necessary to go back and re-analyze the archived data to 
        ensure a quality data set that can be used to identify trends 
        for climate trends and variability studies. Similarly, as the 
        satellite remote sensing algorithms are improved, the archived 
        satellite data must be reprocessed using the latest algorithms 
        to provide continuity for climate change and variability 
        studies.

        --  The Science Advisory Board (SAB). The existing SAB has had 
        mixed results. Originally, the SAB was to be modeled after the 
        National Science Foundation's National Science Board. This was 
        an admirable goal that soon became distorted into a body that 
        had much more of a tendency to `rubber stamp' the 
        Administrator's desires than to seriously examine NOAA's 
        science issues. I would recommend that the members of the SAB 
        be appointed with the consultation of the National Academy of 
        Sciences, similarly to the DAS for S&T. The present process of 
        appointing working groups under the SAB can circumvent the 
        objective measures the FACA process brings to the creation of 
        advisory bodies. The science of NOAA is critical to the well 
        being of every citizen of the United States, indeed, in some 
        cases the entire world. NOAA deserves the best objective 
        science advice it can obtain.

        --  Section 109, Reports. The two reports required under 
        section 109 cover materials vital to the health of NOAA Science 
        and therefore NOAA service.

                 For much too long, NOAA has not fully stepped up to 
                its responsibility for data stewardship. The volume of 
                data that describes the environment is increasing at a 
                rate that can cause a compete collapse of the NOAA data 
                stewardship capabilities unless careful, realistic 
                planning is undertaken in the very near-term, and that 
                plan appropriately resourced.

                 One additional item should be added under section 109 
                (a) (1):

                 ``f. Re-analyze and reprocess the archived data as 
                better science is developed to integrate diverse data 
                sources and better algorithms are developed to convert 
                remote sensed information into geophysical parameters. 
                These tasks are required to ensure data continuity for 
                studies of climate variability and change.''

                 In section 109 (a) (2) (c), include `re-analysis and 
                reprocessing' in the list of responsibilities.

                 The Strategic Plan for Scientific Research is also 
                badly needed in NOAA. For much too long the strategic 
                planning process has downplayed research, with the 
                resulting erosion of the NOAA research base and the 
                increasing tendency to sacrifice research for pressing 
                operational needs. This practice is equivalent to 
                `eating your seed corn' during rough times, a practice 
                that will guarantee future starvation. As in the 
                analogy, stopping research today will starve the 
                services of tomorrow.

                 Given the importance of both these reports, they must 
                be complete and objective. In my 17 years in NOAA, I 
                saw frequent reports presented to Congress with 
                unusually strong `spin.' NOAA is to be commended for 
                using the National Academy of Sciences to review the 
                recent Climate Change Science Plan. I would recommend 
                that these reports be reviewed by either the SAB, or 
                the National Academy of Sciences, preferably the 
                latter, to minimize any potential for questions of 
                credibility.

Comments on H.R. 4607

    H.R. 4607, submitted to the Congress by NOAA is more along the line 
of a (very sparse) organic act. This was generated in response to the 
Ocean Commission report and NOAA should be commended for its rapid 
response. It provides little guidance on the organizational structure 
and the covers only the highest level of functions. Although I believe 
that H.R. 4546 goes too far in specifying what I would view as 
implementation activities, I expect the final NOAA Organic Act will lie 
somewhere between these two bills.
    In conclusion, Mr. Chairman, I believe that NOAA is an organization 
that is critical to the success of our nation. Your interest in making 
sure the NOAA mission can be accomplished effectively is appreciated. I 
thank you for the opportunity to play a small part in the deliberations 
on this important legislative initiative.

               Biography for Elbert W. (Joe) Friday, Jr.
    Elbert W. Friday, Jr. is the founding Director of the Sasaki 
Applied Meteorology Research Institute and Weathernews Professor of 
Applied Meteorology at the University of Oklahoma.
    He served as the Director of the Board on Atmospheric Sciences and 
Climate (BASC) at the National Academy of Sciences from July 1998 to 
May 2002.
    In June 1997 until July 1998, Dr. Friday served as Assistant 
Administrator for the Office of Oceanic and Atmospheric Research (OAR) 
of the National Oceanic and Atmospheric Administration. In this 
position as Director of NOAA Research, he was responsible for research 
and development programs that support and enhance both current and 
future NOAA services.
    From March 1988 until June 1997, Dr. Friday served as Assistant 
Administrator for Weather Services and as Director of the U.S. National 
Weather Service (NWS). As such, he was responsible for every aspect of 
providing an effective weather, climate, and flood warning system for 
the Nation. He managed the modernization of the NWS, resulting in 
significantly improved weather and flood warnings and forecasts.
    He served as U.S. Permanent Representative to the United Nation's 
World Meteorological Organization from 1988 until 1998.
    Dr. Friday served as Deputy Director of the NWS from September 1981 
until March 1988. In this capacity, he was responsible for the day-to-
day operations of the NWS and was also responsible for the planning for 
the modernization of the NWS. He developed the public-private 
partnership policies and procedures to ensure an effective working 
relationship between the NWS and the private weather industries.
    Before coming to the NWS, he completed a 20-year career in the 
United States Air Force. He was selected for the rank of Colonel in 
1977 and served four years as the Director of Environmental and Life 
Sciences in the Office of the Under Secretary of Defense for Research 
and Engineering. Other military assignments included Weather Detachment 
Commander in Saigon, Vietnam, and Nakhon Phanom, Thailand, as well as 
positions at the Air Force Global Weather Central and Headquarters Air 
Weather Service.
    Dr. Friday received his Bachelor of Science degree (with special 
distinction) in Engineering Physics from the University of Oklahoma in 
1961. He was selected for an Air Force scholarship in 1966 and 
completed his Masters Degree in 1967 and his Ph.D. in 1969. Both 
graduate degrees are in Meteorology and both were earned at the 
University of Oklahoma. He was a distinguished graduate of the Air 
Force Command and Staff College in 1972 and graduated from the Air War 
College in 1976.
    He is a Fellow of the American Meteorological Society where he is 
currently serving as Past-President. He is a member of several 
professional societies including Sigma Xi, the American Association for 
the Advancement of Science, and the National Weather Association. Dr. 
Friday was awarded the Defense Superior Service Medal, the Bronze Star, 
the Meritorious Service Medal (two awards), and the Air Force 
Commendation Medal (three times). Dr. Friday is the recipient of the 
Presidential Rank Award of Meritorious Executive. In 1992, he received 
the Distinguished Achievement Award from the University of Oklahoma, 
the highest award the University bestows upon its graduates. The 
Federal Executive Institute Alumni Association selected him as the 1993 
Federal Executive of the Year. He received the 1997 Cleveland Abbe 
Award from the American Meteorological Society, its highest award for 
service to the meteorological community. In 2000, his office received 
an Outstanding Unit Award from the National Academy of Sciences. He has 
served as Deacon, Elder, Trustee, and Chairman of the Board of Calvary 
Christian Church in Burke, Virginia.
    He is married to Karen Hauschild Friday. They have two children, 
Kristine Ahlskog and Kelly Crow, and five grandchildren.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Discussion

    Chairman Ehlers. And congratulations, you ended at 
precisely five minutes. Yes, you will get a prize. As soon as I 
buy a box of Cracker Jacks and can find one.
    Well, thank you very much. That was excellent testimony, 
and very well delivered, and we appreciate that. We will now 
begin our first round of questions, and the Chair recognizes 
himself for five minutes.
    It appears from the comments we have heard that most of you 
support H.R. 4546 as an organic act for NOAA, with perhaps some 
minor changes. Is this a fair assessment of your testimony?
    And let us just go down the line backwards this time. Dr. 
Friday.
    Dr. Friday. Yes, sir. As I indicated in my written 
testimony, it goes further in the details of potential 
implementation, that what would ordinarily consider as an 
organic act, but I believe the function and the mission and the 
structure that is outlined is a very good one for NOAA.
    Chairman Ehlers. I appreciate that, and it is always hard 
to know where to draw the line. I have been involved in writing 
constitutions and by-laws for various organizations, and it is 
always difficult to know where the constitution should stop and 
where the by-laws should start. That is similar to what we are 
doing here, but we will work that out with time. Admiral West.
    Admiral West. Yes, sir, Mr. Chairman. As I said, the ocean 
science community strongly supports H.R. 4546, and we have, in 
fact, formally endorsed it, along with NASULGC and Sea Grant, 
in a formal letter to you.
    Chairman Ehlers. Thank you. Dr. Baker.
    Dr. Baker. Yes, I do, and I only wanted to point out one 
thing, and that is that NOAA currently has a Naval Deputy that 
is from the Navy, and one of the things that I added when I was 
Administrator was an Air Force Deputy to help us with 
satellites and weather, and I think that is a good thing to 
have as part of the organic act.
    Chairman Ehlers. Thank you. Mr. Kassinger.
    Mr. Kassinger. Mr. Chairman, for the reasons I outlined 
briefly in my statement, we prefer, among the two bills, the 
more streamlined approach reflected in H.R. 4607, but we 
certainly support the intent and thrust of H.R. 4546 to 
establish a NOAA Organic Act. I would be happy to talk more 
about our thoughts on that any----
    Chairman Ehlers. Yeah. I think we could easily work out 
most of that without too much trouble, and the rest without a 
great deal of trouble.
    Secondly, I believe, Dr. Baker, you raised this: the pros 
and cons of NOAA being an independent agency. That is something 
that we struggled with as well, because there are independent 
agencies, and there are those that are part of departments. And 
your suggestion was that NOAA should be an independent agency, 
and function such as the EPA or the National Science 
Foundation, or NASA, or something of that sort.
    I would like to again ask each of you, and I will go the 
other way, what do you see as the pros and cons of NOAA as 
being an independent agency, as opposed to being housed within 
a Department. Presumably, it would stay in the Commerce 
Department, but if there was some more appropriate Department, 
that is certainly an option as well. Mr. Kassinger.
    Mr. Kassinger. Mr. Chairman, I don't--I can't speak or 
articulate a specific Administration position on the 
independence of NOAA at this time, but I would like to offer 
two or three thoughts for you as you move down the road of 
considering this legislation, and as that issue comes up.
    The first is this. I would urge you to consider separating 
the issue of the internal NOAA organization, reflected in an 
organic act, with the really broader question of the external 
fit of NOAA in the Executive Branch. There is a very practical 
reason for this. First of all, I believe that, as best as I can 
tell, there is a broad degree of consensus on the desire for a 
set of organic authorities in a single place. We would very 
much like to move forward on that. Once you throw the idea of 
an independent agency into the mix, you are talking about a 
significant government reorganization. One only has to look at 
the recommendations of the Ocean Commission to realize that 
there are other components of government that might well fit 
into that scheme.
    We at the Commerce Department don't covet any other 
agencies' programs. Maybe part of their budget, but not part of 
their programs. But if you propose an independent NOAA, there 
are going to be people who begin thinking about what other 
parts of government ought to fit into that. That may be well 
worth in-depth discussion, but I would hate to see an organic 
act derailed by what would become a significant debate over 
government re-organization.
    The final thought I offer to you is this. I am not sure 
exactly what the reason would be for having an independent 
NOAA, but I can speak as the Deputy Secretary and also from my 
prior three years at the Commerce Department, to articulate one 
thought that ought to be kept in mind, and that is a concern 
that you would actually, rather than establish NOAA as a more 
strong, free-standing agency, you might actually diminish its 
ability to accomplish the things that we all want NOAA to 
succeed at.
    When NOAA can call on a Cabinet Secretary to represent it 
in the highest reaches of government, that is a very positive 
and important thing, and a free, independent, small agency in 
the scheme of things, I am afraid, would not have that degree 
of ability to influence policy, again, in the areas that we all 
support.
    Thank you.
    Chairman Ehlers. Thank you. Dr. Baker.
    Dr. Baker. Mr. Chairman, I thank you for the opportunity to 
comment on this, which has been a subject of great interest to 
me for a prolonged time, and I have urged various 
administrations, including the Administration that I was in, to 
consider that independence, and I have to say that Ted 
Kassinger's remarks were the most positive that I have heard 
from an Administration in a long time.
    I do believe that the issues that NOAA deals with mean that 
we should have an independent agency deal with them. They are 
as important as the issues that NASA deals with, or that the 
EPA deals with. And I believe that NOAA has become mature 
enough that it can, in fact, deal with these issues, and Joe 
Friday, I think, gave a very good list of the various kinds of 
responsibilities that give NOAA its strength.
    I think that the fact is that Secretaries of Commerce, I 
think this has been generally true as I have watched it, don't 
know that they have NOAA when they come in to be Secretary of 
Commerce, and then they have to learn about what it is all 
about; and then, one has an extra layer of administration and 
bureaucracy to go through to try to deal with issues.
    The times that the Secretary of Commerce has been really 
helpful in promoting issues have been few and far between, in 
my experience. I think it is much better to have a direct 
connection with the President and the rest of the Executive 
Branch. That is not to say that it should be just NOAA. There 
might be some other functions of other agencies that might be 
added. Estuary programs is just one example of many that might 
be looked at. But I think it is time to take seriously now the 
whole question of NOAA as an independent agency, and I think 
the Senate bills that Senator Hollings, Inouye, and Stevens and 
Gregg have introduced, I think lay out the case in a strong 
way, and I think it is time to start that debate.
    Chairman Ehlers. Admiral West.
    Admiral West. The pros of a large agency, of course, is the 
horsepower that comes along with it. The cons are that it is a 
large agency with a lot of horsepower, and you are a part of 
that. I was the Naval Deputy to Dr. Baker, so I got to see NOAA 
from that perspective, and I have also watched NOAA pretty 
closely the last couple years, and including the last nine 
months as a NOAA Research Review Team. Part of the problem is, 
is NOAA is hidden. We have got to bring it up. It has got a 
very, very important mission for this nation, and we have got 
to set it up as an independent agency.
    Chairman Ehlers. In other words, when you are hitched to a 
horse, you want to make sure it is a horse and not a mule. Dr. 
Friday.
    Dr. Friday. I don't have--know how to follow that line, but 
we will see. The biggest problem that I found that NOAA had 
wasn't whether it was in the Department of Commerce or outside 
the Department of Commerce, because I served under about eight 
different Secretaries of Commerce, I think, during my time, and 
some of them would call me up at home for personal advice on 
how things should be done, and others, I never met. So, it is a 
wide variety there.
    But on the other hand, NOAA's real big problem is the fact 
that the budget process of NOAA flows through a non-scientific 
arm of the Office of Management and Budget, and in the budget 
process, the NOAA science programs and service programs compete 
with prisons and overseas embassies, and they frequently lose 
out in that whole process, in the State/Justice/Commerce bill, 
because of the overall priority. So, the structure of the 
budgeting process is probably more important than physically 
whether we are located in a Department or outside.
    Jim Baker makes some very good points as to reasons that it 
should be independent. Secretary Kassinger makes some very good 
points why it should still be a part of the Department. I am 
waffling.
    Chairman Ehlers. Well, I am--I apologize for going too long 
on this, but I wanted to get all of your responses on this 
important issue. But I think it really boils down in many cases 
to who the Secretary of Commerce is, and what his or her 
interests are. But I appreciate your comments.
    My time has expired. I am now pleased to recognize the 
gentleman from Colorado, Mr. Udall.
    Mr. Udall. I thank the Chairman, and I hear the Chairman 
plying the differences between mules and horses, and there was 
a Republican legislator around the time of the Civil War, who 
described the Democratic Party as a mule, because the 
Democratic Party had no pride of ancestry, nor no hope of 
posterity, and I think we have proven that legislator wrong, 
but it is still touch and go.
    Dr. Baker, you made a good point. I remember when Secretary 
Evans came to Boulder early in his tenure, and was greeted 
warmly by the employees, and toured the Skaggs facility, and he 
expressed some amazement, both privately and publicly, at the 
size of the NOAA budget within the Commerce Department. Now, he 
expressed also excitement and enthusiasm for promoting NOAA, 
and he had a funny story about one of his children saying his 
dad had gone to Washington and become a weatherman, when people 
asked him what the Commerce Secretary did. But I think you make 
a very, very good set of points there.
    I did want to direct a question to Dr.--I am sorry, Mr. 
Kassinger, and I want to get to the substance of this, but I 
think there is a process question that I think is important to 
ask. Mr. Kassinger, I understand that you objected to 
testifying on the same panel with Mr. Hirn, who is going to 
testify next as a representative of the National Weather 
Service Employees Organization. It just strikes me as curious, 
and I would like, if I could, an answer as to your reluctance 
to appear on a panel with a representative of the employees of 
your own Department. And it raises a question I might have 
about the relationship that you would have with this important 
organization. Is there a problem here? Is there something that 
ought to be surfaced, so we can move on to the important work 
of the organic act and what the Chairman and others are 
proposing?
    Mr. Kassinger. Not at all, Mr. Udall. My concern simply was 
I didn't want there to be confusion about who was speaking for 
the Department of Commerce.
    Mr. Udall. I can understand that, I think, but I would just 
like to make the point that we have had other Department and 
Agency heads who have appeared on similar panels, the same 
panel, excuse me, with employees of their organizations. For 
example, Administrator O'Keefe appeared before this committee 
on the same panel with Mark Roth, who is the general counsel of 
the American Federation of Government Employees when we were 
discussing an important bill, the NASA Workforce Bill, and 
there are numerous other examples of that kind of an approach 
on the Committee. So, I just wanted to do my part to try and 
clear the air, and encourage you to think in the future about 
appearing with somebody from the National Weather Service's 
organization, if that was important to them, as well as you.
    I know there is potential to have grievances, but 
nonetheless, there may also be grievances with outside 
constituent groups, and so, I am disappointed that it didn't 
work out today, but I hope in the future that both the Commerce 
Department and the employees group could appear on the same 
panel.
    With that, let me move to the substance of the testimony we 
have heard today. And I think all of you have talked about 
ecosystem management, and it is being proposed as the model 
NOAA should follow to accomplish its resource mission. If we 
could just move from my right to left, in the time I have 
remaining, and each of you could take a shot at defining 
ecosystem management, I would appreciate it, and I know the 
Committee would appreciate it.
    Now, Dr. Friday, you have to be really succinct and short. 
I am teasing a little bit, but that is the problem I think we 
face, but I would like everybody's thoughts about ecosystem 
management.
    Dr. Friday. Sir, I don't think anybody can be succinct in 
defining that. Ecosystem really is where we live, what all is 
involved in where we live, how it is all tied together, and how 
it all inter-reacts. It includes everything from weather to 
animals, plants, people, and all of the actions thereof.
    Mr. Udall. Do you believe there is language that can define 
that in a way that then gives direction to the Agency?
    Dr. Friday. What happens usually is that everyone 
interprets the language how they wish to, and if we can obtain 
language that everybody feels they are winning, that will 
probably do very successfully.
    Mr. Udall. Admiral West.
    Admiral West. Well, on the NOAA Research Review Team, I was 
the sailor, and there were five other very distinguished 
scientists, and we discussed at length what ecosystem 
management is. We have got to define it, but I think, in a 
sailor's term, it is something bigger than just counting fish. 
And we recommended--a recommendation in our committee--that an 
external group of some type needs to define this, because it is 
a major part of what NOAA has to do for us.
    Mr. Udall. So you would look to an external group, as well, 
to help----
    Admiral West. Yes, sir.
    Mr. Udall [continuing]. Generate that language and those 
definitions.
    Admiral West. Yes, sir.
    Mr. Udall. Dr. Baker.
    Dr. Baker. Congressman Udall, there are biologists who say 
that we can't define an ecosystem, and there are managers who 
say that we don't really manage the environment, we only 
experiment on it. So, it may be that this term can't be used, 
but I think the way in which we are using it is that when we 
look at a particular aspect of the environment, we must include 
the other aspects which impinge on it. In other words, that 
complex web of mutual interactions between physical, 
biological, and chemical systems that take place. And my 
example was the stellar sea lions. We didn't know if the 
stellar sea lions were declining because they were being caught 
by fishermen, or because there was viruses, or because there 
wasn't enough food in the environment. We had to look at all of 
those things. We had proponents for each of them, but in my 
view, ecosystem management is trying to take into account each 
of these, and trying to understand how the different aspects 
come together.
    Mr. Udall. Did we ever determine what was increasing the 
mortality of the sea lions?
    Dr. Baker. No.
    Mr. Udall. We never did----
    Dr. Baker. But we did take some actions----
    Mr. Udall [continuing]. Definitively.
    Dr. Baker [continuing]. To try to see if we could influence 
one piece or another, but you know, it is very hard to do 
experiments in the environment, because you can't hold 
everything constant while----
    Mr. Udall. Right. Right.
    Dr. Baker [continuing]. You change this one thing, and so, 
you know, we are still--I would say it is wrong to say 
management. It is probably better to say experiment. We do 
various experiments, we look at the results, and then we hope 
we learn something from that.
    Mr. Udall. So ecosystem you would leave in the equation, 
but maybe there is another modifier, another noun, management, 
isn't the word that you think----
    Dr. Baker. Yeah, I think that is probably a little strong--
--
    Mr. Udall. Experiment.
    Dr. Baker [continuing]. For what we really can do.
    Mr. Udall. Mr. Kassinger, do you have a point of view?
    Mr. Kassinger. I would first say, Mr. Udall, my 
undergraduate degree was in environmental design. I think a 
fair description of that major was ecosystem-based management 
of landscape, so I have wondered why it took 30 years for 
people to talk about ecosystem-based management of seascapes.
    I would just make a couple of points. We don't manage 
ecosystems. We manage the activities that impact ecosystems. I 
think that fits with what Dr. Baker just said. In our current 
draft of the NOAA strategic plan, we have come up with a 
working definition, which I don't have here in front of me, but 
we will put that out for public comment, and try to work toward 
a consensus view of that term.
    The final point I would make is I wouldn't worry too much 
about being overly precise in legislative language, trying to 
define such a term, because I think what you want is a concept 
and flexibility, rather than something that would serve to 
narrow the scope of important activities.
    Mr. Udall. Thank you.
    Chairman Ehlers. The gentleman's time has expired. Next, it 
is my pleasure to call upon the gentleman from Minnesota, my 
state of birth, Mr. Gutknecht, who is very interested in the 
issues before us, and has twice visited the laboratories in 
Boulder, Colorado.
    Mr. Gutknecht.

                     NOAA's Budget and the Congress

    Mr. Gutknecht. Well, thank you, Mr. Chairman, and yes, the 
good news and the bad news is I have visited the labs in 
Boulder, and the good news is that I was very impressed with 
much of the work that was being done there. The bad news, from 
your perspective, is that I didn't find an Agency which I found 
to be critically underfunded. And as we go forward, both as a 
Member of this committee and as a Member of the Budget 
Committee, I will be hard pressed to say that NOAA is one of 
the agencies who needs more money.
    When I compared what was being done at those agencies in 
and around Boulder, NOAA was clearly the tall dog in a short-
legged race, and so as--I just want to preface that. The other 
thing that I am concerned about, and I do appreciate the last 
comments by Dr. Baker, and it was refreshing to hear scientists 
say that we don't always have the answers, because one of the 
concerns that I had with a lot of the people that I met at the 
NOAA labs in Boulder was that they had already--you know, 
`don't confuse us with the facts' made up their opinion about 
the state of the global climate. In fact, what was disturbing 
to me is that some of the scientists would not even acknowledge 
that we have seen wide variances in the level of CO<INF>2</INF> 
in the atmosphere, and that was disturbing to me, because I do 
believe in sound science, and I think sound science requires 
being completely honest with ourselves. We don't know why the 
level of CO<INF>2</INF> has varied so much, and it may well be 
that there is not a whole lot that human beings can do about 
it.
    So, perhaps you want to respond to that, but that has been 
my observation, and I would encourage other Members of this 
subcommittee and the full Committee to take advantage of going 
out and visiting the labs, because they are impressive. The 
technology there is amazing. The facility is probably one of 
the most impressive buildings in one of the most beautiful 
locations that I think we could ever possibly have, and as I 
say, it certainly didn't argue poor, poor, pitiful me, but we 
would love to hear your response to that.
    Dr. Baker. I would be happy to give a try. I think that one 
shouldn't penalize NOAA for being successful on the budget that 
it has. I think it has done very well. I think you are 
absolutely right, and as we looked at it from internally in 
NOAA, we saw many more things that we could do and could do 
better. We recognize that, and I think that when we looked at 
trying to increase our budget, there were many areas where we 
knew if we had an additional investment, we can improve the 10 
day forecasts. We could improve the forecast of space weather. 
There were other things that we could do that would be of value 
to society, and I think those things are important. And on 
fisheries, for example, one of the big problems that we have is 
simply trying to assess the stocks of fisheries, and there, 
investment is required. And there was investment by Congress in 
new fisheries vessels, and I think there has to be more 
investment as we look at these issues.
    So, I think one has to look at what could be done, and then 
balancing that investment compared to other investments in 
other federal agencies. But I think environmental forecasting 
is very important for our society that gets more and more 
vulnerable to all kinds of environmental change.
    On the climate change issue, I think the broader issue is 
trying to present to the public and to people outside the 
science community that--the role of uncertainty. And I think 
scientists in their rush to try to make points will sometimes 
ignore or discount the uncertainties in the science that they 
are presenting, and I think the uncertainties are as important 
as the certainties, as we talk about these issues. And 
certainly, there are both certainties and uncertainties in the 
issues of adding carbon dioxide to the environment. Certain 
things that we know, certain things that we are uncertain 
about, other things that we don't know exactly what we should 
do. And not all of this gets presented at the same time, and I 
think that is an issue, and I think it is something I worked 
on. I think a lot of us who have tried to think about how you 
present ideas to the public have tried to understand that it is 
not just the things we know, but it is also the things that we 
don't know that have to be presented, because that is the way 
you can make good policy.
    And I think it is one of the things that I am trying to do 
in my new job is to get people together who are experts in 
this, and talk to the public about how you use science to make 
policy, because as I said, it is not what--just what you know, 
but it is also what you don't know that is important in 
determining policy and making good policy decisions.
    Dr. Friday. If I could, sir, I would like to point out in 
my written testimony, I talk about how virtually every one of 
the NOAA labs contributed to the modernization of the National 
Weather Service. NOAA is not just a climate change agency. It 
is an agency that responds to all variety of needs in the 
oceans and the atmospheres. And it was that laboratory 
capability that allowed us to move from a lead time of a 
tornado forecast from minus two minutes in 1982 to 12 minutes 
today.
    We used to say, ``what we just saw was a tornado.'' Now, we 
can say ``in about 10 or 12 minutes, you are going to see one 
in your area,'' and it all came from the science and technology 
from those NOAA labs.
    Mr. Gutknecht. Thank you.
    Chairman Ehlers. The gentleman's time has expired. Next, we 
recognize the gentleman from Washington, Mr. Baird.
    Mr. Baird. I want to thank the Chairman for his leadership 
on this issue, and I appreciate our panelists being here today. 
One of the questions I always have about a complex organization 
like NOAA is how the interfaces with the various committees of 
the Congress either enhance or detract from your ability to do 
your job. And I applaud the Chairman for looking at an organic 
act to establish NOAA.
    Particularly Dr. Baker, but I would ask the others with 
their expertise and experience as well, can you give us a brief 
insight, and this is probably a huge question, but a brief 
insight into NOAA's interactions with various committees. I 
know here we are the Science Committee. I believe Resources has 
some jurisdiction. I may be mistaken, I think Commerce may have 
some say in some of what you do. Is that--are there any 
insights we can gain from your experiences there, Dr.--Mr. 
Kassinger, and should we consider that issue as we look at an 
organic act?
    Mr. Kassinger. I don't think that is a significant 
consideration, frankly, Mr. Baird, in defining what an organic 
act should be. Certainly, the Administration, generally the 
Commerce Department, doesn't have any lock on the wisdom on the 
various issues that affect our day to day business. We welcome 
all interactions with all of the committees with whom we work, 
whether it is the authorizing or the Appropriations Committee. 
And indeed, you know, this is an issue at Commerce, not just in 
the NOAA area. We have a broad range of responsibilities. We 
deal with a lot of different committees, and I don't think that 
the idea of having organic--a single organic statute for NOAA 
should take into account what will always be the case, I am 
sure, and that is there are 535 Members of Congress, with an 
interest in what----
    Dr. Baker. Congressman, I think that NOAA has a special 
relationship with Congressman, and I have been always 
impressed, having watched NOAA over the years since it was 
formed, about the very strong interests of Members of Congress, 
Congressional staff members, providing help and support over 
the years, and providing information. One of the things that I 
did, and I know previous Administrators did, was turn to both 
Members of Congress and staff members for information about the 
best ways to manage the set of complex issues.
    I can't remember how many committees that NOAA reports to, 
but it is many. And I think that is probably a strength for the 
Agency, because there is lots of different input and help that 
come from the different committees. The connection with NOAA 
and Congress has been very strong. In fact, it was said to me 
that the view of the Department of Commerce about NOAA was NOAA 
people never go home without stopping on the Hill first. And it 
is probably not so far from the truth. I think there is a real 
strong connection there, and I think one wants to recognize in 
that, in the organic act, but I think the strength is an 
important thing to have, that connection.
    Mr. Baird. Admiral West or Dr. Friday. I appreciate, Dr. 
Friday, your insights on the approps bill, but Admiral West 
first.
    Admiral West. It may have been a transitory thing, but the 
Research Review Team did find a problem with the information 
flow from NOAA to OMB and the Hill.
    Mr. Baird. Dr. Friday.
    Dr. Friday. When I was Director of the Weather Service, 
Sir, I had basically one committee to report to, and that was 
the Science Committee. As the head of NOAA research, I had 
several committees that I was involved with, with the Sea Grant 
Program, and with the Undersea Research Program. It was not 
impossible to deal with. It was worthwhile. My biggest problem 
was in the Weather Service modernization, we closed 250 sites. 
I got to meet a very large number of Members of Congress with 
that.
    Mr. Baird. I am interested further in this issue of the 
appropriations and the competition that NOAA faces. Inevitably, 
if we want to support a project, quite rightfully, we have to 
look at offsets, but when you are pitting NOAA type functions 
against functions that are also important, but really 
completely different fields, could you elaborate on that. I 
will ask Dr. Friday to start, because you raised the issue 
further, but then I would appreciate input from others.
    Dr. Friday. The science of NOAA is not--it is different 
than anything else, really, that is done in the branch of OMB 
that we deal with. And although we have had some very good 
people in there as our examiners, when it goes up the line, and 
it does have to compete, it is hard to justify why you need 
this particular facility to test the emission of a radar set, 
for example, when somebody is vitally in need of additional 
prison structure, or to rebuild an embassy someplace around the 
world. And that is a matter of fact, that is what happens.
    We have to be very articulate in NOAA to be able to justify 
that all the way up the line. And it is a constant effort, and 
I believe it is a problem. I believe if we were competing with 
the rest of the Federal Government science side, that we would 
fare much better.
    Admiral West. On a related issue, I think the number of 
line items that NOAA has, in the budgetary process, I found to 
be unbelievable, and it adds to the problem that they have with 
justifying their mission.
    Dr. Baker. I think the biggest budget issue that we faced 
was looking at the appropriations for satellites, because it is 
the biggest part of our budget, and we would have preferred to 
have worked that together with the NASA budget, for example. 
And that is something, perhaps, as NASA goes through its re-
organization, one might take a look at. But that was the 
biggest piece of our budgetary activity, and required the 
longest-term commitments, and overflows of budgets and so on. 
So, that is the area that I would look at.
    Mr. Kassinger. I am skeptical that this is a significant 
problem. The reason is, because first, NOAA is the largest part 
of the Commerce Department budget, so we advocate strongly on 
behalf of NOAA within the OMB process. Second, it is unclear to 
me that one could ensure, putting NOAA as an independent 
agency, that you would get the budget examiner you want, or 
that you won't end up in another collection of competing 
budgets in the appropriations process on the Hill. You may not 
like State and Justice, but you may be competing with other 
agencies with equally compelling stories, and it is not clear 
to me why one thinks that you would get a better outcome.
    Mr. Baird. I appreciate the answer. I would--Mr. Chairman, 
I appreciate your time. I just have a little bit of concern, 
Dr. Kassinger--Mr. Kassinger--that I have heard several 
distinguished witnesses here suggest that there is a problem, 
and at the end of them suggesting in their experience there is 
a problem, you are skeptical that there is. I respect your 
right to make that decision, but I am skeptical of your 
skepticism.
    Chairman Ehlers. With that note, I will observe the 
gentleman's time has expired. I would just comment about the 
scientists stopping on the Hill. Maybe they are just attempting 
to measure the weather conditions here. Or----
    Mr. Baird. Mr. Chairman, I think it is the free food at the 
receptions, probably, that draws them.
    Chairman Ehlers. That could be, or else the extreme amount 
of hot air generated above the Capitol Dome, which could have a 
great influence on the weather patterns in this area.
    Next, we are pleased to recognize my colleague from 
Michigan, Mr. Smith.
    Mr. Smith. Mr. Chairman, I wouldn't be surprised that it 
has something to do with the $3.2 billion that NOAA is getting 
on their recent stops to the Hill.
    I align myself with some of the comments of Congressman 
Gutknecht. And looking at the wish list of NOAA, I guess I 
think there should be some explanation or justification of 
requesting such things as the--it seems to me you are expanding 
an agency's jurisdiction and prerogatives, of spending more 
than most agencies have. For example, you have a wish list of 
the authorization to purchase automobiles. Normally, that is 
given to departments, not agencies, and especially looking at 
the recent, the most recent GAO report, that suggests that we 
can't even keep track of the cars that the government owns now. 
Why are you requesting the authority to purchase cars, Mr. 
Kassinger?
    Mr. Kassinger. I don't think that we are asking 
specifically for authority to purchase cars. I think it was the 
use of cars. Was it----
    Mr. Smith. What I have written down is requesting the 
authorization to purchase vehicles. Is that correct, staff? 
Yeah, it includes purchase, page 8, under A. Okay, anyway, you 
don't know why that is in there, so let us get it out. 
Hopefully, it will come out. How about more money----
    Mr. Kassinger. I am sorry. Now, I--this was for our--
primarily for our enforcement, our fisheries enforcement folks. 
But it is, you know, it is a traditional authority that 
agencies have, isn't it?
    Mr. Smith. No, it is not. At least my experience with 
agencies, and I was in an agency, it is normally a 
department's--my understanding is----
    Mr. Kassinger. Oh. I am sorry.
    Mr. Smith [continuing]. That it normally is given to 
departments, not agencies. Let me ask about the authority--you 
have requested to have more and better receptions.
    Mr. Kassinger. An important part of NOAA's function is its 
international expertise.
    Mr. Smith. This is not receptions with Members of Congress, 
in terms of the appropriation or anything?
    Mr. Kassinger. I am sure we can expand the authority to 
include that, if you desire, but I think it is fundamentally 
part of NOAA's important outreach effort. You know, again, it 
is to clarify things that NOAA does in one place, but 
sometimes, the authority is scattered about. Sometimes, we rely 
on Department of Commerce general authority, but we would like 
to make it clear that NOAA has this authority, even if it is 
not widely utilized.
    Mr. Smith. And give me, maybe, the thumbnail version of why 
at $3.2 billion, why NOAA's budgetary appropriations have gone 
up so much faster than inflation? And that sort of reflects to 
the concern that the Congressman from Minnesota also expressed, 
in terms of our overspending, and the increased debt that we 
are accumulating, that we are passing on to our kids and our 
grandkids.
    Dr. Baker. Let me attempt to address part of that, because 
there certainly was a budget increase during the time that I 
was Administrator of NOAA that was greater than inflation, and 
that was because we were trying to provide for society those 
kinds of forecasts and warnings that are part of our mission. 
As Joe Friday said, we went in a 10 year period from having a 
minus number of minutes for forecasting a tornado to an 11 
minute forecast, enormous impact on saving lives and protecting 
property. We did the same thing in----
    Mr. Smith. Now, is that some kind of a quantitative----
    Dr. Baker. Yes.
    Mr. Smith [continuing]. Fact.
    Dr. Baker. In fact, we can document and the National 
Weather Service can provide documentation for you about the 
amount of economic benefit for every minute of improved 
tornado, storm, and flood warning that is provided. And in 
fact, we can do that up into the future. If we could provide 
additional investment, we could show you the kind of economic 
benefit which has been sustained in the past. I think that is a 
very important point.
    Mr. Smith. Now, is--now, should I be encouraging all my 
constituents to buy a radio that gets the National Weather 
Service reports? It seems a lot of the speedup time in 
communication to people that need to know that example--that 
need to know that, including homeowners and businesses, depend 
on radio and television. Is the transmission time through 
commercial communication systems, is that part of the speedup? 
I mean, your prediction has increased, and this--when I saw Mr. 
Friday nod on having it quantitatively shown, is the 
information that is getting--you are getting the information 
quicker. Is the homeowner and the business getting the 
information quicker? Mr. Friday.
    Dr. Baker. Yeah, he should answer that.
    Dr. Friday. Yes, sir. Several things. First of all, we 
don't do it by ourselves in the Weather Service. I apologize 
for using the term we. I have been out of the Weather Service 
since 1997, but it is difficult to completely separate myself 
from that culture.
    The fact is, is that we depend on the media, working very 
carefully with the local television and radio stations 
commercial. We also have NOAA Weather Radio, which is the only 
method of directly interrupting anyone in their household to 
set off an alarm, should they choose to have it done. And as 
you know, we have recently entered agreements with Homeland 
Security, that that can be used to also notify people of any 
national security type of alert as well.
    But the fact is, is that all these mechanisms are working 
to deliver information faster to the public. We began in 1981 
taking measures of every forecast that was produced by the 
National Weather Service, and we could watch the numerical 
change in that, and we can address those directly into the 
economic impacts on various businesses and industry in the 
decision-making process. For every dollar that we spend in the 
modernization of the Weather Service, there was an $8 return to 
the public.
    Mr. Smith. Mr. Chairman, just one more quick question, sort 
of a--I am going to an International Relations Committee now. 
We are--we were told at a recent hearing that 6,000 people are 
dying every day for the lack of clean water. Does NOAA look at 
aquifers, groundwater, in addition to oceans, in terms of water 
availability and what is happening to probably one of the 
world's most challenging problems, and that is the lack of 
clean water?
    Dr. Baker. The NOAA focus is on, in fact, rivers as they 
come close to the sea, in coastal waters, groundwater, that you 
talked about there, is really a focus for the U.S. Geological 
Survey.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Ehlers. The gentleman's time has expired, and I 
would mention that it would be very nice, as a going away gift, 
when you leave office, if you were to give each of your 
constituents one of the nice new alarm radios that are 
available.
    Mr. Smith. I think you can buy them at--for $19 or 
something, can't you?
    Chairman Ehlers. Yes. I have one in my office I will be 
happy to show you. That is right. And it is now my pleasure to 
recognize the gentleman from Utah, Mr. Matheson, for five 
minutes.

                             NOAA's Mission

    Mr. Matheson. Thanks, Mr. Chairman. I first have a question 
for all of the panel members, and while recognizing that the 
mandate does not always create this type of conflict, I was 
wondering how you think we should address the conflicts that 
arise due to the fact that NOAA's mandate is to conserve and 
manage resources, and also to promote economic activities. If 
you have comments on how you balance those two aspects of the 
mandate.
    Dr. Friday. Well, while everyone else is thinking about it, 
let me just start.
    The Weather Service products and services that go out 
include not only the weather warnings, but increasingly 
effective and more accurate forecasts of seasonal and inter-
annual forecasts of conditions of temperature, for example, and 
precipitation. Those kind of increasing information--
increasingly accurate information sets allow businesses and 
industry to make economic decisions on how they are going to 
behave, and how they are going to perform in the future.
    So, the weather community, both in the research community 
and in the operational community, are increasingly providing 
additional support to improving the economic activity of this 
nation.
    Mr. Matheson. You know, if anyone has something they want 
to add, please do. If you don't have anything to add, you don't 
have to.
    Admiral West. I would just say that, from the sailor's 
standpoint, that if we didn't have the Weather Service, and I 
am not an expert. I think it is somewhere in a few hundred 
million dollars. If you didn't have that, the impact, I mean, 
it is startling. What we don't have is something equivalent in 
our oceans, which I think is a real shortfall.
    Mr. Kassinger. Mr. Matheson, I think your question really 
goes to process, as opposed to is there a magic formula for 
finding that balance. And process-wise, there are a number of 
important tools to balance what are extremely important oceans-
related commercial activities, whether it is commercial 
fisheries, recreational fisheries, oil and gas drilling, 
coastal zone residential activities, other things, with the 
very--and equally important process of managing the surrounding 
environment. Ecosystems-based management techniques are one of 
those. But also just the process of public participation. The 
fundamental and most important part of the process is 
developing good science, as well as developing socioeconomic 
data that is relevant to our activities. And we devote a lot of 
attention to that, and we will be even more so in the future.

              Role of NOAA in Multi-jurisdictional Issues

    Mr. Matheson. Let me ask a new question for Dr. Baker. You 
list in your testimony a number of problems, be it natural 
disasters, non-point pollution, airshed deposition of nitrogen, 
that involve large land areas or water bodies that cross 
numerous political boundaries within the U.S. or out 
internationally as well. Is NOAA able to effectively coordinate 
policies that address these multi-jurisdictional problems, and 
what resources or authorities do you think NOAA would need to 
be an effective leader or participant in efforts to address 
that type of challenge?
    Dr. Baker. NOAA does it, I think, partially. The Coastal 
Zone Management Act is a good example, where NOAA enforces 
federal consistency on state actions, and if one state wants to 
do something that will influence or have an impact on another 
state, NOAA can step in and say you have to do it in a certain 
way, so that the influence is minimized, and that happens 
continually.
    I think that we don't have all of the authorities in place 
that would allow us to do the new things that we talk about, 
non-point source pollution is a good example, and I think we 
are still trying to develop what will be the authorities to 
make that work. Airshed deposition is even a more difficult 
problem. The reason I mentioned it is because airsheds 
typically are bigger than watersheds. In the Chesapeake Bay, 
the deposition of nitrogen from the airshed is larger than 
anything that comes through the water, and yet, we don't have a 
really good way of dealing with that legislatively.
    So, that is an example of the kind of problem, I think, 
that needs to be taken up.
    Mr. Matheson. Do you have a suggestion about how some 
type--what form of authority might be needed to help you better 
address a circumstance like that?
    Dr. Baker. Well, I think the Coastal Zone Management Act is 
a very good example of how one can start the process here, to 
set federal guidelines, and then have the states buy in. And in 
fact, I think almost every state that--at least when I was 
Administrator, I think we had every state but one, had bought 
into the Coastal Zone Management Act, so it is possible to make 
that work.
    Mr. Matheson. Let me ask you another question. What more do 
you think we can be doing, in terms of preparing for natural 
disasters? I am wondering how you would distinguish any 
additional task that NOAA should be doing from responsibilities 
that, let us say, FEMA has for responding to natural disasters?
    Dr. Baker. Well, the NOAA/FEMA relationship is close and it 
is very important to keep that close, because NOAA has the 
science responsibility for doing the forecasts, and FEMA has 
the responsibility for making sure that people are aware, and 
the things that people should do. But what we discovered was, 
for example, when we did the first forecasts of the El Nino I 
think it was 1995, we put out a number of products that we 
thought would be useful for the public, and not all of those 
products turned out to be helpful warnings. Some of them were 
useful, some of them weren't. And in fact, it was the feedback 
between the public and FEMA and NOAA that allowed us to focus 
our efforts on specific scientific products that were the most 
valuable, for warnings that were the most useful. And it is 
that kind of interaction, I think, which is important. The 
scientific--the interaction of the scientists who know the 
kinds of products that can be done, with FEMA and other 
homeland security agencies to say here is what is useful, and 
here is how the public can really respond--the public and the 
security agencies.
    Mr. Matheson. Thanks, Mr. Chairman.
    Chairman Ehlers. The gentleman's time has expired. I am 
pleased to recognize the gentleman from Maryland, Mr. 
Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. I appreciate the 
hearing. And gentlemen, thank you for coming this afternoon. We 
have enjoyed your testimony.
    I have, I think, four questions, which if the Chairman will 
be patient, will take about 45 minutes to answer, I guess. If 
you are brief.
    Chairman Ehlers. I should remind you we are scheduled for 
votes between 3:45 and 4.

                        Specific NOAA Functions

    Mr. Gilchrest. I see. All right. Well, anyway, the four 
broad areas of my curiosity. First of all, I think Vern is on 
the right track as far as creating an organic act for NOAA to 
put it in an arena and a status that I think should be on the 
same level as NASA.
    The first question, I guess, deals with--one of the 
proposals is all you do in NOAA, should it be--begin to be 
oriented toward an ecosystem-based management program, and how 
would you begin to do that, as far as fisheries management is 
concerned? I know that is not a part of this particular 
proposal, but isn't ecosystem fisheries management policy 
something that is within our reach over the next five to ten 
years, that is practical to implement as far as using our 
councils are concerned, to manage the Nation's fisheries?
    Two, the Weather Service is an extraordinary part of NOAA. 
Everybody understands it. Everybody buys into it. It is a 
standard piece of equipment that gets an appropriation year 
after year. We don't have to worry about a line item or an 
earmark for the New England states, or the Gulf of Mexico, or 
places like that. Shouldn't we begin, as we look at NOAA, to 
use the Integrated Ocean Observing System on the same level as 
we look at the weather system, considering everything that is 
going on with climate change, the global problems we see with 
our oceans, and the lack of information we have about the 
oceans in general?
    And I think I did mention, whenever we talk about ocean 
research, I know there is a lot of talk now about having a 
vessel specific to ocean research, and there is some movement 
on that with the House and the Senate, to provide that kind of 
funding. I know Mr. Ballard, Bob Ballard, is on the Hill over 
the last day or so, discussing that particular issue. And so if 
we raise the level of NOAA to an understanding as to the 
critical importance of literally life on the planet, to the 
same level as NASA. NASA has extraordinary research, and we 
don't seem to question why we want to figure out what is inside 
the rings of Saturn, or whether some of the moons have water 
under the surface, and can we get a satellite to leave the 
Solar System. Those kinds of things. So, raising the level of 
the status of ocean research to the same level as space 
exploration.
    And then the other things is, that the gentleman from Utah 
talked about, and that is, you know, what is NOAA's Weather 
Service responsibility as far as air deposition is concerned, 
and Dr. Baker, you mentioned the Chesapeake Bay, and clearly, 
one third of the excess nutrients in the Chesapeake Bay is from 
air deposition. So, how do--what is the interface between NOAA, 
let us say, and Department of Interior and EPA, as far as air 
deposition is concerned--control of air deposition? But with 
Interior, for example, has--when we look at Coastal Zone 
Management Act, when we look at the Coastal Barriers Resource 
Act, and we see the potential now, if you accept the level of 
science that is out there about global warming, and sea level 
rise, and larger storms, and more violent confrontations 
between the weather and those communities that are continuing 
to develop there. So, is there an interface between NOAA, 
Interior, EPA, about global warming, about sea level rise, 
about storms that come in that deviate from any calculation to 
the natural variability of weather, that can be explained under 
normal conditions, that actually occur now because the planet 
is heating up because of greenhouse gases from human activity?
    So, I will stop now, Mr. Chairman, and----
    Chairman Ehlers. Well, you have one second to answer the 
question.
    Mr. Kassinger. Mr. Chairman, let me----
    Mr. Gilchrest. I would like to just make a comment, if--I 
know we are not going to have time for all of those answers, 
but our Subcommittee on Fisheries is trying to deal with Mr. 
Ehlers to make a compatible piece to this NOAA Organic Act, and 
these--this kinds of information would be very helpful for us.
    Chairman Ehlers. Now, we will give that some extra time for 
you to answer this question.
    Mr. Kassinger. I will try not to take all 4-5 of your 
minutes. Let me touch on these, just very, very quickly. First, 
I think the mission and purposes of a new NOAA--outlined in the 
NOAA Organic Acts, both 4546 and 4607, go to all of the 
questions you raised, and indeed, are one of the reasons we 
would like an organic act very much to focus the mission of the 
Agency.
    Second, on ecosystem-based management of fisheries, we are 
already doing that. Moving in that direction. I think the first 
ecosystem-based fisheries management plan was approved a year 
ago in Hawaii. It is certainly the way all fishery management 
plans should be approached in the future. There is a lot to 
learn about this, but it is absolutely the way to go, and we 
are very focused on it. Indeed, ecosystem-based management is 
one of the four key goals of NOAA, as outlined in the current 
management scheme.
    Third, on the Integrated Ocean Observing System, there is a 
tremendous opportunity to be accomplished along the lines that 
you suggest, and indeed, it is one reason that, under Admiral 
Lautenbacher's leadership, we are investing so much time and 
resources in promoting not only observing systems in our 
coastal waters but around the world. It is fair to say the U.S. 
is demonstrating tremendous leadership in getting a global 
observing system in place. Just a couple weeks ago, I was in 
Maine. I had the opportunity to look at what they have already 
deployed in the Gulf of Maine, led by the University of Maine, 
and the Sea Grant Program up there. And they are constantly 
thinking of new instruments to add to the buoys they have out, 
and already, in real time, you can go to your computer today, 
and see the data over the website, that those buoys are 
generating. And the biggest problem they have, I gather, is 
that every once in a while, the Coast Guard will go along and 
pick up a buoy, because they think it is something lost from a 
mooring somewhere, and then they have to go back and put it 
back. But it has already been a tremendous benefit to the 
fishing communities, to the recreational communities, and 
others in the surrounding areas of the Gulf of Maine. So, yes, 
it is an important thing to do, and I hope the products that 
could be developed and delivered out of the observing systems 
will continue to be developed.
    Fourth, you mentioned the ocean research vessel. The first 
of the new generation NOAA vessels will be launched in August 
or September. The second one, the keel has been laid and it 
will be coming on line once construction is complete. It is a 
program that we believe in. It is very important to get these 
vessels that we have committed to out. They are replacing 
vessels that are 50 and 60 years old. And they are terrific. 
They have great instrumentation. They are extremely quiet. They 
will do great work. It is, however, an expensive proposition. 
You are talking about significant capital equipments. It is one 
of the driving forces in the budget increases that we have seen 
in the last couple of years. And that is a serious matter that 
we and the Congress have to work out as we look at the overall 
needs of NOAA, and the Nation for oceans research.
    Finally, very quickly, very broad and complicated subject, 
about NOAA's role in climate change and related research. But I 
am very proud to say that NOAA is, with the Department of 
Energy, co-chairing the Administration's Climate Change 
Research Initiatives and Climate Technology Initiatives. There 
is an extremely integrated, well-thought out program of cross-
cutting research, now focused on 21 areas, as Dr. Friday 
mentioned earlier. The National Research Council has blessed 
this program, and said indeed, it is a model for developing 
such an integrated, cross-cutting program. So, we don't have 
regulatory responsibilities at NOAA in, for example, the air 
quality area. But we are devoting a tremendous amount of 
research dollars and talent, in some very specific programs. 
For example, just this month, we launched in New England a 
program led by the University of New Hampshire, with a 
consortium of universities and others, research scientists up 
there, to begin measuring the flow of particulates in the air 
across the continent and beyond, out into the oceans. And 
really began to try to develop much better data on the--for the 
kinds of issues that you just identified.
    I think I will stop there.
    Chairman Ehlers. Let me just----
    Dr. Baker. Congressman Gilchrest----
    Chairman Ehlers. Let me just intervene and ask each of you 
to give a brief response, because we have one more panel we 
want to fit in yet, before the vote. So, if each of you can 
respond very briefly, and then we may send you further 
questions on this by mail to get a written response, if--is 
that----
    Dr. Baker. Let me just----
    Chairman Ehlers. Is that okay, Mr. Gilchrest? Thank you.
    Dr. Baker. Let me just respond to the last question, which 
was the interaction between NOAA, Department of Interior, and 
the EPA. There is no question that there are some overlapping 
responsibilities. There are some gaps in what is being done. I 
think that, as Ted Kassinger said, the Administration's plan 
for dealing with the research activities in climate change that 
was reviewed by the National Academy of Sciences, I think, is a 
good model there. But I think that would be a useful topic for 
a hearing, to come and listen to what EPA's views, Interior's 
views, and NOAA's views are, and what they do, and what they--
and how they interact. Because frankly, having been there and 
watched that, I would say the interaction is not as efficient 
or as good as it should be, and it is something that really 
needs to be looked at more carefully.
    Admiral West. Sir, on the ecosystem management, I think we 
have got to go on with it, however you define it, by looking at 
not just fish or not just the physical dimension of the ocean, 
but as an ecosystem. I think NOAA can step up to the plate, 
across OAR, NOS, and Fisheries, by taking a region and defining 
how it is being done. We ought to get on with it, and we ought 
to get on with it right now. That was one of the 
recommendations from the Research Review Team.
    Second of all, the IOOS ought to be a national priority, 
and we ought to do it right now. The plan has been in place for 
about three years now. It is time to get on with that. It is 
interesting that you mentioned one ship for ocean research. 
That should say something to people. As an aside, the Academic 
Research Fleet, where most of your ocean researchers are 
working. That fleet is very, very old. It is not being 
replaced. It is in serious trouble there.
    And as far as the interagency work, one of the things that 
we discussed during the Research Review--it was not in our 
charter, but we clearly made a mention in our report--was a 
definite need for some federal interagency discussions on 
research.
    Dr. Friday. NOAA clearly has the leadership in many of 
these areas, and I believe that they should exercise that 
leadership across the federal agencies. I agree with Jim Baker 
that it hasn't always gone smoothly, but that takes active, 
proactive leadership to make sure it occurs.
    Chairman Ehlers. I thank you all for your comments. And are 
you satisfied?
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Chairman Ehlers. And the gentleman's time has expired.
    We will not have time for a second round of questions 
today, and so I want to thank the panelists for their time, and 
their very valuable advice and comments. We will certainly use 
your comments appropriately, as we review the various proposals 
for an organic act, and probably discard all those we don't 
agree with. Now, seriously, we will give serious consideration 
to all of your comments, and we will be having a lot of 
discussion on this committee over the next few weeks and months 
as we try to get this organic act passed before the end of the 
year.
    Thank you again for your time, and I would ask Mr. Hirn to 
come forward for the second panel.

                                Panel II

    Mr. Hirn. Thank you, Mr. Chairman.
    Chairman Ehlers. Thank you. I should give a better 
introduction, now that you are seated. Mr. Richard Hirn is the 
general counsel for the National Weather Service Employees 
Organization, sometimes known as NWSEO. Mr. Hirn.
    Mr. Hirn. Thank you, Mr. Chairman.
    Chairman Ehlers. Is your microphone on?

  STATEMENT OF MR. RICHARD J. HIRN, GENERAL COUNSEL, NATIONAL 
             WEATHER SERVICE EMPLOYEES ORGANIZATION

    Mr. Hirn. There we go. Yes. There we go. Thank you, Mr. 
Chairman and Mr. Udall.
    As you probably know, NWSEO is the professional association 
and the labor organization that represents not only the 
employees of the National Weather Service, but hundreds of 
other employees, and three different NOAA line agencies, as 
well as the attorneys in the NOAA Office of General Counsel.
    These employees believe that the most pressing problem 
facing NOAA is not its organizational structure, but the 
failure of successive Administrations and Congresses to 
adequately fund NOAA's important missions.
    Simply changing the organizational structure of NOAA is not 
going to solve these critical funding needs, but it might just 
exacerbate the problem. To the extent that organizational lines 
are blurred, there will be less transparency and accountability 
to the public and Congress for where scarce federal dollars are 
spent. For many years, Administrations of both parties have 
looked to take from the appropriations from the National 
Weather Service funds to support other programs and projects 
which Congress has regarded as a lesser priority.
    Consequently, NWSEO supports the distinct and separate 
grant of legislative authority in section 105 of the Chairman's 
bill, which creates the National Weather Service and defines 
its mission. NWSEO does not support the Administration's bill, 
because it lacks the separate legislative authority for the 
National Weather Service.
    The Administration's bill furthers a disturbing trend, and 
that is NOAA's apparent attempt to phase out the National 
Weather Service as a distinct identity. For example, NOAA has 
informally renamed the National Weather Service as ``NOAA's 
National Weather Service'' on its web pages and its 
publications, in its official correspondence. NOAA now calls 
the National Weathers Service's Aviation Center, Ocean 
Prediction Center, River Forecast Center, and even the 
Hurricane Center, as the NOAA Aviation Weather Center, the NOAA 
Ocean Prediction Center, the NOAA River Forecast Centers, and 
the NOAA Hurricane Center. The NWS is even replacing its own 
logo with that of the NOAA seagull on its buildings and in its 
television presentations.
    The Weather Service's loss of identity will have a negative 
impact on the public's safety. As NWS forecasts, warnings, and 
other communications to the public are increasingly identified 
as emanating from NOAA, rather than the National Weather 
Service, the public will grow confused about the reliability 
and the authoritative nature of these forecasts and warnings. 
Frankly and unfortunately, few Americans yet know what NOAA is 
and will not understand that the source of the warnings and 
forecasts is actually the National Weather Service. A large 
segment of the public is already confused about the difference 
between forecasts and warnings issued by the government versus 
those from the private sector, and which ones should be relied 
upon when they conflict.
    Now, we agree with the Commission on Oceans that ``research 
efforts should be planned to support the Agency's management 
missions.'' But in the case of the Atlantic Oceanographic and 
Meteorological Laboratory in Key Biscayne, for example, 
decisions about what research is conducted are often made based 
on what outside grants are available, rather than tailoring the 
research to meet the Agency's mission. Changing the structure 
of NOAA will not solve this problem. Only sufficient funding 
will.
    And although the creation of a separate research and 
education branch of NOAA has a--distinct from its operational 
side, has service appeal--surface appeal, the consolidation of 
research and education in one place may, in fact, result in 
reduced education and research overall. For example, the 
operational forecasters who staff the Weather Service's 122 
local forecast offices regularly engage in research and 
publications based on their operational forecasting experience, 
and engage in community research efforts and speaking 
engagements to educate the public about weather, in addition to 
their regular operational warning and forecasts. Each forecast 
office has a warning coordination meteorologist whose 
responsibility it is to develop and implement a public 
relations program in his or her jurisdiction to educate the 
public about the hazards of severe weather.
    In summary, the NOAA's research and education functions 
should be most closely integrated with, rather than separated 
from its operational role. This concludes my statement, Mr. 
Chairman, and I would be happy to answer any questions, and I 
thank you for inviting us here today to provide our input on 
this.
    [The prepared statement of Mr. Hirn follows:]
                 Prepared Statement of Richard J. Hirn
    Mr. Chairman and Members of the Committee, thank you for inviting 
the National Weather Service Employees Organization to present its 
views on the two versions of the NOAA Organic Act that are pending 
before this committee.
    Our Organization, as you may know, is the professional association 
and labor organization that represents not only the employees of the 
National Weather Service nationwide, but hundreds of other employees 
throughout NOAA, such as those employed by NESDIS who track and command 
the Nation's weather satellites at Wallops Island, Virginia; the 
civilian crews who maintain and fly the hurricane tracking planes from 
NOAA's Aircraft Operations Center at MacDill AFB; the research 
scientists at OAR's Atlantic Oceanographic and Meteorological 
Laboratory on Key Biscayne, as well as the attorneys in NOAA's Office 
of General Counsel and five Regional Counsel Offices who enforce many 
of the Nation's most important environmental laws.

The Proposed Restructuring of NOAA

    The employees of NOAA believe that the most pressing problem facing 
NOAA is not its organizational structure, but the failure of successive 
Administrations and Congresses to adequately fund NOAA's important 
missions.
    For example, funding for hurricane research at the AOML Lab has 
been at an almost constant level for over 20 years. The Lab's Hurricane 
Research Division has lost a third of its FTE positions over the last 
decade; has reduced travel to scientific meetings; has failed to 
upgraded its computer equipment until it is either obsolete or broken; 
and has limited the amount of research flying in the NOAA aircraft. The 
reduction in staff and inability to hire has also resulted in missed 
opportunities to advance the science of hurricane forecasting. A 
critical current need, for example, is qualified scientific and support 
staff to help assimilate the valuable data collected in hurricanes by 
both NOAA and the Air Force into the next-generation computer models. 
AOML has only one person who has some expertise in this area, yet the 
problem is so complex that a team of 5-10 people should be working on 
this problem right now.
    Last year, employees from the Hurricane Research Division flew into 
Hurricane Isabel extensively and provided real-time information to 
forecasters who, in turn, made remarkably accurate forecasts for the 
storm. Ironically, though, if it were not for the Office of Naval 
Research, which supported AOML's field program last year (and will 
again this year), and for the generosity of the Air Force Reserve who 
donated some of its older GPS dropsondes (because AOML could not afford 
enough of its own), the critical data that was transmitted to the NWS 
and the rest of the world would not have been obtained. The scientists 
at AOML are discovering new features, in the high wind eye-wall region 
of hurricanes, from those flights into Isabel that will have important 
implications for understanding and predicting the wind fields in 
intense hurricanes in the future. Again, if AOML had to rely on NOAA 
funding alone, these discoveries would not yet have been realized.
    The House Appropriations Committee recommended, and the House last 
week approved, funding for the NWS which the Committee claimed 
represented the Administration's full request for FY05. Regrettably, 
the amount approved actually fell short by nearly $10 million. The 
amount requested by the Administration did nothing to resolve the 
accumulated $19 million shortfall in the appropriations for local 
forecasts and warnings which have never fully funded mandated pay 
raises. As a result, the NWS is already planning to slow the pace of 
applying new science and technology into local forecasting, which will 
jeopardize the NWS' goals for improving tornado, flash flood and winter 
storm warnings.
    Simply changing the organizational structure of NOAA is not going 
to solve critical funding needs--but it might exacerbate the problem. 
To the extent that organizational lines are blurred, there will be less 
transparency and accountability to the public and Congress for where 
scare federal dollars are spent. For many years, Administrations of 
both parties have raided the appropriations for the National Weather 
Service to fund other programs or projects which Congress has regarded 
as a lesser priority. While most of NOAA's mission is important to the 
Nation's long-term welfare and prosperity, the mission of the National 
Weather Service is critical to the immediate safety of the American 
public. In order to prevent NOAA from reallocating funding from the 
National Weather Service to other entities, the FY04 omnibus 
appropriations measure prohibited NOAA from taxing the NWS and other 
line components to support other programs. Similar language has been 
included in the NOAA section of the CJS Appropriations the House passed 
last week.
    Consequently, NWSEO strongly supports the distinct and separate 
legislative grant of authority in section 105 of H.R. 4546 that creates 
the National Weather Service and defines its mission. NWSEO does not 
support H.R. 4607, introduced on behalf of the Administration, because 
it lacks separate legislative authority for the National Weather 
Service.
    H.R. 4607 furthers a disturbing trend NWSEO has noticed from NOAA--
an apparent attempt to phase out the National Weather Service as a 
distinct entity. For example, NOAA has informally renamed the National 
Weather Service as ``NOAA's National Weather Service'' on its web 
pages, in its publications and on official correspondence emanating 
from the National Weather Service. NOAA now calls the National Weather 
Service's Aviation Weather Center, Ocean Prediction Center, River 
Forecast Centers, and even the Hurricane Center the ``NOAA Aviation 
Weather Center, ``the NOAA Ocean Prediction Center,'' ``NOAA River 
Forecast Centers'' and the ``NOAA Hurricane Center.'' The NWS is 
replacing its own logo with NOAA's seagull logo on its buildings and in 
its television presentations.
    The National Weather Service's loss of identity will have a 
negative impact on public safety. As NWS forecasts, warnings and other 
communications to the public are increasingly identified as emanating 
from NOAA, the public will grow confused about the reliability and 
authoritative nature of these forecasts and warnings. Frankly, few 
Americans yet know what NOAA is and will not understand that the source 
of the warnings and forecasts is the National Weather Service. A large 
segment of the public is already confused about the difference between 
forecasts and warnings issued by the government versus those from the 
private sector, and which ones should be relied upon when they 
conflict.
    We have reviewed the Preliminary Report of the U.S. Commission on 
Ocean Policy and its recommendation that NOAA be restructured by 
combining existing line agencies into broader categories--``assessment, 
prediction, and operations,'' ``management'' and ``research and 
education.'' The Commission believes that this new structure would 
further ``ecosystem-based management.'' This recommendation was 
apparently made without considering the role of the National Weather 
Service, which does not manage natural resources, but is responsible 
for protecting the lives of Americans every day.
    We agree with the Commission that ``research efforts should be 
planned to support the agency's management missions.'' In the case of 
AOML, the decisions about what research is conducted are often made 
based on what outside grants are availability, rather than on tailoring 
the research to the agency's mission. Changing the structure of NOAA 
will not solve this problem, only sufficient funding will.
    NOAA employees believe that the second biggest problem at NOAA is 
that many decisions in resource management are driven not by science, 
but by politics. For example, many members of the Fisheries Management 
Councils are industry representatives who have a conflict of interest. 
When the leadership of the NMFS must decide between the councils' 
recommendations and the best science, its decisions are often 
influenced by political pressures from Members of Congress and the 
governors, rather than by science alone. Similarly, political pressure 
often overrides science when NOAA leadership makes decisions with 
respect to its consultative role under the Endangered Species Act, such 
as how much power may by generated by hydro-electrical plants on the 
Columbia River. The Commission on Oceans recognized that ``resource 
management decisions should be based on the best available science'' 
and we agree. However, restructuring NOAA will do nothing to ensure 
that science, not politics, guides NOAA's decision-making.
    Although the creation of a separate research and education branch 
of NOAA distinct from its operational side has a surface appeal, the 
consolidation of research and education into one place may in fact 
result in reduced research and education. For example, the operational 
forecasters who staff the NWS' 122 local Weather Forecast Offices 
regularly engage in research and publications based on their 
operational forecasting experience, and engage in community outreach 
efforts and speaking engagements to educate the public about weather, 
in addition to issuing warnings and forecasts on a daily basis. Each 
forecast office has a ``Warning Coordination Meteorologist'' whose 
responsibility it is to develop and implement a public relations 
program in his or her jurisdiction to educate the public about the 
hazards of severe weather and how to react to flood, hurricane, 
thunderstorm and tornado warnings. In summary, the ``research and 
education'' role of NOAA should not be separated from the operational 
role. Many NOAA employees have both roles today, and their dual 
functions enhance the final product.

Section 105(d)--National Weather Service Functions

    There is some minor language in Section 105(d)(1) of H.R. 4546 
which, if enacted, may unintentionally result in the diminishment in 
the services provided by the National Weather Service. One of the 
proposed functions for the National Weather Service listed in that 
Section 105 is the maintenance of ``a network of regional and local 
weather forecast offices.'' While that language seems innocuous, to 
National Weather Service employees it appears to be a ``Trojan horse.'' 
There are presently 122 local ``Weather Forecast Offices'' or ``WFOs,'' 
whose warning and forecast functions are supported by a number of 
national centers to which section 105(d)(3) refers. There are no 
``regional'' forecast offices in the NWS--but there are informal 
proposals by some in the agency to create such regional forecast 
offices by consolidating the functions of numerous local WFOs, thus 
creating a two-tier forecast office system. Scientific research has 
shown that forecasts and warnings are more reliable the closer they are 
prepared to the geographical area to which they apply. Based on this 
science, not many years ago the NWS underwent a complete reorganization 
which eliminated the pre-existing two tier field office structure, and 
increased the number of WFOs from 52 to 122. Some in the agency wish to 
reverse course by again consolidating and eliminating local WFOs. NWSEO 
urges that the reference to ``regional'' weather forecast offices be 
removed from section 105(d)(1) so that this section is not interpreted 
as Congressional authorization or approval to consolidate the local 
WFOs into regional forecasting offices.
    In order to ensure that the public knows that it can rely on the 
weather warnings, statements and forecasts emanating from the National 
Weather Service, and to distinguish them from warnings, statements and 
forecasts issued by other sources, a subsection (f) should be added to 
Section 105 that would require the NWS to identify itself as the source 
of the warnings, statements and forecasts it issues. Such language 
might read:

         ``The National Weather Service shall be the sole United States 
        official voice for issuing warnings during life-threatening 
        weather situations. All weather warnings, statements and 
        forecasts issued by the National Weather Service shall clearly 
        indicate that they were issued by the National Weather Service 
        and, since the National Weather Service identity is an integral 
        component of the Agency's mission in the protection of life and 
        property, the Department of Commerce and the National Oceanic 
        and Atmospheric Administration, shall preserve, make permanent 
        and promulgate, as a departmental priority, prominent use of 
        the agency name of `The National Weather Service' as well as 
        use of the NWS emblem/logo in association with all products and 
        services provided by all National Weather Service field 
        offices, prediction centers and management headquarters 
        throughout the Nation.''

    The first sentence of this proposed subsection appears on the NOAA 
web site and reflects current government policy.

Section 704--Interagency Planning and Process.

    Finally, NWSEO would also like to propose a minor addition to 
Section 704, ``Interagency Planning and Process.'' This section 
requires NOAA to ``coordinate and consult with'' the NSF, NASA, other 
federal agencies and ``other appropriate agencies'' to develop a five-
year plan for, inter alia, outlining methods for dissemination of 
weather information to user communities and describing best practices 
for transferring the results of weather research to forecasting 
operations. The Committee should include language requiring NOAA to 
also consult with the labor organization representing NWS employees, 
who will ultimately be responsible for implementation of this research 
into day-to-day forecasting operations.
    There is ample precedent for specifically including such a 
requirement in this legislation. Section 707(b)(1)(b) of the Weather 
Service Modernization Act of 1992 (set forth at 15 USCA 313 note) 
required the Secretary of Commerce to include on the 12-member 
Modernization Transition Committee an appointee from ``any labor 
organization certified by the Federal Labor Relations Authority as an 
exclusive representative of weather service employees.'' NWSEO 
President Ramon Sierra served on that Committee and contributed to the 
Committee's success by representing the professional views and opinions 
of the employees of the NWS who would be most responsible for, and 
impacted by, the NWS modernization.
    Accordingly, the following language should be added at the 
beginning of line 13 of section 704: ``any labor organization certified 
by the Federal Labor Relations Authority as an exclusive representative 
of weather service employees, . . .''
    This concludes my statement, Mr. Chairman. Thank you for the 
opportunity to present NWSEO's views on the proposals for a NOAA 
organic act. I would be happy to respond to any questions.

                     Biography for Richard J. Hirn

PROFESSIONAL EXPERIENCE

Private Practice--October, 1981 to present

    My law practice focuses on labor, civil rights, constitutional and 
administrative law and litigation. Representative clients have included 
national labor unions, educational associations, and other non-profit 
organizations.

         Litigated cases in federal trial and appellate courts 
        throughout the country and pioneered unique theories in 
        constitutional law, employment discrimination, labor relations 
        and other legal matters having public impact.

         As a registered lobbyist, obtained legislation that expedited 
        resolution of any collective bargaining impasses between the 
        Panama Canal Commission and its U.S. labor unions. Obtained job 
        protections for agency employees in the Weather Service 
        Modernization Act. Initial proponent of the ``Interference with 
        Access to Medical Care Act'' enacted by the Maryland State 
        Legislature in 1989. This was the first law in the country to 
        outlaw obstruction to entrances of abortion clinics and was 
        prototype for the federal ``Freedom of Access to Clinic 
        Entrances Act.'' Testified before the Judiciary Committees of 
        the Maryland House and Senate on the constitutionality of and 
        need for this legislation.

General Counsel, National Weather Service Employees Organization--
October, 1981 to present

    Chief legal officer for the union of the meteorologists at the 
National Weather Service and the environmental attorneys at the 
National Oceanic and Atmospheric Administration.

         Supervise all litigation and serve as ex-officio member of the 
        union's governing board. Assist NWSEO in its budgeting, 
        strategic planning, membership development and investment 
        strategies.

         Chief lobbyist for the union. Develop the union's legislative 
        positions and represent the union's interests before Members of 
        Congress and committee staff.

         Chair, NWSEO Political Action Committee

         Chief press spokesperson for the union. Quoted in New York 
        Times, Washington Post, USA Today and other major daily 
        newspapers; interviewed on NBC's Dateline and on National 
        Public Radio about Weather Service issues.

Associate, Mulholland & Hickey--May, 1980-October, 1981

    Represented the International Association of Fire Fighters, the 
Public Employee Department of the AFL-CIO and many of the Nation's rail 
unions in federal court litigation and routine legal matters.

Attorney, Office of General Counsel, National Labor Relations Board--
August, 1979-May, 1980

    Advised the General Counsel of NLRB on issuing unfair labor 
practice complaints on appeal from NLRB Regional Directors' dismissal 
decisions.

EDUCATION

Washington College of Law, American University, Juris Doctor, 1979

    Dean's Fellow, 1978-79 academic year; assisted in drafting ``The 
Design of the American University Criminal Justice Clinic,'' Clinical 
Legal Education, Report of the Association of American Law Schools--ABA 
Committee on Guidelines for Clinical Legal Education (1980).

Haverford College, B.A., Political Science, 1976

    Awarded Second Place, Elliston Morris and Elizabeth Smith Peace 
Prize for essays on ``Means of Achieving International Peace'' in 1976.

PUBLICATIONS

Authored over 25 appellate briefs filed in the U.S. Court of Appeals 
        and the U.S. Supreme Court.

Right to Appeal: Civil Service Due Process Amendments of 1990, The 
        Washington Lawyer, March/April 1991.

Drug Tests Threaten Employers, Too, New York Times, Op-Ed page, 
        November 12, 1988.

Weather Service Sailing into Budget Storm, Cleveland Plain Dealer, Op-
        Ed page, March 15, 1989.

New Protection for a Basic Right--Access to Medical Care, Washington 
        Post, Op-Ed page, July 2, 1989.

Maryland Closes the Door on Operation Rescue, Baltimore Evening Sun, 
        Op-Ed page, July 3, 1989.

Sending Title VII to the Jury, The Washington Lawyer, September/
        October, 1989.

Title VII Cases Should Go To The Jury, Los Angeles Daily Law Journal 
        and the San Francisco Banner Daily Journal, October 19, 1989.

TEACHING/LECTURES

Local Union Representatives Training Program for the National Weather 
        Service Employees Organization; Los Angeles, Atlanta, San 
        Francisco, Albany, Tampa, Charlotte, Dallas, Kansas City, 
        Seattle and Honolulu, 1999-2004.

University of Panama, Institute of Panama Canal Studies, Symposium on a 
        Special Labor Regime for the Panama Canal Authority, August 13-
        14, 1996.

Adjunct Instructor, Washington College of Law, American University, 
        1980-81 academic year.

                               Discussion

    Chairman Ehlers. I thank you very much for your testimony, 
and I do want to express my appreciation for the people you are 
representing here. I have visited the local Weather Service in 
my community several times, and have had good interactions with 
them. And I am also reminded of the apocryphal story of the 
Congressman some years ago who was attempting to abolish a good 
share of the Department of Commerce, and someone asked him 
``What about the Weather Service?'' He said ``I don't need 
that. I get it off my TV.'' I don't know if the story is true 
or not, but that person did lose his next election, so----
    Mr. Gilchrest. That is a true story, Vern.
    Chairman Ehlers. It is. Okay. So at any rate, that person 
lost their next election, so that should be some comfort to 
your----
    Mr. Hirn. Well, as a matter of fact, a Member of the Senate 
Commerce Committee, when I told him who I represented, asked me 
how the folks were down at The Weather Channel in Atlanta.
    Chairman Ehlers. Yeah.
    Mr. Hirn. So, our concerns about the identity problem are 
not with--are not unfounded.
    Chairman Ehlers. No. And at the same time, I think it is 
wonderful that we do have a private sector that disseminates 
your results so widely, even if they do take credit for them. 
In view of the short time, and that we do have votes, and I 
know Mr. Udall has some questions, I will yield to you at this 
time.
    Mr. Udall. I thank the Chairman. The Chairman is as 
gracious as always, and if I might, and I think we do have 
enough time, Mr. Hirn, start by pursuing this line of 
questioning.
    We have heard numerous times and in testimony during the 
earlier panel that NOAA's line office structure has inhibited 
the Agency from functioning as an integrated unit. Would you 
care to comment on that particular point of view?
    Mr. Hirn. Well, let me say this, that there has been a--
there is a lot of research that has been done within NOAA that 
has applicability to improving warnings and forecasts, and the 
reason that it hasn't been put in place is not because there is 
not sufficient interrelationship between the research folks and 
the operational folks. The reason it is not being put in place 
is there is no money to do it.
    So, merely changing the organizational structure is not 
going to solve that problem. It is not that the research is not 
being tailored to the organizational mission, although there 
are situations like at the Atlantic Oceanographic 
Meteorological Laboratory, where rather than doing the research 
the Agency needs, because of insufficient funding, they are--
spend a lot of their time applying for outside grants for 
research, and then doing the research for which they can get 
outside funding, rather than the research that the Agency 
actually needs. And as a result, the--although the hurricane 
tracking forecasts have improved in recent years, it has been 
nowhere near as much as they could be had that research been 
fully funded, rather than having the folks who do the hurricane 
research running around trying to get private sector grants to 
study whatever somebody is going to fund from the outside.
    Mr. Udall. I hope you will take advantage of this 
opportunity today, and also with additional testimony for the 
record, to highlight other examples that make the case that I 
think you are making in a compelling fashion here.
    If I could move to--well, actually, I want to make one 
other comment. My colleague, Mr. Gutknecht, isn't here, and I 
appreciated his taking time out of his schedule to come to 
Boulder and visit the NOAA laboratory that is there, and it is, 
I think, at least it was state of the art for a federal 
laboratory. It doesn't mean it is state of the art for a 
private sector laboratory, and one of the missions when we 
built the NOAA facility in Boulder, which this committee and 
this Congress supported, was to try and get on the front end of 
changes in technology and building design. But that is a bricks 
and mortar investment. We have to make the operating side 
investments as well, and I think that is what I hear from you, 
and I heard from others who were here today, including Dr. 
Baker.
    Having said that and made that point, let me move to one 
other question. What role have the employees or--and I don't 
know, the acronym doesn't roll of my tongue here, but I will, 
NWSEO, on their behalf, played in the current program reviews 
in this proposed reorganization? And have employees 
historically been included in similar exercises that past 
Administrations have taken?
    Mr. Hirn. We have had the--we have had no input on this 
whatsoever, or consulted with it. I would say that the National 
Weather Service, regardless of who the leadership has been, and 
in particular, Joe Friday made this a very important role, and 
the new Director, Director Johnson is doing this, has been 
consulting with the Weather Service Employees Organization on 
Weather Service issues, but unfortunately, with regard to the 
NOAA level, and the Department level, regardless of what 
Administration it has been, we have sort of been a pariah. And 
we have not been consulted on--at the NOAA level, or the 
Commerce level, in this or the previous Administration. But we 
have been consulted at the Weather Service level, and we have a 
very good working relationship, and have had a very good 
working relationship, with all the recent Weather Service 
directors.
    Mr. Udall. And Chairman, I would like to ask another 
question. I think we have enough time, but if I could just make 
this offer, I would like to work with you and be available to 
encourage Commerce and the Committee that is looking at all of 
this to consider your point of view, and as somebody who thinks 
that employees on the frontlines know what is going on, and 
what can work, I would really like to promote that approach, 
and I think it could only make for a stronger product in the 
long run. So, again, thank you for appearing before the 
Committee today, and I would yield back any time I have left.
    Mr. Hirn. Thank you.
    Chairman Ehlers. Thank you, and my question is fairly 
brief, but I think a very important one. If you don't have time 
to fully answer it here to your satisfaction, you can certainly 
put it in writing. And that is, we are trying to find out not 
just what is wrong with what we have done in our bill, but what 
is missing. And so I would like to know from your perspective, 
and from the perspective of the group you represent, what do 
you think we should have in the organic act that I have 
written, or I should say our staff has written, that you think 
should be added, that will clarify the mission and role of the 
National Weather Service?
    Mr. Hirn. Well, remembering of course that we don't just 
represent the Weather Service, we represent a lot of other 
groups----
    Chairman Ehlers. Right.
    Mr. Hirn [continuing]. That would, for example, the NOAA 
General Counsel's Office, where we represent the attorneys, we 
think there should be some more language, or perhaps there will 
be when it goes to Chairman Gilchrest's Committee, put in about 
the important regulatory role that the NOAA attorneys are 
involved in, the environmental enforcement, things like that.
    Chairman Ehlers. Yeah. Because of jurisdictional problems, 
we couldn't get into that, but I have already had discussions 
with him and it occurs to him, too.
    Mr. Hirn. We think that your description of the Weather 
Service mission and role is excellent.
    Chairman Ehlers. All right. I appreciate that. And if you 
have anything further, please put it in writing, and similarly 
to Mr. Gilchrest, because he will be taking this up.
    Mr. Hirn. Thank you, Mr. Chairman.
    Chairman Ehlers. I want to thank everyone for 
participating, and before we bring the hearing to a close, I 
want to once again thank you, as well as the other panelists, 
for appearing here, and the feedback you have provided, all 
panelists have provided, is tremendously important to us as we 
pursue this.
    I am not the sort of Congressman who thinks I am the expert 
on everything, and so we are here to learn from all the 
panelists who were here today.
    I am pleased that H.R. 4546 is on the right track. I am 
pleased with the general acceptance I have heard from 
everyone--every affected group that has talked to me about it. 
They seem to prefer it above the Administration bill, and 
above, in some cases, above the Senate bill. But we are going 
to keep our minds open, and look forward to working with 
everyone involved, and the authors of the others bills, as we 
proceed with this.
    If there is no objection, the record will remain open for 
additional statements from the Members and for answers to any 
followup questions the Subcommittee may ask of the panelists. 
And without objection, so ordered.
    With thanks again to everyone, this hearing is now 
adjourned.
    [Whereupon, the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Theodore W. Kassinger, Deputy Secretary, U.S. Department 
        of Commerce

Q1.  In his testimony, Dr. Friday expressed concerns about procurement 
of the next generation of Geostationary Operational Environmental 
Satellites (GOES-R). Is the Administration planning to use NASA as the 
procurement contractor for GOES-R, as it did in the past? If so, why 
not use a model such as the new polar satellite program, the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS), 
which many experts have cited as a successful program?

A1. NOAA is continuing to look at procurement options that will 
maximize system capabilities while minimizing cost. Acquisition and 
organizational strategies will include strategies similar to the NPOESS 
approach, as well as other procurement options.

Q2.  Dr. Friday suggested NOAA's strategic plan for research should be 
reviewed by the National Academy of Sciences, in a process similar to 
that used for reviewing the Climate Change Science Program strategic 
plan. Would the Administration support this proposal?

A2. NOAA is preparing a Five-Year Research Plan to support its 
Strategic Plan. The NOAA Five-Year Research Plan is being developed in 
consultation with our external partners and with input from the NOAA 
Science Advisory Board (SAB). We will explore the need for a National 
Academy of Sciences review following input from the SAB.
    The Five-Year Research Plan was released for public comment on 
August 20, and the public comment period will last until September 30. 
The instructions for downloading and commenting on the Five-Year 
Research Plan draft can be found on the Federal Register notice posted 
at http://www.nrc.noaa.gov/Reports.htm. An opportunity for external 
comments will be provided on a regular basis.

Q3.  Dr. Friday suggested that members of the NOAA Science Advisory 
Board be appointed in consultation with the National Academy of 
Sciences. Would the Administration support this proposal?

A3. The Administration supports the creation of a broader NOAA Advisory 
Committee on Oceans and Atmosphere (Committee) that can provide advice 
on the full range of NOAA research and operations. The expanded 
Committee would build upon the success of the NOAA Science Advisory 
Board in two ways. First, representative users of science--marine 
resource managers and policy-makers--would also participate in 
reviewing NOAA research activities. Second, scientists would 
participate in reviewing how NOAA resource management and operational 
programs utilize science in their activities. We believe the synergy 
created by this more comprehensive dialogue among scientists, managers 
and policy makers would be beneficial to all. As the membership of the 
NOAA Advisory Committee on Oceans and Atmosphere would involve a broad 
range of participants, we would welcome recommendations from not only 
the National Academy of Sciences, but also other appropriate societies 
and organizations.

Questions submitted by Democratic Members

Q1.  NOAA has had a position of Chief Scientist in the past. Although 
qualified people served in this position, the existence of the position 
did not appear to have much impact on NOAA's scientific enterprise. If 
we create the Deputy Assistant Secretary for Science position included 
in H.R. 4546, what assurance do we have that whoever assumes this role 
will have more success and influence than the former Chief Scientists 
at NOAA?

A1. Early in this Administration, the Under Secretary of Commerce for 
Oceans and Atmosphere, VADM Lautenbacher, instituted a top-to-bottom 
review of NOAA operations and research. One of the items addressed 
regarded the position of NOAA's Chief Scientist. Recommendation number 
36 from the Program Review Team (PRT) of June, 2002, recommended, ``the 
establishment of corporate level oversight of research (Research 
Committee) regardless of the manner in which the research is conducted. 
The new structure would replace the Office of the Chief Scientist, with 
appropriate redistribution of that office's roles and 
responsibilities.'' NOAA recognizes the vital role of research in the 
agency. To better coordinate its research enterprise, NOAA has a 
Research Council in place. This Council is charged with ensuring all 
NOAA services are based on sound science and all NOAA research programs 
are integrated, coordinated and consistent with the NOAA Mission and 
NOAA's Strategic Plan much in the same way intended by the proposed 
Deputy Assistant Secretary for Science and Technology in H.R. 4546. We 
would be pleased to discuss with members of the Subcommittee how we 
believe this function is being met through the new Research Council 
mechanism.

Q2.  In your testimony you list four priorities that NOAA adopted: none 
of the priorities lists conservation. What role does conservation play 
in ecosystem approaches to managing the environment?

A2. The concept of conservation is included in NOAA's ecosystem goal 
and in Section 105 of the Administration's proposed organic act, which 
encompasses living marine resources, habitat, and management of ocean 
and coastal areas. The primary mission of NOAA's ecosystem approach to 
management is to protect, restore, and manage the use of coastal and 
ocean resources. NOAA defines an ecosystem approach to management as 
one that: (1) is adaptive, (2) is regionally directed, (3) takes 
account of ecosystem knowledge, (4) takes account of uncertainty, (5) 
considers multiple external influences, and (6) strives to balance 
diverse societal objectives.
    Conservation of a living marine resource is defined by some as the 
protection of that resource. Others would define conservation to 
include the concept of planned management. In either case, NOAA's 
ecosystem approach to management includes a strong conservation ethic.

Q3.  In your testimony, you stated that the administration has placed 
an emphasis on science that has a clear application to NOAA's programs. 
The tension between doing research with medium to long-term potential 
application and doing research to serve the immediate needs of the 
operational line offices at NOAA is legendary. Do you see a continued 
role for long-term research done through the Oceans and Atmospheric 
Research labs at NOAA? What research does the administration propose to 
phase out or de-emphasize because of a limited utility to NOAA's 
mission?

A3. NOAA's Science Advisory Board (SAB) has just completed a review of 
NOAA's research effort. The SAB found that, ``long-term, visionary 
research for discovery is a crucial part of NOAA science.'' Further, 
the report found that a sustained research program is essential for a 
science-based agency with long-term operational responsibilities, and 
it recommends ``retaining and strengthening a line office with the 
predominant mission of research, i.e., OAR [Oceans and Atmospheric 
Research].'' NOAA needs to carry out research on all timescales: near-
term (less than two years), mid-term (two-to-five years), and long-term 
(more than five years). Some research might not have a near-term 
operational application, yet provides cutting-edge solutions for the 
future.
    Research in NOAA is constantly evolving. Research is phased out 
when it has been transitioned into operations or provided to a user to 
meet a particular need. Research is also ended when more promising 
research opportunities are identified. NOAA's Planning, Programming, 
Budgeting, and Execution System analyzes research related to programs 
and applies guidelines to determine if the research should be enhanced 
or phased out.

                   Answers to Post-Hearing Questions
Responses by D. James Baker, President and Chief Executive Officer, The 
        Academy of Natural Sciences

Q1.  What assurance do we have that whoever assumes the role of Deputy 
Assistant Secretary for Science will have more success and influence 
than the former Chief Scientists at NOAA?

A1. In my experience, Chief Scientists at NOAA have been effective in 
two ways: external advocates for the agency (Dr. Sylvia Earle and Dr. 
Kathleen Sullivan both helped enormously in promoting NOAA issues from 
fisheries to satellites) and as internal advisors (Dr. Al Beeton was a 
superb trouble shooter and chair of the NOAA Science Advisory 
Committee). Others, who were not effective in one of these two roles, 
had little impact. The title of Deputy Assistant Secretary helps raise 
the political awareness of the position, and may help attract the kind 
of person needed.

Q2.  What programs are most problematic in terms of overlap with other 
agencies? How can this problem be resolved?

A2. The main problems arise in coastal waters, in jurisdiction of 
fisheries management, and in remote sensing. The overlap of coastal 
responsibilities among NOAA, EPA, and the Department of Interior needs 
to be sorted out soon--it is a complex tangle of historical 
responsibilities that only causes delay in resolving important issues. 
I suggest a Congressional hearing with each of the subject agencies 
asking them their responsibilities and how they might reduce the 
overlap.
    Land remote sensing is an area where the responsibilities lie with 
NOAA, USGS, and NASA, with considerable interest from DOD and the 
intelligence agencies. The fits and starts with Landsat management 
shows that the system is broken, and only now starting to get resolved 
with a Landsat sensor flying on a joint NOAA/Airforce satellite 
(NPOESS). Once again, I would suggest a Congressional hearing to hear 
from all these agencies.
    Fisheries management is also a multi-agency problem, mainly between 
NOAA and U.S. Fish and Wildlife. This problem is less urgent than the 
coastal issues, but still needs to be watched.

Q3.  What safeguards can we put in place to ensure NOAA's scientific 
independence?

A3. The best safeguard is to make NOAA an independent agency. Short of 
doing that, there needs to be a channel for NOAA to appeal scientific 
issues--OSTP would be a good option--if there is censorship or 
suppression of scientific information.

Q4.  What additional duties should the Deputy Assistant Secretary for 
Science and Technology have?

A4. I believe that H.R. 4546 fully covers the range of duties and 
authorities necessary for this position. The key element for success is 
to get the right person.

Q5.  How can the independence of the NOAA Science Advisory Board be 
assured?

A5. I like Dr. Friday's suggestion of appointments in consultation with 
the National Academy of Sciences. This could be a good model for this 
and other science advisory bodies.

Q6.  How should the Nation organize its research and development of 
civilian Earth observing satellite programs?

A6. Since NOAA is so critical in providing information and warnings to 
the public, I believe it should play a stronger role in civilian Earth 
observing systems. But this means adding to the budget of NOAA. For 
example, the idea of transferring NASA's Earth observing satellites to 
NOAA is good, provided that the funding is also transferred. NASA's 
support of Goddard and JPL for Earth remote sensing is also critical 
and should not be lost in any case. Thanks to the NPOESS system which 
was set up in my administration, the relations between NOAA and DOD/Air 
Force are good with respect to weather satellites. The Nation needs a 
similar agreement for land remote sensing that includes USGS so that 
the Landsat problem can be correctly addressed. The Congress could help 
here, as I mentioned earlier, by holding a hearing from all the 
agencies involved, NOAA, NASA, USGS and Air Force, to discuss what 
relationships and interagency cooperation need to be formed.

                   Answers to Post-Hearing Questions
Responses by Rear Admiral Richard D. West, President, Consortium for 
        Oceanographic Research and Education

Q1.  In your testimony you support the addition of a Deputy Assistant 
Secretary for Science and Technology to NOAA's leadership, as called 
for in H.R. 4546. Do you believe there are additional duties or 
authorities this position should have?

A1. In my overview to the Subcommittee on the results of the work 
undertaken by the NOAA Research Review Team, I expressed the review 
team's support for the creation of a position that we called Associate 
Administrator for Research. This person would report directly to the 
NOAA Administrator. Although H.R. 4546 calls for a Deputy Assistant 
Secretary for Science and Technology, the position functions are 
largely the same. While the bill defines the functions of the position 
very clearly, it is still worth emphasizing how important it is that 
the person in this position be entrusted with both mission and budget 
authority for all NOAA research. CORE and the Research Review Team also 
support making this position a career-reserved position.

Q2.  In his testimony, Dr. Friday suggested that members of the NOAA 
Science Advisory Board be appointed in consultation with the National 
Academy of Sciences. His concern is to avoid the Science Advisory Board 
being a ``rubber stamp'' for the NOAA Administrator. Is this a major 
problem? If so, what are other ways to ensure the independence of the 
NOAA Science Advisory Board?

A2. Probably the best way to prevent the Science Advisory Board (SAB) 
from acting as a ``rubber stamp'' for the NOAA Administrator is to 
ensure that most accomplished and respected members and leaders from 
the oceans and atmospheric research communities are appointed to it. 
Involving the National Academy of Sciences might be one way to achieve 
that goal. The Committee also may wish to consider alternative 
nomination or appointment procedures to ensure the independence of the 
advisory board members. One approach would be to make the positions 
Presidential nominations with Senate confirmation, similar to the 
National Science Board of the National Science Foundation.

Question submitted by Democratic Members

Q1.  NOAA has had a position of Chief Scientist in the past. Although 
qualified people served in this position, the existence of the position 
did not appear to have much impact on NOAA's scientific enterprise. If 
we created the Deputy Assistant Secretary for Science position included 
in H.R. 4546, what assurance do we have that whoever assumes the role 
will have more success and influence than the former Chief Scientists 
at NOAA?

A1. First and foremost, the bill calls for the creation of a career-
reserved position with far greater authority than that with which 
current Chief Scientist position is entrusted. If the Deputy Assistant 
Secretary position defined in H.R. 4546 is enacted, the position will 
carry both mission responsibility and budget authority for all NOAA 
research. These two key features of the position, along with the other 
seven functions delineated in the legislation would ensure that those 
serving in this position would have real and effective authority over 
NOAA's research enterprise.

                   Answers to Post-Hearing Questions
Responses by Elbert W. (Joe) Friday, Jr., Former Assistant 
        Administrator, National Weather Service

Q1.  In your testimony you support the addition of a Deputy Assistant 
Secretary for Science and Technology to NOAA's leadership, as called 
for in H.R. 4546. Do you believe there are additional duties or 
authorities this position should have?

A1. The position should be the equivalent of a corporate Vice President 
for Research and Development and not a Chief Scientist as in a previous 
NOAA organizational structure. The individual should be charged with 
the overall NOAA R&D program, having budgetary authority for the 
research and development activities. The individual should be charged 
with oversight of the major `programs' for R&D such as the National Sea 
Grant College Program, the US Weather Research Program, the Coastal 
Ocean Program, etc.

Q2.  This committee has received many suggestions about the interaction 
of NASA and NOAA, particularly concerning the transition of research to 
operations. The U.S. Commission on Ocean Policy recommended that NASA 
transfer operation of research satellites to NOAA once they are 
launched. The National Research Council suggested establishing an 
interagency NASA-NOAA planning office to facilitate transition of 
research satellites into operations. Given the various proposals, 
please elaborate on how you think the Nation should organize its 
research and development of civilian Earth observing satellite 
programs.

A2. In at least two separate reports, the National Research Council has 
recommended a formal establishment of a division of mission 
responsibilities for Earth remote sensing between NASA and NOAA. One 
report recommended the recreation of the very successful Operational 
Satellite Improvement Program (OSIP) in which NASA flew development 
versions of weather satellite sensors on the NIMBUS spacecraft for 
subsequent implementation on the NOAA TIROS weather satellites. The 
OSIP program was formally terminated in 1982. The most recent 
recommendation was for the development of the NASA-NOAA planning 
office. Both recommendations were rejected by the Associate 
Administrator for the Earth Sciences Enterprise. Now that there is no 
Earth Science Enterprise at NASA, I am even more concerned about NASA's 
willingness to continue to develop instruments for future Earth remote 
sensing. To specifically answer your question, I believe that NOAA 
should be given the mission of developing the technology necessary to 
provide for the Earth remote sensing capabilities. This would be a 
transfer to NOAA the former NASA ESE mission WITH THE ASSOCIATED BUDGET 
AUTHORITY, CEILING, and APPROPRIATION. The present Integrated Program 
Office IPO for NPOESS has proven the possibility of developing and 
procuring a major environmental satellite system under NOAA leadership. 
The IPO has tapped into the same contractor support capability that has 
been used by NASA. This would free NASA to focus fully on its 
exploration mission and focus the Earth mission in NOAA.

                   Answers to Post-Hearing Questions
Responses by Richard J. Hirn, General Counsel, National Weather Service 
        Employees Organization

Q1.  All witnesses were asked for their opinion whether the proposed 
Deputy Assistant Secretary for Science will have more success and 
influence than the former Chief Scientists.

A1. The National Weather Service Employees Organization does not feel 
that it can offer an authoritative opinion on this issue. However, 
NWSEO does note that the Department of Commerce already has at least 29 
Deputy, Under, Associate, Assistant and Deputy Assistant Secretaries 
for what may be the smallest cabinet department.

Q2.  These Committee Members asked whether the organic act should 
specify some structure and authorize some positions of responsibility 
tied to specific functions other than the National Weather Service, 
such as the Fisheries and Oceans Services.

A2. The case for establishing specific agency structures for other 
existing line agencies is not as compelling as the case for specific 
statutory authority for the National Weather Service. As noted in our 
earlier testimony, it is necessary to preserve the identity of the 
National Weather Service because it has earned its well deserved public 
reputation for the ever increasing timeliness and accuracy of its 
forecasts and warnings. Loss of that identity will confuse the public 
who have grown to trust the forecasts and warnings issued from ``the 
National Weather Service.'' Nonetheless, statutory specification of 
other line agencies within NOAA will require DOC to make more specific 
budget requests, and would require DOC to reveal specific FTE 
allocations, than it would otherwise be required to do if existing NOAA 
agencies were fully consolidated. This would enhance Congressional 
programmatic and appropriations oversight, and would increase agency 
accountability.
    However, consolidation of certain existing NOAA agencies based on 
their existing functions seems logical. The missions of the NMFS and 
NOS overlap in many regards. The Oceans Commission recommended a 
restructuring of the entirety of NOAA based on ``Assessment, Prediction 
and Operations,'' ``Management'' and ``Research and Education.'' But 
the Commission really only considered the oceans function--not the 
atmospheric services provided by NOAA. NWSEO suggests that the more 
logical restructuring may be to divide NOAA into two separate agencies:

        <bullet>  the National Oceanic Administration, which would 
        include NOS, NMFS, the NOAA Corps and vessels, those OAR labs 
        whose primary mission in oceanic research and the existing NOAA 
        Office of General Counsel (whose primary mission is to provide 
        legal services to NMFS and NOS);

        <bullet>  the National Weather Service, which would include 
        NESDIS (which tracks and command the Nation's weather 
        satellites), the NOAA Aircraft Operations Center (which flies 
        hurricane reconnaissance missions), the National Climatic Data 
        Center, and those OAR labs whose primary mission is atmospheric 
        research.

    The restructuring model proposed by the Oceans Commission could be 
applied to the internal structure of these two agencies.
    Such a division of NOAA would facilitate Congressional oversight. 
Presently, different Committees of the House, and different 
Subcommittees of the Senate Commerce Committee, have jurisdiction over 
the oceanic and atmospheric portions of NOAA. This restructuring would 
more closely align the agency with the Congressional committee 
structure.
    NWSEO recognizes that such a division of NOAA into two agencies 
would not be consistent with the recognition that the oceans and the 
atmosphere are an integrated ecosystem. However, an integrated NOAA 
will not be able to administer a comprehensive ecosystem management 
plan because it will still not have jurisdiction over land and 
tributaries. The agencies who are responsible for these systems, the 
Forest Service, the National Geologic Survey, the Fish and Wildlife 
Service, remain in other cabinet departments. Furthermore, although the 
``wet'' side of NOAA is responsible for ensuring the environmental 
quality of the oceans through stewardship and environmental 
enforcement, the atmospheric side of NOAA has no responsibility for the 
environmental quality of the air, because the EPA enforces the Clean 
Air Act. While the ``wet'' side of NOAA has a clear environmental 
protection mission, the National Weather Service is primarily a public 
safety, rather than an environmental, agency. NWSEO believes that the 
public will be better served by two smaller, flatter, agencies, rather 
than one, larger, hierarchical agency.

</pre></body></html>
